Audit Report




OIG-12-027
Audit of the Office of the Comptroller of the Currency’s
Fiscal Years 2011 and 2010 Financial Statements
December 16, 2011




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 16, 2011


            MEMORANDUM FOR JOHN WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Office of the Comptroller of the Currency’s
                                    Fiscal Years 2011 and 2010 Financial Statements


            I am pleased to transmit the attached audited Office of the Comptroller of the
            Currency (OCC) financial statements for fiscal years 2011 and 2010. Under a
            contract monitored by the Office of Inspector General, GKA, P.C. (GKA), an
            independent certified public accounting firm, performed an audit of the financial
            statements of OCC as of September 30, 2011 and 2010 and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by GKA, are incorporated in the attachment:

                •   Independent Auditor’s Report on Financial Statements;
                •   Independent Auditor’s Report on Internal Control over Financial Reporting;
                    and
                •   Independent Auditor’s Report on Compliance with Laws and Regulations

            In its audit, GKA reported:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with accounting principles generally accepted in the United
                    States of America,

                •   no matters involving internal control and its operations that are considered
                    material weaknesses, and

                •   no instances of reportable noncompliance with laws and regulations tested.
GKA also issued a management letter dated October 31, 2011, discussing certain
matters involving internal control over financial reporting and its operation that
were identified during the audit but were not required to be included in the
auditor’s reports. This letter will be transmitted separately.

In connection with the contract, we reviewed GKA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. GKA is
responsible for the attached auditor’s reports dated October 31, 2011 and the
conclusions expressed in the reports. However, our review disclosed no instances
where GKA did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789 or
a member of your staff may contact Ade Bankole, Manager, Financial Audits
at (202) 927-5329.

Attachment
                                                                                OCC Locations
                       Seattle



                                                                                                                  Duluth
                                                                                           Fargo                                    Iron Mountain
                                                                                                         Alexandria
                                                        Billings

                                                                                                                                                                                                                    Boston
                                                                                                                       Minneapolis
                                                                                                                                                                                             Syracuse

                                                                                       Sioux Falls                              Milwaukee
                                                                                                                                                         Detroit                                               New York
                                                                                                                                                                                   Wilkes-Barre
                                                                                                             Sioux City                                                                Philadelphia       Edison
                                                                                                                                    Chicago
                                                                                                                                                                Cleveland          Pittsburgh
                                                                                             Omaha             Des Moines                  Peoria                 Columbus
                                           Salt Lake                                                                                             Indianapolis
                                           City                                                                                   Champaign                     Cincinnati                                 Washington, DC
           San                                                     Denver
                                                                                                                                                                             Charleston
           Francisco                                                                                  Kansas
                                                                                         Salina                                                  Evansville
                                                                                                         City                           St. Louis           Louisville                    Roanoke
                                                                                           Wichita
                                                                                                                    Joplin
                                                                                                                                                          Nashville
                  Los Angeles                                                                                                                                                             Charlotte
                     Santa Ana                                                                       Tulsa
                                                                                                                                             Memphis
                                                                                                                          Little Rock
                       San Diego                                            Amarillo                 Oklahoma
                                                       Albuquerque                                   City
                                       Phoenix                                                                                                                           Atlanta
                                                                            Lubbock
                                                                                                       Dallas                                        Birmingham
                                                                                                                                         Jackson
                                                                                       Fort Worth

                                                                                                         Longview
                                                                                                                                                                                           Jacksonville

                                                                                                             Houston                              New Orleans
                                                                                           San Antonio                                                                              Tampa



                                                                                                                                                                                           Miami                Great
                                                                                                                                                                                                                  Britain



                                                                                                                                                                                                               London




                             Western District                       Central District                                        Southern District                                      Northeastern District




National Banking System at-a-Glance                                                                           OCC at-a-Glance
All OCC-supervised institutions                           2,036                                               Employees (full-time equivalents)                                                           3,717
 Large banks                                              45                                                  Office locations*                                                                           66
 Midsize banks                                            51                                                  Budget authority                                                                            $876.5 million
 Community banks                                          1,303                                               Revenue derived from assessments                                                            97 percent
 Federal savings associations                             637                                                 Consumer complaints opened                                                                  87,000
All OCC-supervised institutions, total                    $9.6 trillion                                       Consumer complaints closed                                                                  92,000
assets                                                                                                       *The OCC maintains multiple locations in some large cities. In
All OCC-supervised institutions, share of                 76 percent                                         addition, the OCC has a continuous on-site presence at large
total U.S. commercial banking assets                                                                         banks under its supervision.
Agency Profile
and History
The Office of the Comptroller of      When John Dugan, the 29th               compliance with law.
the Currency’s (OCC) mission is       Comptroller of the Currency, com-       They also evaluate man-
to charter, regulate, and supervise   pleted his five-year term in August     agement’s ability to identify
all national banks and federal        2010, John Walsh became Acting          and control risk.
savings associations (collectively,   Comptroller of the Currency.
banks) and to supervise the federal                                           In supervising banks, the OCC has
branches and agencies of foreign      Headquartered in Washington,            the power to
banks. In supervising banks, the      D.C., the OCC has four district
                                      offices plus an office in London,       •	   examine the banks;
OCC’s goal is to ensure that they
                                      which supervises the international      •	   approve or deny applications
operate in a safe and sound man-
                                      activities of national banks. The            for new charters, branches,
ner and in compliance with laws
                                      OCC’s nationwide staff of exam-              capital, or other changes in
requiring fair treatment of their
                                      iners conducts on-site reviews               corporate or banking structure;
customers and fair access to credit
                                      of banks and provides sustained         •	   take supervisory actions
and financial products. The OCC is
                                      supervision of these institutions’           against banks that do not com-
an independent bureau of the U.S.
                                      operations. Examiners analyze loan           ply with laws and regulations
Department of the Treasury.
                                      and investment portfolios, funds             or that otherwise engage in
The President nominates the           management, capital, earnings,               unsound practices;
Comptroller of the Currency           liquidity, sensitivity to market risk   •	   remove officers and direc-
subject to confirmation by the        for all banks, and compliance with           tors, negotiate agreements to
U.S. Senate. The Comptroller also     consumer banking laws governing              change banking practices, and
serves as a director of the Federal   banks with less than $10 billion in          issue cease-and-desist orders
Deposit Insurance Corporation         assets. The OCC examiners review             as well as civil money penal-
(FDIC) and NeighborWorks              internal controls, perform internal          ties; and
America.                              and external audits, and ensure




                                             	                                      Agency Profile and History	      i
       Abraham Lincoln                                 Salmon P. Chase                         Hugh McCulloch




•	    issue rules and regulations,             state-chartered Bank of Indiana.        The National Bank Act endows
      legal interpretations, and               McCulloch went to Washington            the OCC with considerable opera-
      corporate decisions governing            to argue against passage of the         tional independence. The OCC
      investments, lending, and other          National Currency Act but soon          does not receive appropriations
      practices.                               came to appreciate its merits.          from Congress. Instead, the OCC’s
                                               Salmon P. Chase, Lincoln’s              operations are funded primarily
The OCC and the national bank-                 Secretary of the Treasury, asked        through assessments on national
ing system were created by the                 him to lead the new system, and         banks. National banks pay addi-
National Currency Act, which                   McCulloch agreed.                       tional fees for the OCC to process
President Abraham Lincoln signed                                                       charter, merger, and other corpo-
into law on February 25, 1863. In              Under McCulloch, his successors,        rate applications.
June 1864, the law was substan-                and a professional staff of national
tially revised and expanded and                bank examiners, the new system          On July 21, 2011, under provisions
given a new name: the National                 made an important contribution          of the Dodd–Frank Wall Street
Bank Act. It remains the basic                 to the robust growth of the U.S.        Reform and Consumer Protection
statute under which the OCC and                economy. National banks under           Act of 2010,1 the Office of Thrift
the national banking system oper-              OCC supervision issued a uniform        Supervision (OTS) became part of
ate today.                                     national currency, which replaced       the OCC. As a result, the OCC is
                                               the previous varied and unreliable      responsible for the supervision of
The first Comptroller of the                   money supply, and provided finan-       federal savings associations, under
Currency was Hugh McCulloch,                   cial services all across the country.   the Home Owners’ Loan Act.
formerly the president of the




                                                                                       1
                                                                                         Hereafter referred to as Dodd–Frank in
                                                                                       this report.



ii	       Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
Contents
  Agency Profile and History	                                   i

  Comptroller’s Viewpoint	                                      2

  Section One: Year in Review—Housing in the Forefront	         7

  Section Two: OCC Profiles	                                   23

  Section Three: Condition of the National Banking System	     29

  Section Four: OCC Organization	                              33

  Section Five: Licensing and Enforcement Measures	            37

  Section Six: Financial Management Discussion and Analysis	   43

  Abbreviations	                                               81

  Index	                                                       83




                                         1
                                	Contents	
Comptroller’s Viewpoint

When I signed the “Comptroller’s              history seems to be that we are          work at OCC offices throughout
Viewpoint” last year as Acting                doomed to repeat it. But whatever        the country on Monday, July 18,
Comptroller of the Currency,                  questions there may be about the         2011, ahead of the official July 21
it was with no expectation that               likely impact of the reform pro-         transfer date.
I would do so again in 2011.                  gram, the implementation task is
Implementation of Dodd–Frank                  clearly far from over.                   I have spent considerable time
was just getting under way and                                                         thanking our combined staffs for
looked to be the dominant theme               The sweeping Dodd–Frank Act              accomplishing all this so smoothly,
for the next year and beyond. And             will bring changes in the opera-         but let the record show that the
indeed it has been dominant, but              tions of large banks and the way         only simplification of the U.S.
other events—other echoes of the              the agencies monitor and manage          regulatory framework mandated by
financial crisis—have intervened              systemic risk. In addition, the law      Dodd–Frank was achieved without
to make this an even busier year              mandated new regulations aimed at        fanfare—essentially without notice
than anyone could have imagined.              curbing abuses in mortgage lend-         by the outside world. Our goal was
                                              ing and securitization that helped       to make the transition as smooth
Almost every area of finan-                   bring on the financial crisis. In all,   as possible, both for the federally
cial regulation was affected by               Dodd–Frank set in motion nearly          chartered thrifts that were subject
events of the year, often in very             100 projects at the OCC, includ-         to OTS oversight and for the staff
significant ways. As expected,                ing a yearlong effort to remake          of the OTS that joined the OCC,
Dodd–Frank implementation was                 the agency by absorbing most of          and that was accomplished. We
the major preoccupation of the                the staff and responsibilities of the    need every bit of the talent and
OCC, especially the provisions                OTS. That single requirement not         experience of former OTS staff to
that became effective in July 2011.           only reshaped the agency but also        help fulfill our combined super-
New Basel initiatives in the areas            greatly expanded our supervisory         visory mission, and the men and
of capital and liquidity—especially           and regulatory presence in the area      women joining us from the OTS
heightened standards for systemi-             of mortgage lending.                     have been fully integrated into
cally important banks—expanded,                                                        policy and field units where their
and in some ways complicated,                 After a year spent working on            talents can best be utilized.
the Dodd–Frank reform agenda.                 interagency rulemakings to imple-
Then the foreclosure mess came to             ment Dodd–Frank, most of that            We also recognized at the outset
light, resulting in a series of major         work remains unfinished and a            how important it would be to pur-
enforcement actions to address                number of the ambitious deadlines        sue outreach to the thrift indus-
failures in mortgage servicing and            in the law have been missed. Not         try, and we established a robust
foreclosure processing. As we                 so the transfer of staff and respon-     communication program to ensure
work to put regulation after regula-          sibilities from the OTS into the         that thrift executives knew what to
tion in place to create a future free         OCC. I’m pleased to report that          expect from the combined agency.
of crisis, it is impossible to avoid          we worked our way through the            We held 17 outreach meetings
recalling similar efforts after the           logistical and policy challenges         around the country, attended by
savings and loans crisis 20 years             involved in the integration, and         more than 1,000 thrift executives.
ago. The lesson of economic                   670 OTS employees reported to            That program was supplemented


2	      Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
by letters to thrift chief executive   for large banks and previously          will have a dramatic impact on the
officers, outreach at the district     unregulated nonbanks, it is vital       way financial institutions serve
level, Web postings, and other         that we and the other bank regula-      consumers and businesses.
actions that made information          tory agencies develop an effective
available to the industry. Feedback    working relationship with them.         Clearly, one of the root causes of
we have received indicates that        A key concern we expressed dur-         the financial crisis was poor credit
these efforts were successful in       ing the legislative process was         underwriting, particularly in the
smoothing the transition for the       to ensure an appropriate balance        area of subprime mortgages, and
thrift industry.                       between safety and soundness and        securitization fueled that surge
                                       consumer protection, and that will      in bad lending by transferring
Another of our challenges was to       require serious attention to the        risk from the originator of the
move the entire body of OTS regu-      interagency consultation obliga-        loan to other investors. Congress
lations into the OCC regulatory        tions of the CFPB that are built        responded by requiring that spon-
framework. Most of this was good       into Dodd–Frank. We have signed         sors of asset-backed securitiza-
housekeeping, conforming and           a number of memoranda of under-         tions retain at least 5 percent of
streamlining the rule books, but       standing regarding information          the credit risk. An exception was
our new, uniform preemption rule       sharing and collaboration, and I am     made for loans that are underwrit-
for banks and thrifts proved highly    hopeful these will prove effec-         ten to very high standards, such
controversial. The former OTS          tive in guiding our future working      as qualified residential mortgages
preemption standard was repealed       relationship.                           (QRM). While the standards pro-
in favor of the OCC standard, as                                               posed for the QRM have proven
directed by Dodd–Frank. The key        At the same time, the OCC               highly controversial, it is important
issue was whether Dodd–Frank had       has participated actively in the        to remember that the QRM was
upended the basic conflict-preemp-     Financial Stability Oversight           intended to be an exemption from
tion standard for national banks       Council, or FSOC, the intergov-         risk retention, and not a compre-
embodied in the Barnett Supreme        ernmental body created by Dodd–         hensive new mortgage underwrit-
Court decision or left it intact. We   Frank to identify risks to the finan-   ing standard.
believe the standard was preserved     cial system, extend supervision to
and asserted our conclusion in         systemically significant nonbanks,      In fact, Dodd–Frank was emphatic
a revised preemption regulation        and respond to emerging threats to      in calling for most lending to be
that attracted some criticism. I am    financial stability. I truly believe    subject to risk retention, and, at the
happy to report that three federal     that this will be one of the most       end of the day, as the securitiza-
court cases so far have reached the    significant reforms mandated by         tion market regains its footing, it is
same conclusion about the impact       Dodd–Frank. By bringing together        likely that will be the case. While
of Dodd–Frank on the Barnett           agencies with responsibilities for      the proposed rule was drafted to
preemption standard. Preemption        every sector of the financial ser-      provide flexibility, all of the risk
for national banks as we know it is    vices industry, FSOC will examine       retention options in the proposal
preserved.                             risks across the entire financial       were designed to create financial
                                       system and help to avert future         disincentives against packaging
We also worked closely with the        financial crises.                       loans that are poorly underwritten.
Consumer Financial Protection                                                  The draft rule has proven highly
Bureau (CFPB), the new agency          Among the other Dodd–Frank              controversial, and there is much
created by Dodd–Frank, to ensure       issues pending as we moved into         work remaining before it can be
that it had the information and        the new fiscal year that began          put in final form.
support it needed to start up on       on October 1, 2011, were two
July 21, 2011. Because the CFPB        exceptionally complicated rule-         The “Volcker rule” presents similar
has such important responsibilities    makings—risk retention and the          challenges. The premise behind
for rulemaking across the financial    “Volcker rule.” These two rules         this Dodd–Frank provision was
system and compliance supervision                                              simple: Congress believed that


                                              	                                        Comptroller’s Viewpoint	     3
banks and bank holding companies              regulators promulgate revisions          back-office operations and mis-
were taking excessive risks by                to U.S. capital regulations that         managing case files in systemic
engaging in proprietary trading and           embody the new standards.                dimensions.
investing in hedge funds and pri-
vate equity funds, and these activi-          Dodd–Frank also addressed capital        In retrospect, everyone should
ties should be prohibited. The draft          and covered some of the same             have realized the dangers ­lurking
proposal was anything but simple:             ground as the Basel Committee.           in the unprecedented volume of
It is very hard to distinguish some           The law requires more stringent          foreclosures being processed.
prohibited activities from permit-            prudential standards, including          Without question, regulatory agen-
ted market making and permissible             capital and liquidity requirements,      cies, including the OCC, should
investments. So the rule runs to              for larger, more systemically            have caught this sooner.
almost 300 pages and includes                 important bank holding companies,
                                              and touches upon the quality of          However, once the problem came
nearly 400 questions on issues still
                                              regulatory capital by limiting the       to light, we set to work immedi-
to be resolved. All of us would
                                              use of certain hybrid instruments in     ately. We directed our banks to
like a simpler rulemaking, but the
                                              capital calculations. Dodd–Frank         conduct self-assessments while we
fact is that these distinctions are
                                              also established specific require-       prepared to launch an intensive set
not easily drawn and going too far
                                              ments related to the leverage ratio,     of “horizontal” examinations that
would cause unintended damage to
                                              and it mandated studies on contin-       would look at these issues across
the system.
                                              gent capital.                            a field of 14 large servicers across
In terms of impact, it would be                                                        the system. Our examiners then
impossible to ignore the changes              It will be a challenge to implement      documented the seriousness of
that are under way affecting                  all of these objectives in a sen-        those problems.
bank capital. We have not yet                 sible way, in part because the two
                                              frameworks are complicated, and          While all of the loans in the sample
­finished implementing Basel II,
                                              in part because they do not always       we looked at were seriously delin-
 but the financial crisis highlighted
                                              mesh well together. But we are           quent, we also uncovered critical
 weaknesses in capital policy
                                              working very hard on an inter-           deficiencies and shortcomings that
 that resulted in development of
                                              agency basis to make these new           constituted unsafe and unsound
 increased capital for market risk—
                                              requirements work.                       banking practices, and that resulted
 so called Basel II.5—and overall
                                                                                       in violations of various laws and
 increases in minimum capital
                                              Finally, the OCC has devoted very        rules. Along with the Federal
 requirements under Basel III. In
                                              significant resources to addressing      Reserve and the OTS, we took
 addition to raising the amount
                                              the deficiencies in mortgage ser-        enforcement actions, entering into
 of capital that banks must hold,
                                              vicing and foreclosure processing        orders with each of the servicers
 setting an international leverage
                                              that were revealed in late 2010—         aimed at fixing what was broken,
 limit, and directing new liquidity
                                              the first quarter of this fiscal year.   compensating borrowers who
 standards, the Basel III standards
                                                                                       were harmed, and ensuring a fair
 also call for improvements in the            The volume of problem mort-              and orderly foreclosure process
 quality of capital by requiring that         gages overwhelmed the capacities         going forward. With the transition
 Tier 1 capital consist almost                of the larger mortgage servicers,        of the OTS into the OCC, we are
 exclusively of common                        and shoddy practices like “robo-         now responsible for 12 of the 14
 equity. In September 2011, the               signing” resulted. Bank managers         servicers.
 Basel Committee on Banking                   failed to pay enough attention to
 Supervision agreed to add a                  how simple, ordinarily low-risk          This is a huge undertaking, and it
 surcharge of up to 2.5 percent for           aspects of the business were being       will take a year and more to bring
 large and systemically important             done. Bank servicers, including the      it to a conclusion. To illustrate its
 banks. These Basel III initiatives           law firms and other vendors they         scope, the servicers estimate that
 will apply to U.S. banks when U.S.           employed, were skipping steps in         as many as 4.5 million borrowers



4	      Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
and former homeowners could             their homes in our slow-growth         restore and ensure the viability of
potentially seek a review of their      economy, but it must also be true      the institutions we supervise, aim-
cases. We have directed the ser-        that troubled borrowers can expect     ing to make that system
vicers to use sampling techniques       to be treated fairly. I am confident
to evaluate these portfolios of         that our enforcement actions will      •	 a safe system that manages risk
borrowers, but more importantly,        do just that: ensure that at-risk         and maintains ample liquidity
we have also put in place a process     borrowers get a fair chance to stay       and strong capital;
that will allow any borrower who        in their homes, while assuring that    •	 a sound system that provides
believes he or she was financially      those who do find themselves in           innovative service to businesses
harmed by the unsafe and unsound        foreclosure receive appropriate           and individuals, complies with
practices addressed in the orders       protection and due process of law.        applicable laws, and earns a
to request an independent review                                                  reasonable profit; and
of his or her case. As a result of      The challenges ahead are signifi-      •	 a well-managed system that is
these reviews, identified financial     cant, but the U.S. economy will           efficient and responsive to the
harm will be remedied for such          not be restored to full prosperity        needs of the communities it
borrowers.                              without a strong banking system.          serves.
                                        An economy as large as ours needs
This is only one of the many            large banks to finance it, but it      What remains is for the banks and
important issues we are deal-           also depends on the diversity and      federal savings associations that
ing with, but it may be the most        personalized service provided by       make up the federal system to put
important. Getting the real estate      small and midsize banks. Such          the lingering effects of the finan-
sector back on its feet is one of the   diversity has long characterized       cial crisis behind them and restore
keys to economic recovery, and          our banking system, and that is        the trust and confidence of the
solving the foreclosure problem in      unlikely to change since economic      American people. Our goal is to
a way that ensures fair treatment       systems naturally organize in this     make that happen.
of America’s families is necessary      way.
to reestablish trust in our financial
system.                                 Federally chartered institutions,
                                        operating under uniform national
It is unfortunately true that sig-      standards, are a critical part of                                John Walsh
nificant numbers of homeown-            that system. We at the OCC have                         Acting Comptroller
ers continue to face the loss of        worked hard over the last year to                           of the Currency




                                               	                                       Comptroller’s Viewpoint	      5
With the addition of hundreds of former OTS employees with extensive
experience as regulators of mortgage lenders, the OCC was significantly
enhanced in numbers and know-how as it helped confront the nation’s ongoing
housing difficulties in 2011.
Section One
Year in Review—Housing in the Forefront

Introduction                                      the construction-related industries.
                                                  That in turn weakened banks with
In fiscal year 2011,2 the U.S. finan-             the greatest exposures to loan
cial system continued the process                 losses in those industries.
of recovery from the economic
crisis of 2007 to 2009 while under-               Despite the challenging economic
going some of the most sweeping                   environment, the condition and
regulatory changes since the Great                profitability of the national bank-
Depression.                                       ing industry, supervised by the
                                                  OCC, improved during 2011.                 important regulatory develop-
The year was characterized by                     National banks of all sizes, in            ment of the year. Dodd–Frank
extreme economic volatility.                      aggregate, experienced improve-            required the OCC and other federal
During the first half, most indica-               ments in earnings, asset quality,          financial regulatory agencies to
tors were positive. Rising cor-                   balance sheet liquidity, and capital.      write hundreds of new regula-
porate profits bolstered investor                 The number of banks with the               tions and conduct multiple studies
confidence, sending stock markets                 most serious safety and soundness          that touched on every facet of the
broadly higher. As the year wore                  issues declined for the first time         financial services industry.
on, however, the recovery faltered,               since 2006.
as persistent high unemployment,                                                             Dodd–Frank also brought impor-
rising energy prices, weak con-                   Notwithstanding these positive             tant changes to the structure of
sumer spending, and rising public                 signs, the level of problem loans          financial regulation. The act cre-
sector debt, both at home and                     that banks must work through               ated a new regulatory agency, the
abroad, took their toll.                          remained elevated and continues            CFPB, to regulate the provision
                                                  to require close attention by bank         of consumer financial products
The persistent weakness in residen-               management and supervisors.                and services, including residential
tial real estate markets has slowed               Persistent weaknesses in commer-           mortgages, across the financial
the economic recovery. Although                   cial and residential real estate mar-      sector. Dodd–Frank eliminated a
home-price declines moderated                     kets posed significant challenges          regulatory agency when it trans-
in most U.S. markets in 2011, the                 for banks with concentrations in           ferred the functions and assets
drop in values still left millions of             these markets. Losses from these           of the OTS to the OCC. Since its
Americans—nearly one in five—                     exposures continued to be a key            creation in 1989, the OTS had
owing more than their homes were                  factor in the majority of bank fail-       served as the regulator of thrifts—
worth. Homeowners were unable                     ures in 2011: During the 12-month          the institutions that had long been
to sell, refinance to take advantage              period, a total of 104 banks and           responsible for most of the nation’s
of lower interest rates, or move in               federal savings associations, also         mortgage lending. On July 21,
search of better jobs. The slumping               known as thrifts, failed. Of these,        2011, the OCC became the regula-
residential real estate market hurt               15 were national banks and nine            tor for the more than 600 federal
                                                  were federal savings associations.         savings associations. The transfer
                                                                                             brought to the OCC hundreds
2
 Unless otherwise noted, all references to 2011   Implementation of the landmark
refer to the fiscal year beginning October 1,                                                of former OTS employees with
2010, and ending September 30, 2011.              Dodd–Frank Act was the most

                                                         	               Section One: Year in Review—Housing in the Forefront	   7
                                                                                                 troubled borrowers; evaluated
                                                                                                 the accuracy of servicers’ docu-
                                                                                                 ments and whether the documents
                                                                                                 were appropriately reviewed; and
                                                                                                 assessed whether necessary docu-
                                                                                                 ments to support legal foreclosure
                                                                                                 proceedings were provided.4

                                                                                                 During those reviews, examiners
                                                                                                 found widespread deficiencies
                                                                                                 and unsafe and unsound practices.
                                                                                                 These practices, documented in a
                                                                                                 report published jointly with the
                                                                                                 Federal Reserve and OTS, pro-
Acting Comptroller John Walsh (second from right) testifies before a congressional
subcommittee investigating mortgage foreclosure practices.                                       vided the basis for strong compre-
                                                                                                 hensive regulatory action taken in
extensive experience as regulators              self-assessments of their foreclo-               April 2011 against the 14 servicers.
of mortgage lenders. The OCC                    sure practices. The OCC demanded
was thus significantly enhanced                 prompt action for deficiencies,                  The OCC’s 2011 consent orders,
in numbers and know-how as it                   including, when necessary, re-                   taken against the eight national
helped confront the nation’s ongo-              filing documentation with local                  bank servicers and two third-party
ing housing difficulties in 2011.               courts, correcting weaknesses, and               service providers, require servicers
                                                bolstering overall governance of                 to correct deficiencies regarding
This Annual Report FY 2011                      the foreclosure process.3                        compliance, oversight of third
focuses on four major themes:                                                                    parties, management information
                                                At the same time, the OCC initi-                 systems, risk management, and
•	 Addressing problems in the                   ated planning for a coordinated                  communication with borrowers.
   nation’s mortgage markets                    horizontal review of 14 large                    They require the establishment
•	 Implementing the provisions of               mortgage servicers’ foreclosure                  of a single point of contact for
   Dodd–Frank                                   processes with the Federal Reserve               borrowers and the elimination of
•	 Ensuring the safety and sound-               Board, the FDIC, and the OTS.                    dual tracking of mortgages when
   ness of national banks and                   More than 100 OCC examiners                      approved for a trial or permanent
   federal savings associations                 participated in this effort dur-                 modification. Most significantly,
•	 Enforcing compliance with                    ing the fourth quarter of the 2010               the orders require servicers to
   consumer protection laws and                 calendar year. They reviewed                     retain independent consultants to
   regulations                                  individual foreclosure case files;               conduct a comprehensive “look
                                                tested the validity of servicers’                back” review of foreclosure actions
Addressing Problems in the
                                                self-assessments and confirmed                   in process in 2009 and 2010 to
Nation’s Mortgage Markets
                                                whether corrective action was                    determine if errors, misrepresen-
Responding to Foreclosure                       taken; determined whether ser-                   tations, or other deficiencies in
Documentation Problems                          vicers considered alternatives                   the process resulted in financial
                                                (such as loan modifications) for                 injury to the borrower. In that
The OCC has taken a leadership
                                                                                                 independent foreclosure review,
role in addressing and seeking
                                                                                                 the OCC and other federal regula-
corrective measures to deficien-                 Testimony of John Walsh, Acting Comptroller     tors required servicers to establish
                                                3

cies in foreclosure practices that              of the Currency, Subcommittee on Housing
                                                and Community Opportunity, Committee
came to light in September 2010.                on Financial Services, U.S. House of
In October 2010, the OCC ordered                Representatives, November 18, 2010,              4
                                                                                                  Testimony of Julie L. Williams, First Senior
                                                www.occ.gov. All citations in this report’s      Deputy Comptroller and Chief Counsel,
the eight largest national bank ser-            footnotes that refer to the OCC’s Web site can   Committee on the Judiciary, U.S. House of
vicers to conduct comprehensive                 be found on either the News and Issuances page   Representatives, December 2, 2010,
                                                or the Publications page.                        www.occ.gov.


8	        Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
a process for eligible borrowers
to request a review of their cases,
if they think they were financially
harmed by improper foreclosure
practices. Where financial injury
is found, the orders require the
servicers to remediate that harm.5

These foreclosure actions “fix what
is broken, identify and compensate
borrowers who suffered financial
harm, and ensure a fair and orderly
mortgage servicing process going
forward,” said Acting Comptroller
                                               The “OCC Mortgage Metrics Report,” prepared quarterly by agency staff, provides valuable
of the Currency John Walsh.6                   data on the performance of U.S. residential mortgages.

The independent foreclosure                    2011, after the transfer of the OTS            In 2011, the OCC added data orga-
review began in November 2011                  to the OCC.                                    nized by state to the report, allow-
and is expected to take several                                                               ing for a more granular analysis of
months to complete.                            Homeowners “have the right to                  performance trends, as well as data
                                               expect transparency, accessibility,            on the performance of loans held
In addition to the joint review and            and fairness from the companies                in bank portfolios.
enforcement actions involving                  that service their mortgages, and
the largest mortgage servicers, in             never more than when a borrower                At the end of September 2011, the
June 2011 the OCC directed all                 is experiencing financial diffi-               OCC published its most recent
other national banks to conduct                culty,” Mr. Walsh said in a speech             report, covering mortgage per-
self-assessments of their mortgage             to the professional association                formance through the end of the
servicing practices. The agency                Women in Housing and Finance.                  second quarter. The report covered
issued supervisory guidance on                 “Anything less is unacceptable.”8              about 63 percent of all first-lien
foreclosure practices applicable                                                              mortgages in the United States,
to all mortgage servicers under                Mortgage Metrics                               worth $5.7 trillion in outstanding
OCC supervision—guidance that                                                                 balances.9 The data showed that
                                               The “OCC Mortgage Metrics
emphasized the importance of                                                                  mortgage performance overall had
                                               Report” is a quarterly publication
improved accountability, third-                                                               improved from a year earlier but
                                               that, since its debut in June 2008,
party oversight, and reliable infor-                                                          declined slightly from the previous
                                               has provided standardized per-
mation systems.7 The OCC issued                                                               quarter, reflecting seasonal effects,
                                               formance measures for mortgage
a similar directive to all federal                                                            high unemployment, and a slow
                                               loans serviced by national banks
savings associations in August                                                                economic recovery.
                                               and federal savings associations.
                                               The report quickly became a key
                                                                                              The report also showed that
                                               tool for bank regulators, lawmak-
5
 Office of the Comptroller of the Currency,                                                   servicers continued to process
“OCC Takes Enforcement Action Against Eight    ers, and industry analysts seeking
Servicers for Unsafe and Unsound Foreclosure
                                                                                              large inventories of delinquent
                                               a better understanding of home
Practices,” news release 2011-47, April 13,                                                   mortgages, with 4 percent of the
2011, www.occ.gov.                             mortgage performance, foreclosure
                                                                                              total portfolio in the process of
6
 Testimony of John Walsh, Acting Comptroller   trends, and the effectiveness of
of the Currency, Subcommittee on Housing
                                                                                              foreclosure and another 4.9 percent
                                               loan modifications.
and Community Opportunity, Committee                                                          remaining seriously delinquent
on Financial Services, U.S. House of
Representatives, November 18, 2010, www.
occ.gov.
7
 Office of the Comptroller of the Currency,                                                   9
                                                                                               Office of the Comptroller of the Currency,
“Foreclosure Management,” bulletin 2011-29,    8
                                                Remarks by John Walsh, Women in Housing       “OCC Mortgage Metrics Report,” Second
June 30, 2011, www.occ.gov.                    and Finance, April 14, 2011, www.occ.gov.      Quarter 2011, www.occ.gov.


                                                       	                  Section One: Year in Review—Housing in the Forefront	             9
at the end of the quarter.10 From                in the busy housing markets of the
January 1, 2010, through the                     mid-2000s, appraisers increasingly
second quarter of 2011, servicers                discontinued physical inspections,
implemented nearly 1.1 million                   relying on automated valuation
modifications, reducing borrow-                  models and the assumption that
ers’ monthly principal and interest              housing prices would continue to
payments by more than 25 percent                 rise. These practices and assump-
on average.11                                    tions contributed to overly opti-
                                                 mistic valuations, easy credit, and
While home retention options—                    many home buyers taking on big-
loan modifications, trial-period                 ger loans than they could afford.
plans, and payment plans—can                     Stronger supervisory oversight
help prevent avoidable foreclo-                  was needed to restore the indepen-
sures, they will not work in every               dence and integrity of the appraisal
case, and completed foreclosures                 process—an essential ingredient
will rise as the large number of                 in rebuilding confidence in the
foreclosures in process continue                 nation’s housing markets.
to work through the system and
servicers exhaust alternatives to                In response to these issues, the
foreclosure.                                     OCC joined the other federal                    coercion, forbids appraisers from
                                                 financial regulatory agencies in                having financial interest in transac-
Real Estate Appraisal and                        publishing revised and updated                  tions, and establishes a procedure
Evaluation Guidelines                            “Interagency Appraisal and                      for identifying violations of these
Although lenders focus primarily                 Evaluation Guidelines.” The guide-              regulations. The rule went into
on borrowers’ creditworthiness                   lines comprise the agencies’ recent             effect on April 1, 2011.
when they consider applications                  issuances on appraisal practices
                                                 and explain minimum supervisory
                                                                                                 Credit-Risk Retention
for mortgage loans, they also look
at the value of the property pledged             standards for appraisals, including             Section 941 of Dodd–Frank
to secure the loan as a secondary                a requirement that lenders select               charged federal financial regula-
source of repayment. Professional,               appraisers based on their compe-                tory agencies with formulating
independent appraisals are crucial               tence, experience, and knowledge                rules that required lenders to retain
to determining property values.                  of relevant markets. The guide-                 a 5 percent interest in any assets
                                                 lines emphasize that lenders must               not held on their books, while
Since 1994, when federal financial               maintain strong internal controls               authorizing exemptions for loans
regulatory agencies last pub-                    to ensure reliable appraisals and               with the lowest credit risk, particu-
lished comprehensive supervisory                 evaluations.12                                  larly QRMs. But the law left many
guidance on real estate appraisal                                                                complicated issues to be resolved
requirements, appraisal prac-                    Section 1472 of Dodd–Frank set
                                                                                                 by regulation, including the level
tices have changed dramatically.                 forth additional requirements to
                                                                                                 and structure of risk to be retained
Advances in information technol-                 ensure that the appraisals used to
                                                                                                 and the definition of a QRM.
ogy have made the gathering of                   underwrite lending decisions are
                                                                                                 Overlaying these issues is potential
market information far easier than               based on appraisers’ best profes-
                                                                                                 concern about how the final rules
before. To cut costs and keep up                 sional and independent judgment.
                                                                                                 might affect the cost and avail-
with the demand for their services               An interim final rule, issued by
                                                                                                 ability of credit at a time when
                                                 the Federal Reserve Board in
                                                                                                 mortgage loans are already hard to
  Office of the Comptroller of the Currency,     October 2010, prohibits appraiser
                                                                                                 acquire for many borrowers.
10

“OCC Mortgage Metrics Report,” Second
Quarter 2011, table 7, www.occ.gov.
11
  Office of the Comptroller of the Currency,     12
                                                   Office of the Comptroller of the Currency,
“OCC Mortgage Metrics Report,” Second            et al., “Interagency Appraisal and Evaluation
Quarter 2011, tables 2 and 24, www.occ.gov.      Guidelines,” December 2, 2010, www.occ.gov.


10	        Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
In interagency discussions leading
up to the proposed rules, the OCC
emphasized several key principles.

First, the rules had to provide
sufficient flexibility to allow the
securitization markets to function
in a manner that both facilitates the
flow of credit to consumers and
investors and protects investors.
To that end, the proposed rules
released for comment on March
31, 2011, offered firms that secu-                President Obama discusses Dodd–Frank implementation issues with senior administration
ritize assets five possible options               officials. Acting Comptroller John Walsh is at the far left.
for handling risk retention, consis-
                                                  Finally, the OCC believed that                   of intensive effort to unify rules,
tent with the Dodd–Frank goal of
                                                  careful and extensive public                     systems, and processes to ensure
restoring confidence in the quality
                                                  review, which is always essential                a timely and seamless transition
of asset-backed securities.13
                                                  in the rule-making process, was                  for OTS employees and OTS-
Second, the rules had to be bal-                  especially important when the rules              supervised institutions.16
anced, setting the bar for QRMs                   under consideration had extensive
                                                  implications for credit availability.            To accomplish these goals, Senior
neither too high nor too low.
                                                  Thus, the agencies actively solic-               Deputy Comptroller and Chief
The agencies were intent that the
                                                  ited comment on a host of issues                 Financial Officer Thomas R.
requirement not be taken as a new
                                                  and, when the number of public                   Bloom led an OCC working group
(and highly restrictive) national
                                                  comments far exceeded expec-                     that collaborated with counterparts
mortgage standard but rather as the
                                                  tations, extended the comment                    from the OTS, the Federal Reserve
special case the law intended it to
                                                  deadline from June 2011 to August                (which became responsible for the
be.14
                                                  2011. The final rules are expected               holding companies of thrifts), and
Third, the OCC emphasized that                    to be released in fiscal year 2012.15            the FDIC (which assumed supervi-
the rules must be uniform among                                                                    sory responsibility for state-char-
the involved agencies and across                  Implementing Dodd–Frank                          tered thrifts). In January 2011, the
the institutions they regulate.                                                                    agencies delivered to Congress a
                                                  Integrating the OCC and
The proposals that emerged from                                                                    “Joint Implementation Plan” spell-
                                                  the OTS
interagency deliberations provide                                                                  ing out how the agencies would
a single, straightforward set of                  On July 21, 2011, a key provi-                   accomplish the job. The plan was
federal requirements on securiti-                 sion of Dodd–Frank was fulfilled                 updated in April 2011.17
zation—risk retention, structure,                 when most of the OTS’s assets and
and disclosure—that applies to                    personnel officially transferred to
all markets, all products, and all                the OCC and federal thrifts were
securitizers.                                     brought under OCC regulation and
                                                  supervision. The OTS integration                 16
                                                                                                     See “Records Integration and Freedom of
                                                  was the culmination of months                    Information Act” and “Policy Integration
                                                                                                   Project” in the “OCC Profiles” section of this
                                                                                                   report for a more detailed look at how the two
                                                                                                   agencies dealt with some of the challenges
                                                                                                   of reconciling infrastructure and back-office
                                                  15
                                                    Testimony of Julie L. Williams, Subcommittee   functions.
13
  Office of the Comptroller of the Currency,      on Capital Markets and Government Sponsored
et al., “Credit Risk Retention,” proposed rule,   Entities, Financial Services Committee, U.S.     17
                                                                                                     Board of Governors of the Federal Reserve
March 31, 2011, www.occ.gov.                      House of Representatives, April 14, 2011,        System, et al., “Joint Implementation Plan,
                                                  www.occ.gov; Office of the Comptroller of        301-326 of the Dodd–Frank Wall Street Reform
14
  Statement of John Walsh, Federal Deposit        the Currency, et al., “Credit Risk Retention,”   and Consumer Protection Act,” January 2011
Insurance Corporation Board of Directors,         proposed rule, June 7, 2011, www.occ.gov.        (revised April 2011), www.occ.gov.
March 29, 2011, www.occ.gov.


                                                           	                   Section One: Year in Review—Housing in the Forefront	                11
                                                                       Supervision,18 the      which provided an opportunity,
                                                                       agencies devel-         as Northeastern District Deputy
                                                                       oped a staffing         Comptroller Toney M. Bland
                                                                       plan that inte-         told one group, “to establish and
                                                                       grated the super-       encourage ongoing two-way
                                                                       vision of thrifts       communication, address your
                                                                       into the existing       concerns, and give you our com-
                                                                       OCC structure,          mitment to provide value-added
                                                                       developed exami-        supervision.”20
                                                                       nation plans and
                                                                       supervisory strat-      To make the changes necessary to
                                                                       egies for former        bring regulations into conformity
                                                                       OTS-supervised          with Dodd–Frank, integrate rules
                                                                       institutions, and       on similar topics, and implement
OCC and OTS examiners collaborate to promote effective                  created a number       other needed revisions, on July 20,
supervision of national banks and federal savings associations.
                                                                        of new manage-         2011, the OCC issued a final rule
                                                ment positions. The plan, which                implementing several provisions
The OCC launched an extensive
                                                was tested in a series of pilot                of the Dodd–Frank Act. Provisions
internal communication campaign
                                                examinations in the OCC’s Central              included changes to facilitate the
to smooth the integration of the
                                                District between January 2011 and              transfer of functions from the OTS
two agencies, which, while previ-
                                                April 2011, called for OTS and                 and revisions to the OCC’s rules
ously operating under different
                                                OCC examiners to be deployed                   on preemption and visitorial pow-
statutory regimes, had similar
                                                without regard to whether the insti-           ers. The revised rules
missions but varying policies and
procedures. Automated bulletin                  tution in question was a national
                                                                                               •	 eliminated preemption for oper-
boards allowed for the exchange                 bank or a thrift. The pilot helped
                                                                                                  ating subsidiaries of national
of questions and answers, and                   the agencies identify and address
                                                                                                  banks and operating subsidiaries
group events gave the OTS and                   conflicts and gaps in examination
                                                                                                  of federal thrift institutions.
OCC staffs opportunities to meet.               documentation procedures, training
                                                                                               •	 applied to federal thrifts the
Like the majority of OCC examin-                and certification, and automated
                                                                                                  same preemption standard—that
ers, most OTS employees would                   supervisory systems.
                                                                                                  is, a conflict preemption
work in the OCC’s Midsize and
                                                The pilot examination program
Community Bank Supervision
                                                also provided federally chartered
Department. Over many months,
                                                thrifts with a greater understanding
Senior Deputy Comptroller
                                                of the OCC’s approach to supervi-
Jennifer C. Kelly, the OCC
                                                sion. Related initiatives included
executive in charge of that depart-
                                                publishing a brochure titled “The
ment, and her team prepared the
                                                OCC’s Approach to Supervision”
groundwork for the transition and
                                                and a series of letters to thrift insti-
conducted a series of meetings
                                                tutions from Acting Comptroller
and conference calls with OTS
                                                Walsh that provided updates on the
employees to explain, among other
                                                integration process.19 The agency
things, how the OCC intended to
                                                also held a series of 17 informa-
use and develop their skills.                                                                  Timothy T. Ward, the OCC’s Deputy
                                                tional seminars with executives of             Comptroller for Thrift Supervision, and
Under the leadership of Timothy                 thrifts around the country,                    a thrift executive discuss the agency’s
                                                                                               supervisory approach.
T. Ward, a veteran OTS executive
whom the OCC had named Deputy                   18
                                                   Dodd–Frank created the position of Deputy
Comptroller for Thrift                          Comptroller for Thrift Supervision.
                                                19
                                                  See “Outreach to Thrifts” in the “OCC        20
                                                                                                 See “Outreach to Thrifts” in the “OCC
                                                Profiles” section of this report.              Profiles” section of this report.


12	       Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
   standard and not an occupation
   of the field standard—as applies
   to national banks, and applied
   to federal thrifts the visitorial
   powers standard applicable to
   national banks.
•	 eliminated ambiguity concern-
   ing the preemption standards in
   OCC regulations by removing
   language from OCC rules that
   provides that state laws that
   “obstruct, impair, or condition”
   a national bank’s powers are
   preempted.
•	 revised the OCC’s visitorial
   powers rule to conform to the                 The OCC’s publications disseminate valuable information to consumers regarding financial
   Supreme Court’s Cuomo deci-                   products and services.
   sion, recognizing the ability of
   state attorneys general to bring
                                                 such as the OCC, for specified fed-            interpretation of consumer finan-
   enforcement actions in court to
                                                 eral consumer financial laws under             cial law, and consumer education.
   enforce applicable laws against
                                                 Dodd–Frank. To ensure compli-                  The bureau subsequently made
   national banks as authorized by
                                                 ance with those laws, Dodd–Frank               employment offers to individuals
   such laws.21
                                                 also granted the CFPB authority to             who met its needs.22
On July 21, 2011, the OCC                        supervise banks holding more than
                                                 $10 billion in assets.                         The mission of the OCC’s
became the sole federal regulator
                                                                                                Houston-based Customer
of 642 federal savings associa-
                                                 OCC Deputy Comptroller for                     Assistance Group, with its sophis-
tions and home to 670 former OTS
                                                 Large Banks Delora Jee headed an               ticated consumer complaint pro-
­employees. In addition, the OCC
                                                 OCC committee that coordinated                 cessing capability, aligns directly
 was given the authority to pre-
                                                 with the CFPB to ensure a smooth               with the new bureau’s mission.23
 scribe regulations for all federal
                                                 transition. The OCC consulted                  The CFPB will process consumer
 savings associations. The OCC
                                                 extensively with CFPB staff on                 complaints related to the large
 will be working to integrate sets of
                                                 issues ranging from procurement                financial companies over which
 rules on similar topics and review
                                                 processes to examination tech-                 it has supervisory authority. The
 stand-alone rules for clarity and
                                                 niques, contributing six full-time             OCC will continue to process
 consistency through 2013.
                                                 staff members with diverse and                 questions and complaints concern-
Creating the CFPB                                essential institutional expertise.             ing consumer issues within the
                                                                                                jurisdiction of the OCC through
The transfer date for OTS integra-               Congress envisioned that the                   the Customer Assistance Group
tion, July 21, 2011, was also the                CFPB would draw staff from the                 and will continue to send mis-
creation date of the CFPB, which                 agencies that were transferring                directed complaints it receives
was given rule-making authority                  responsibilities to it. By agreement           to the appropriate federal or
that was previously the province of              with the OCC, the CFPB solicited
other federal regulatory agencies,               expressions of interest from OCC
                                                 employees interested in joining the            22
                                                                                                  Consumer Financial Protection Bureau,
                                                 bureau, in particular those employ-            “Developing Our Human Capital,” Annual
21
  Office of the Comptroller of the Currency,                                                    Report to Congress, July 21, 2011,
“Notice of Proposed Rulemaking,” bulletin        ees working in “transfer-process               www.consumerfinance.gov.
2011-20, June 1, 2011, www.occ.gov; “Office of
Thrift Supervision Integration; Dodd–Frank Act   functions” such as compliance                  23
                                                                                                  For more on the Customer Assistance Group,
Implementation,” final rule, 76 Fed. Reg. 140                                                   see the Annual Report FY 2009, 44,
(July 21, 2011), www.gpoaccess.gov.
                                                 examination, enforcement and                   www.occ.gov.


                                                         	                  Section One: Year in Review—Housing in the Forefront	         13
The Financial Stability Oversight Council addresses systemic risks to the U.S. banking system.


state regulator. In addition, the               F. Geithner. The FSOC adopted                    systemically important nonbank
Customer Assistance Group will                  organizational bylaws and issued                 financial companies; payment,
process complaints involving                    a notice of proposed rulemaking                  clearing, and settlement activities;
national banks and federal sav-                 bolstering supervision for certain               heightened prudential standards;
ings associations with more than                nonbank financial companies. The                 orderly liquidation authority and
$10 billion in assets on behalf of              council also commenced a study                   resolution plans; and data collec-
the CFPB, while the CFPB builds                 of section 619 of Dodd–Frank, the                tion and analysis. Additionally,
its capacity to handle complaints.              “Volcker rule,” which restricts U.S.             OCC attorneys participated in
Under this approach, the CFPB                   financial companies from engaging                the FSOC’s informal legal staff
will begin by handling credit                   in most kinds of trading using their             working group, which provides the
card-related complaints involving               own funds, otherwise known as                    council with legal guidance.25
national banks and federal savings              proprietary trading.24
associations with assets greater                                                                 Dodd–Frank and Basel III
than $10 billion and will expand                Rather than create a new perma-
                                                                                                 Capital is the bulwark of the bank-
its complaint process to other                  nent bureaucracy at the FSOC,
                                                                                                 ing business, a bank’s backstop
products and services offered as                Dodd–Frank envisioned that
                                                                                                 against loss and insolvency. In the
the new bureau builds that capacity             experts drawn from member agen-
                                                                                                 aftermath of the financial crisis,
through March 2012.                             cies would compose the FSOC’s
                                                                                                 financial institutions were under
                                                committees and working groups.
                                                                                                 heavy pressure to build capital to
Financial Stability Oversight                   The OCC’s Chief National Bank
                                                                                                 protect themselves against future
Council                                         Examiner is a member of the
                                                                                                 downturns. While much of this
                                                council’s deputies’ committee,
Section 111 of Dodd–Frank created                                                                pressure came from financial
                                                which provides broad oversight
the FSOC to assess overall risks to                                                              markets, regulation and supervi-
                                                and direction on the activities of
the financial system and coordinate                                                              sion also encouraged, and in some
                                                FSOC’s various operating com-
corrective action when systemic                                                                  cases required, higher bank capital.
                                                mittees. OCC staff members serve
risks were identified. The council                                                               In revising capital policy in 2011,
                                                on the council’s committee on
consists of 10 voting members, one                                                               regulators were tasked with finding
                                                systemic risk and on subcommit-
from each of nine federal financial                                                              the right balance between ensuring
                                                tees on institutions and markets,
regulatory agencies and an inde-                                                                 safety and soundness and sup-
                                                which play a major role in the
pendent member with insurance                                                                    porting a healthy level of credit
                                                FSOC’s analysis of emerging
expertise. On October 1, 2010,                                                                   availability.
                                                threats to financial stability. The
Acting Comptroller Walsh rep-
                                                OCC assigned experts to five
resented the OCC at the FSOC’s
                                                standing committees that support
inaugural meeting, presided over
                                                the FSOC’s work in designating                   25
                                                                                                   Testimony of Timothy W. Long, Senior
by Treasury Secretary Timothy                                                                    Deputy Comptroller for Bank Supervision
                                                                                                 Policy and Chief National Bank Examiner,
                                                24
                                                  Testimony of John Walsh, Committee on          Subcommittee on Oversight and Investigations,
                                                Banking, Housing, and Urban Affairs, U.S.        Financial Services Committee, U.S. House of
                                                Senate, February 17, 2011, www.occ.gov.          Representatives, April 14, 2011, www.occ.gov.


14	       Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
The Basel Committee on Banking
Supervision, of which the OCC is
a member, brings bank supervisors
from around the world together
to promote consistent and high-
quality supervision. In December
2010, the committee adopted
a new international framework
focused on strengthening global
capital and liquidity requirements
for internationally active banks.
This framework—known as Basel
                                                Newly commissioned national bank examiners take the oath of office.
III—requires increases in both the
amount and quality of regulatory
capital relative to banks’ risks,               for risk-based capital, leverage                 banks hold on their books? How
including a greater reliance on                 limits, and liquidity requirements               much capital must be held in each
common equity. Basel III requires               at systemically important non-                   instance? In the new fiscal year,
banks to hold substantially more                bank financial companies. Section                U.S. regulators will weigh the
liquidity in the form of short-term,            171(b) of Dodd–Frank also deals                  costs and benefits of adopting a
low-risk assets and to increase                 with risk-based capital, requiring               single set of Basel III-compatible
their reliance on more stable long-             the banking agencies to develop                  standards for all U.S. banks.28
term debt and core deposits. Basel              minimum risk-based capital rules,
                                                not only for commercial banks                    Ensuring Safety and
III introduces other significant                                                                 Soundness
enhancements designed to ensure                 but also for nonbank financial
that all material risks confronting             companies supervised by the                      As government agencies begin
financial companies—especially                  Federal Reserve. Other sections set              to implement Dodd–Frank, the
risks held in trading portfolios                minimum capital floors for large                 ultimate impact on the financial
and the risks posed by complex                  banks. The final rule, published by              institutions that are subject to
structured financial products that              the banking agencies on June 28,                 its new rules and structures will
proved to be most problematic                   2011, implemented this minimum                   be significant. Given the chang-
during the crisis—are appropri-                 capital requirement.27                           ing regulatory environment for
ately reflected in regulatory capital                                                            national banks and federal savings
                                                Although provisions of Dodd–
requirements. The OCC was                                                                        associations, and with the outlook
                                                Frank and Basel III share the goal
active in the development of these                                                               for the economy still uncertain,
                                                of raising the amount and the
enhanced standards.26                                                                            the OCC’s core mission of protect-
                                                quality of bank capital, they differ
                                                                                                 ing safety and soundness is more
Dodd–Frank contains provisions                  in important respects, and these
                                                                                                 important than ever.29
that also aim to enhance the capital            differences raise questions that
and liquidity standards of U.S.                 the U.S. federal banking agencies                The OCC takes a differentiated
financial companies. Among them                 must address as they move forward                approach to its bank supervisory
are sections 115(a) and 115(b),                 with implementation. These issues                activities, providing supervision
which authorize the FSOC to make                include such questions as, what                  tailored to the distinctive needs of
recommendations to the Federal                  should count as capital? To which                national banks and federal savings
Reserve on prudential standards                 institutions should the standards                associations of varying sizes and
                                                apply? How much risk is inherent
                                                in the various asset classes that
26
  Bank for International Settlements, Basel                                                      28
                                                                                                   Remarks by John Walsh, Exchequer Club,
Committee on Banking Supervision,                                                                January 19, 2011, www.occ.gov.
“Basel III: A Global Regulatory Framework for
More Resilient Banks and Banking Systems,”      27
                                                  Testimony of John Walsh, Committee on          29
                                                                                                   Remarks by John Walsh, Independent
December 16, 2010 (revised June 2011),          Banking, Housing, and Urban Affairs, U.S.        Community Bankers of America, March 23,
www.bis.org.                                    Senate, February 17, 2011, www.occ.gov.          2011, www.occ.gov.


                                                         	                   Section One: Year in Review—Housing in the Forefront	          15
                                                              while the OCC’s        Guidance on Model Risk
                                                              national network       Management
                                                              of field, satellite,
                                                              and district offices   In recent years, the largest, most
                                                              provides insight       complex national banks have
                                                              into larger eco-       placed increasing reliance on
                                                              nomic, financial,      sophisticated quantitative models
                                                              and regulatory         to conduct many parts of their
                                                              trends that affect     business. And the use of models
                                                              banks of all sizes.    is not limited to the largest banks;
                                                              This combination       banks of all sizes use models to
                                                              of local presence      manage risk, price products, and
                                                              and national per-      make many fundamental business
levels of complexity. Institutions in         spective adds significant value to     decisions.
the OCC’s Large Bank Supervision              OCC supervision.                       The OCC recognizes the benefits
program have businesses that
                                              Given the continued weakness in        that such models provide. The
cover the broadest geographic span
                                              the economic environment, credit       OCC has long emphasized, how-
and encompass a wide range of
                                              risk and credit-risk management        ever, that the use of models also
financial products and services.
                                              continue to be a major focus of        carries risk, and the potential for
Large and midsize banks receive
                                              OCC supervisory activities in all      model-related financial loss, repu-
constant monitoring by teams of
                                              banks. Examiners pay particular        tational damage, or poor decisions
resident examiners, many of them
                                              attention to the quality of systems    must be managed as a risk, just as
specialists in such areas as asset
                                              for rating credit risk and identify-   any other source of risk would be
management, commercial credit,
                                              ing problem loans; the adequacy        addressed within banks’ overall
retail credit, compliance, capital
                                              of loan-loss reserves in light of      risk-management structures.
markets, information technology,
mortgage banking, and operational             deteriorating credit quality; and      These key principles are reflected
risk. This full-time, on-site pres-           the effectiveness of loan work-out     in “Supervisory Guidance on
ence helps bank examiners develop             strategies. They look for sound        Model Risk Management,” which
a close understanding of the banks’           policies and structures for manag-     was released by the OCC and the
risk taking and risk management;              ing interest rate risk and liquidity   Federal Reserve in April 2011.
identify the most significant risks;          risk, based on diversified funding     The guidance, which builds on the
and determine the adequacy of                 sources and realistic plans for con-   OCC’s 2000 guidance on model
bank systems and controls to                  tingency funding. Recognizing that     validation, articulates the elements
­measure, monitor, and manage                 effective risk management policies     of a sound program for managing
 these risks.                                 require a supportive risk manage-      model risk and provides guidance
                                              ment culture, they evaluate the        to OCC examiners and the banks
Community-based institutions                  role of a bank’s board of directors    they supervise on prudent model
constitute the vast majority of the           and senior managers in promoting       risk-management policies, proce-
more than 2,000 national banks                those policies. In the case of com-    dures, practices, and standards.30
and federal savings associations              munity banks, examiners empha-
under the OCC’s jurisdiction.                 size the importance of identifying     Stress Testing
These institutions receive risk-              potential concentrations in key
based supervision by examiners                portfolios, such as commercial real    Beginning in February 2009, in
who are typically members of the              estate, to identify problems before    connection with the Supervisory
communities in which the banks                they surface. The OCC’s findings       Capital Assessment Program, the
they supervise do business. These             are communicated directly to the
examiners have firsthand familiar-
                                                                                     30
                                                                                       Office of the Comptroller of the Currency,
                                              bank’s leaders.                        “Supervisory Guidance on Model Risk
ity with local economic conditions,                                                  Management,” bulletin 2011-12, April 4, 2011,
                                                                                     www.occ.gov.


16	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
                                                                                               derivatives contracts, and the top
                                                                                               25 banks held 100 percent.33

                                                                                               Interagency guidance on coun-
                                                                                               terparty credit-risk management,
                                                                                               released in July 2011, addressed
                                                                                               weaknesses in the management of
                                                                                               these risks, which became apparent
                                                                                               during the financial crisis.34 These
                                                                                               weaknesses included shortcom-
                                                                                               ings in the timeliness and accuracy
                                                                                               of assessing banks’ aggregate
                                                                                               exposures to a counterparty and
                                                                                               inadequate measures of correlation
                                                                                               risks across counterparties. The
                                                                                               interagency guidance addressed
                                                                                               these weaknesses by emphasizing
                                                                                               prudent oversight by banks’ boards
                                                                                               of directors and senior manag-
                                                                                               ers and by developing metrics to
OCC and the Federal Reserve                   credit risk and liquidity risk. The              measure counterparty exposure and
worked with 19 large bank hold-               proposed guidance also cites the                 the likelihood of deterioration or
ing companies to carry out stress             importance of strong internal gov-               default.
tests that assessed the ability of            ernance and controls in an effec-
these companies to absorb signifi-            tive stress-testing framework.32                 Survey of Credit
cantly worse than expected losses             The OCC continues to coordi-                     Underwriting Practices
and still continue to provide credit          nate with the Federal Reserve                    In June 2011, the OCC released
to the economy. The stress test-              on implementing stress-testing                   its 17th annual survey of trends
ing program was widely viewed                 requirements under section 165(i)                in lending standards and credit
as a turning point in resolving               of Dodd–Frank.                                   risk for the most common types
the financial crisis.31 Regulators                                                             of commercial and retail credit
learned much from that experi-                Derivatives Trading and
                                                                                               offered by national banks.
ence, which highlighted the value             Guidance on Counterparty
                                                                                               The “2011 Survey of Credit
of regularly conducting rigorous,             Risk Management
                                                                                               Underwriting Practices” high-
credible tests to assess the poten-           After a steep multiyear decline, the             lighted how various factors, such
tial impact of stressful economic             market for derivatives rebounded                 as competition among financial
events on the financial condition of          in 2011, as large banks and their                providers and the performance
banks.                                        customers sought to hedge against                of the broader economy, affect
                                              risks and market volatility. The                 the way banks price and under-
In June 2011, the OCC, the FDIC,
                                              derivatives market is the province               write loans, and whether the OCC
and the Federal Reserve released
                                              of large banks: The five largest
for comment guidance that pro-
                                              commercial banks held 96 percent
vides an overview of how large
                                              of the total notional amount of
banking organizations should
develop a structure for stress-                                                                33
                                                                                                 Office of the Comptroller of the Currency,
                                                                                               “OCC Reports Second Quarter Trading Revenue
testing programs and why such                                                                  of $7.4 Billion,” news release 2011-118,
programs are crucial for managing                                                              September 16, 2011, www.occ.gov.
                                              32
                                                Office of the Comptroller of the Currency,     34
                                                                                                 Office of the Comptroller of the Currency,
                                              “Agencies Seek Comment on Stress Testing         “Agencies Issue Guidance on Counterparty
 Office of the Comptroller of the Currency,
31
                                              Guidance,” news release 2011-67, June 9, 2011,   Credit Risk Management,” news release
Annual Report FY 2009, 11–12, www.occ.gov.    www.occ.gov.                                     2011-88, July 5, 2011, www.occ.gov.


                                                       	                   Section One: Year in Review—Housing in the Forefront	              17
                                                  real estate. That residue, combined    A substantial backlog of poorly
                                                  with persistent unemployment,          underwritten loans, mostly from
                                                  woes in the housing market, and        2006 and 2007, continued to
                                                  uncertainties in the consumer          dampen the outlook for the shared
                                                  economy, led most banks to main-       national credits portfolio. Indeed,
                                                  tain, or even tighten, credit under-   almost 60 percent of the criti-
                                                  writing standards.                     cized assets (loans rated “special
                                                                                         mention,” substandard, doubtful,
                                                  In short, the 2011 survey revealed     or loss) originated in those two
                                                  an industry still recovering from      years. The fact that shared national
believes that the inherent credit                 the financial crisis but making        credits were up only negligibly—
risk in bank portfolios is increasing             significant strides toward regaining   less than 1 percent—from the year
or decreasing.35                                  its confidence and capacity to sup-    before reflected the slow recovery
                                                  port U.S. business and consumers       of the U.S. economy.
The 2011 survey included exam-                    through prudent lending.
iner assessments of credit under-                                                        Nonetheless, the overall credit
writing standards at 54 of the                    While the easing of underwriting       quality of the reviewed loans
largest national banks—those with                 standards is normal and a healthy      improved in 2011 for the second
assets of $3 billion or more. The                 sign of economic stabilization, the    year in a row. Loans rated as
survey encompassed loans as of                    OCC warned national banks that         doubtful or loss, the two weak-
December 31, 2010, totaling                       the pace of eased standards for        est categories, fell by 50 percent
$4.2 trillion, or 94 percent of total             certain loan products, most notably    to $24 billion. Classified assets
loans in the national banking sys-                leveraged loans, was disconcert-       declined 30 percent, representing
tem at the time.                                  ing and warranted closer attention     9 percent of the total portfolio,
                                                  by bankers. The OCC carefully          compared with 12 percent in
The 2011 survey contained posi-                   monitors the institutions under its    2010.36
tive news. A majority of examiners                supervision to ensure that appro-
surveyed said credit risk embed-                  priate underwriting standards are      Incentive-Based
ded in bank portfolios was stable                 maintained as lending activity         Compensation Practices
or improving. Examiners reported                  continues to revive.
easing of underwriting standards                                                         Section 956 of Dodd–Frank
for most types of loans to busi-                  Shared National                        requires federal financial regula-
nesses, as banks responded to                     Credit Program                         tory agencies to regulate incentive
intensified competition and took                                                         compensation arrangements at the
                                                  A similar picture of an industry in    financial institutions under their
advantage of more readily avail-
                                                  transition emerged in the annual       supervision. Specifically, the law
able funding to gain new custom-
                                                  Shared National Credit Program         instructs the agencies to prohibit
ers and market share.
                                                  review, which the OCC conducts         incentive-based payment arrange-
The retail portion of the market,                 with the Federal Reserve and the       ments that provide “excessive
however, was a different story.                   FDIC. A shared national credit is      compensation or could lead to
Most of the national banks sur-                   any loan of $20 million or more        material financial loss” for finan-
veyed were still working through                  that is shared by three or more        cial institutions.
losses sustained on credit cards,                 federally supervised institutions.
home equity loans, and residential                The program began in 1977 to pro-      Accordingly, in March 2011, the
                                                  mote consistent analysis of shared     agencies issued a proposed rule
                                                  national credits. The 2011 review      that required banks to identify and
35
  Office of the Comptroller of the Currency,      covered $910 billion, nearly a third
“2011 Survey of Credit Underwriting Practices,”
www.occ.gov; Board of Governors of the            of all such credits in the shared      36
                                                                                           Board of Governors of the Federal Reserve
Federal Reserve System and Office of the                                                 System, Federal Deposit Insurance Corporation,
Comptroller of the Currency, “Supervisory
                                                  national credit portfolio.             and Office of the Comptroller of the Currency,
Guidance on Model Risk Management,”                                                      “Shared National Credits Program, 2011
April 4, 2011, www.occ.gov.                                                              Review,” August 2011, www.occ.gov.


18	       Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
       Consumer Advisories and Public Service Announcements


The OCC issued two consumer advisories                             U.S. Department of Housing and Urban
in 2011 that were widely publicized through                        Development. The advice is free, and there
OCC public service announcements.                                  are no strings attached.37

For families in danger of losing their                             As technology evolves and adapts, so do the
homes, the threat of foreclosure can engen-                        criminals who try to exploit it.
der fear and desperation. Unscrupulous
criminals view such situations as opportu-                         As another OCC consumer advisory
nities to prey on vulnerable homeowners.                           explains, one of the latest and most sophis-
Scam tactics vary, as the OCC’s consumer                           ticated frauds is card skimming—tampering
advisory titled “Avoiding Mortgage Modi-                           with automated teller machines (ATM) or
fication Scams and Foreclosure Rescue                              other cash machines to steal information that
Scams” points out.                                                 criminals can use to loot bank accounts.

The culprits might ask for a large up-front                        In card skimming, a bank customer makes a
cash payment—always a red flag—to nego-                            routine ATM deposit or withdrawal and does
tiate a settlement with lenders. They might                        not notice that a “skimmer,” which reads
encourage troubled borrowers to file for                           and transmits card information, is installed
bankruptcy, or stop communicating with                             on the ATM. Sometimes a remote camera is
lenders, or take advantage of an imaginary                         installed, too, enabling criminals to record
government assistance program, or, per-                            keystrokes and steal customers’ pass codes.
haps worst of all, sign over their property                        Often, customers only discover tampering
to a third-party, with the promise of more                         when their bank accounts have been wiped
affordable financing to come. Do that, the                         out.
OCC warns, and the next step could be an
                                                                   The consumer advisory offers tips on how
eviction notice.
                                                                   to avoid skimming. These include walking
How can a consumer avoid these traps?                              away from an ATM if someone is watching
Awareness is the first step. The OCC’s pub-                        nearby; checking the card slot to be sure it
lic service announcement describes false                           is an integral part of the cash machine; and
promises and enticements that should make                          examining card statements for unauthorized
people in need of mortgage assistance run                          withdrawals and immediately reporting any-
in the opposite direction. What they should                        thing suspicious to the financial institution.38
do instead, the OCC advises, is to call a
                                                                   In personal finance, as in so many aspects of
toll-free number that provides access to a
                                                                   people’s lives, technology brings benefits.
housing counselor approved by the
                                                                   But using it safely requires vigilance.



37
  Office of the Comptroller of the Currency, “Avoiding Mortgage Modification Scams and Foreclosure Rescue Scams,” consumer
advisory 2011-1, February 24, 2011, www.occ.gov.
38
  Office of the Comptroller of the Currency, “Avoiding ‘Card Skimming’ at ATMs and Other Money Machines,” consumer advisory
2011-2, June 1, 2011, www.occ.gov.




                                                 	                  Section One: Year in Review—Housing in the Forefront	     19
eliminate incentive compensation                assessing new and evolving threats               associations are communicated
arrangements that encouraged                    to the security of online accounts               to consumers transparently and
inappropriate risks and risk taking             and taking the necessary steps                   honestly.
by their employees. The proposed                to strengthen and enhance those
rule required institutions with more            controls. OCC examiners will                     In 2011, the OCC’s examiners,
than $1 billion in assets to imple-             continue to assess the adequacy                  especially compliance special-
ment formal policies and proce-                 of banks’ controls, including                    ists, monitored bank products and
dures governing incentive compen-               any remediation plans, as part of                practices across the industry. When
sation arrangements and to submit               their ongoing supervision and the                questionable practices at national
an annual report to their federal               enhanced expectations outlined in                banks or federal savings associa-
regulator describing that structure.            the supplementary guidance.40                    tions came to light, bank managers
Larger institutions (with more than                                                              were instructed to correct them.
$50 billion in assets) would have               Enforcing Compliance With                        When supervisory intervention
to defer at least 50 percent of the             Consumer Protection Laws                         proved inadequate, the OCC has
incentive compensation of certain               and Regulations                                  not hesitated to take legally bind-
bank officers for three years, with                                                              ing enforcement action.
                                                The OCC is dedicated to protecting
the ultimate payment adjusted to                consumers and enforcing con-                     In disputes involving consum-
reflect any losses.39                           sumer protection laws. Although                  ers and their banks, the OCC’s
                                                Dodd–Frank transferred authority                 Customer Assistance Group, which
Internet Authentication
                                                to the CFPB for supervising most                 operates under the agency’s inde-
Practices
                                                areas of consumer compliance at                  pendent Office of the Ombudsman,
In October 2005, the federal bank-              banks and federal savings associa-               is an important resource. Between
ing agencies issued guidance titled             tions with more than $10 billion in              2006 and 2010, the Customer
“Authentication in an Internet                  assets, the OCC retains exclusive                Assistance Group processed nearly
Banking Environment,” which                     authority to supervise for compli-               150,000 written complaints and
discussed risk management expec-                ance with the Bank Secrecy Act,                  fielded 115,000 telephone inqui-
tations regarding fraud prevention              the Community Reinvestment                       ries, providing consumers with
and safeguarding customer infor-                Act, and flood insurance rules,                  needed information and assistance
mation. Since that time, online                 among other regulations. The OCC                 in dispute resolution.41
threats to financial institutions and           continues to provide comprehen-
their customers have grown in size              sive compliance supervision at the               The OCC communicates directly
and sophistication. Therefore, in               more than 1,900 community banks                  with consumers by issuing con-
June 2011, the agencies released                and federal savings associations                 sumer advisories and public ser-
supplemental guidance to reinforce              under its jurisdiction.                          vice announcements, which appear
the risk management framework                                                                    in local newspapers and other
and update their expectations                   It is the OCC’s unwavering com-                  media. And the agency conducts
regarding customer authentication,              mitment that all bank customers                  an extensive bilingual outreach
layered security, and other controls            should be treated fairly, that they              program, using Spanish-language
in an increasingly hostile online               have access to credit and other                  multimedia and print publications
environment.                                    basic banking services, and that                 to bring vital information to con-
                                                the terms and conditions of the                  sumers’ attention and help them
The supplemental guidance                       products and services provided by                make wise financial decisions.
requires banks to perform periodic              national banks and federal savings
risk assessments of their controls,



39
  Office of the Comptroller of the Currency,    40
                                                  Office of the Comptroller of the Currency,     41
                                                                                                   Office of the Comptroller of the Currency,
“Agencies Seek Comment on Proposed Rule on      “Authentication in an Internet Banking           “Report From the Office of the Ombudsman,
Incentive Compensation,” news release           Environment,” bulletin 2011-26, June 28, 2011,   2006–2010 Highlights,” June 2011,
2011-37, March 30, 2011, www.occ.gov.           www.occ.gov.                                     www.occ.gov.


20	       Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
Supervisory Guidance on              thieves and terrorists. The guid-                 misleading practices in violation
Prepaid Access Programs              ance cautions banks that entrusting               of the Federal Trade Commission
                                     the operation of these devices to                 Act.43
Prepaid access devices, which        unsupervised third parties does not
enable consumers to handle their     absolve the originating institutions              Another case involved a national
money electronically, are among      from resulting damages or from                    bank whose new customers were
the fastest growing segments of      responsibility for comprehensive                  automatically enrolled in its
the payment sector. These devices,   risk management.42                                overdraft program 30 days after
which include reloadable cards,                                                        opening their accounts. Any time
payroll cards, government benefit    Enforcement Actions                               an account was overdrawn, a fee
cards, retail gift cards, mobile                                                       was imposed. If the account stayed
phones with banking applications,    The OCC’s actions against national                overdrawn for more than seven
and Web sites, allow consumers       banks and third-party service                     days, there was an additional fee.
to add, store, spend, and withdraw   providers in connection with                      The OCC found that these terms,
funds from many sources.             foreclosure processing deficiencies               which made it impossible for
                                     described on page 8 of this report                some customers to escape from
Because prepaid access devices       also benefited consumers. A sum-                  their overdrawn status, were not
provide anonymous access to          mary of OCC enforcement actions                   properly advertised in the bank’s
funds through electronic channels,   in 2011 is presented on page 41.                  brochures.44
criminals can take advantage of
them to commit fraud and money       In other instances in which the                   The OCC imposed a consent order
laundering. Banks, therefore,        OCC took action to protect con-                   that levied a $1 million civil pen-
must manage these products with      sumers from unfair and abusive                    alty against the bank and required
extreme care.                        banking practices, a substantial                  it to establish a fund of at least
                                     civil money penalty was imposed                   $32 million to reimburse consum-
New supervisory guidance issued      on a national bank relating to the                ers who were harmed by practices
by the OCC encourages national       marketing and sale of a credit                    deemed unfair and deceptive. The
banks to develop and implement       protection product by its auto                    OCC also ordered the bank to
comprehensive risk management        finance subsidiary. The OCC found                 improve its corporate governance
programs to ensure that prepaid      that this practice involved materi-               and revamp its overdraft program
access devices are safe from         ally false, deceptive, or otherwise               to ensure that such abuses did not
                                                                                       occur again.45




                                                                                       43
                                                                                         Office of the Comptroller of the Currency,
                                                                                       “OCC Assesses Civil Money Penalty Against
                                                                                       JPMorgan Chase Bank, N.A.,” news release
                                                                                       2011-70, June 15, 2011, www.occ.gov.
                                                                                       44
                                                                                         Office of the Comptroller of the Currency,
                                                                                       “In the Matter of Woodforest National Bank:
                                                                                       Consent Order for a Civil Money Penalty,”
                                     42
                                       Office of the Comptroller of the Currency,      October 8, 2010, www.occ.gov.
                                     “OCC Issues Guidance on Prepaid Access,”
                                     news release 2011-83, June 29, 2011, www.occ.     45
                                                                                         Office of the Comptroller of the Currency,
                                     gov; Office of the Comptroller of the Currency,   “Agreement by and Between Woodforest
                                     “Prepaid Access Programs: Risk Management         National Bank, The Woodlands, Texas, and The
                                     Guidance and Sound Practices,” bulletin           Comptroller of the Currency,” October 8, 2010,
                                     2011-27, June 28, 2011, www.occ.gov.              www.occ.gov.


                                              	                    Section One: Year in Review—Housing in the Forefront	              21
In fiscal year 2011, the OCC undertook a variety of initiatives to
advance its diversity and openness objectives, while promoting access
to financial services and effective supervision of the national system
of banks and federal savings associations.
Section Two
OCC Profiles

Equal Employment                       to minority-owned and women-
Opportunity and Diversity              owned firms and for assessing
                                       diversity policies and practices at
Dodd–Frank assigned important          OCC-regulated institutions. The
responsibilities regarding diversity   OCC is working closely with the
to the OCC and other financial         other federal financial regulatory
regulatory agencies and directed       agencies to develop a common set
each agency to establish an Office     of standards for these mandates
of Minority and Women Inclusion        and to coordinate implementation.
(OMWI).
                                       Part of the OMWI mission is
“It is important that the OCC as       to promote fair treatment and
a government agency reflect the        employee engagement in the
population of our country,” says       OCC workforce. In January
Joyce Cofield, Executive Director      2011, the OCC submitted a pro-
of the OCC’s OMWI. “The more           gram status report to the U.S.
diverse an organization is, the bet-   Equal Employment Opportunity
ter opportunity it has to bring in     Commission. The report high-
the best and brightest talent.”        lighted the OCC’s accomplish-
Diversity has long been an OCC         ments in 2010 and discussed plans
priority for building and sustain-     for 2011.
ing a top-flight workforce. Before     The program’s goals are to
passage of Dodd–Frank, OCC                                                      (202) 874-5360

leaders had taken steps to combine     •	 implement a system to collect
                                                                                (800) 723-9254
                                                                                TTY/TDD (202) 874-4887
the OCC’s offices on diversity            and track diversity-related data      TTY/TDD (800) 874-9228

and equal employment opportu-             on applicants for entry-level
nity. The framework was already           bank examiner positions;
in place to meet the new law’s         •	 increase participation of
requirement to develop standards          Hispanic employees in the OCC
for supporting diversity and equal        workforce;                          •	 increase participation of women
employment opportunity in the          •	 increase participation of female       and minorities in senior posi-
OCC workforce and among senior            bank examiners in the OCC              tions in the OCC workforce; and
management.                               workforce;                          •	 increase the use of alternative
                                       •	 increase participation of employ-      dispute resolution for addressing
The law goes further, however,            ees with disabilities in the OCC       equal employment opportunity
requiring the regulatory agen-            workforce;                             complaints.
cies to set goals for increasing
the number of contracts awarded




                                              	                                     Section Two: OCC Profiles	   23
The OCC’s National Diversity                  Records Integration and
Internship Program, which began               Freedom of Information Act
in 2011, provided professional
career experience for select minor-           One of the biggest challenges
ity and female college students,              facing the OTS and the OCC
while reaffirming the OCC’s                   when they combined forces was
commitment to an expert, highly               integrating records and records
motivated, and diverse workforce.             management systems. At OTS
Twelve interns, working out of                Headquarters, records on film and
OCC Headquarters in Washington,               paper were kept in storerooms, file
served in a variety of capacities             rooms, and individual employees’
in 2011; in 2012, the program                 offices. The OTS regional offices
will expand to include the OCC’s              had their own paper records and        the OCC’s Manager for Disclosure
district offices.                             systems. Fortunately, the OTS          Services. “This means that the
                                              also had a comprehensive, well-        OCC can respond better, faster to
OCC employees can become                      organized schedule that classified     customers’ needs, especially when
members of five employee diver-               records and their disposition, as      the demand for information is on
sity or “networking” groups.                  well as a dedicated staff of records   the rise.”
The Network of Asian Pacific                  management professionals.
Americans (NAPA), the Hispanic                                                       Minority-Owned
Organization for Leadership                   The OCC records management             Depository Institutions
and Advancement (HOLA), the                   staff continues to identify OTS
                                              records that need to be turned         Minority-owned national banks
Coalition of African-American
                                              over to the FDIC, which took over      and federal savings associations
Regulatory Employees (CARE),
                                              regulatory functions for state-        play essential roles in providing
the Women’s Network, and
                                              chartered savings associations, and    financial services to families and
the Gay, Lesbian, and Straight
                                              to the Federal Reserve, which now      small businesses in underserved
Alliance (GLSA) provide employ-
                                              regulates former savings and loan      communities around the country.
ees with valued opportunities to
build networks, promote profes-               holding companies.
                                                                                     Both the OCC and the OTS have
sional growth, and advance career             Public records under the federal       long demonstrated a commitment
progress at the OCC.                          Freedom of Information and             to preserving minority-owned
                                              Privacy acts also required integra-    institutions and fostering new
All agency employees are required
                                              tion. By the end of 2011, the OCC      ones. The agencies have provided
to support the OCC’s diversity
                                              had realigned its staff to respond     technical assistance, training, and
and equal employment opportu-
                                              to requests for records related to     other support to these institutions,
nity goals. Moreover, each OCC
                                              national banks and federal savings     which are operated by African-
manager’s annual performance
                                              associations. As the agency has        Americans, Asians, Hispanics,
evaluation includes a specific
                                              done for its own records, the OCC      Native Americans, and women.
requirement to meet such goals,
                                              digitized the OTS’s records, which     That commitment continued
which means that no OCC man-
                                              now can be tracked, processed, and     unabated under the auspices of the
ager is eligible for the highest
                                              released electronically.               External Outreach and Minority
overall performance rating without
                                                                                     Affairs unit after the OCC and the
having achieved the highest rating            “This system allows us to make an      OTS integration.
on equal employment opportunity.              increasing number of documents
                                              available to the public—and more       At the Interagency Minority-
                                              efficiently, with less reliance on     Owned Depository Institution
                                              paper records,” says Frank Vance,      Conference in New York in




24	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
June 2011, Acting Comptroller            In addition, the agency waives
Walsh announced the formation            admission fees for directors of
of an advisory committee with            minority-owned institutions so
representatives of minority-owned        they may attend OCC workshops
national banks and federal savings       that cover subjects that bank direc-
associations. Mr. Walsh said he          tors need to understand, such as
expected the committee to provide        credit risk and compliance risk.
the OCC with valuable perspec-           The OCC also offers targeted
tives and insights. “Our goal has        technical assistance for individual
to be the preservation of vibrant        institutions on credit analysis, loan
minority national banks and fed-         underwriting, budgeting, strate-
eral thrifts that are safe, sound, and   gic planning, compliance with
strong enough to continue to serve       the Bank Secrecy Act, and other
their communities,” he said.             issues. The OCC holds quarterly
                                         conference calls for supervisory
Like other community banks,              officials in OCC offices to dis-
minority-owned institutions              cuss best practices for supporting
typically specialize in relationship     minority-owned institutions.            Operational Risk. Her approach
banking. Managers of these institu-                                              first calls for culling several hun-
tions often know their customers         “The OCC’s support of finan-            dred policies that can be reconciled
by name, are aware of their credit       cial access, financial education,       without significant complications.
histories, and understand their          and outreach activities fulfills an     The next step is to tackle the
business needs.                          important responsibility to the         complex job of vetting policies
                                         minority community,” says Glenda        that ­differ significantly, ensuring
“When a small business needs             Cross, the senior adviser for           that the differences are effectively
a quick decision on a loan,              External Outreach and Minority          aligned with banking laws appli-
[minority-owned banks] can               Affairs. “These are ways we ensure      cable to the two distinct types of
respond because you know the             that the banking system truly           federal banking charters. Until
local market, and you know the           supports the financial needs of all     institutions are notified otherwise,
character of the men and women           Americans.”                             OCC policies continue to apply to
who stand behind the business,”                                                  national banks and OTS policies to
Mr. Walsh said in his remarks at         Policy Integration Project              federal savings associations.
the conference. “That’s something
                                         In January 2011, the OCC
that local companies just can’t get                                              The project team is closely coor-
                                         embarked on an ambitious project
from large financial institutions.”                                              dinating with a parallel project in
                                         to integrate the more than 1,000
                                                                                 the OCC Chief Counsel’s Office
Many minority-owned institutions,        supervisory policies of the OTS
                                                                                 to review legal rules. In fact, much
however, are under significant           into the OCC’s policy frame-
                                                                                 of the integration of supervisory
stress. The financial crisis hit their   work. The goal is to produce a
                                                                                 policies depends on the results of
communities particularly hard,           unified supervisory approach for
                                                                                 this legal review, as the policies are
and the number of institutions has       national banks and federal savings
                                                                                 largely based on OCC and former
declined. Those pressures make the       associations.
                                                                                 OTS regulations. The results of the
continued commitment of the OCC                                                  projects will be incorporated into
                                         “We are focused on addressing
particularly important.                                                          training for seasoned examiners
                                         the policy differences in an orderly
To that end, the OCC held several        and timely manner,” says proj-          and into the curriculum that entry-
technical-assistance workshops           ect lead Carolyn DuChene, the           level bank examiners need to mas-
during the interagency conference.       OCC’s Deputy Comptroller for            ter to become successful commis-
                                                                                 sioned National Bank Examiners.



                                                	                                      Section Two: OCC Profiles	   25
Although OCC Headquarters                                                            some of the risk of losses from
oversees the policy integration                                                      loan defaults and allow banks to
project, bank examiners, attorneys,                                                  expand the array of financial prod-
and other subject-matter experts                                                     ucts offered to their customers. The
throughout the agency provide                                                        programs also aim to create jobs
input to the project team. “They                                                     and increase exports by providing
are the ‘boots on the ground,’” Ms.                                                  working capital to small businesses
DuChene says. “They are the best                                                     to finance export sales. More than
source of information about what                                                     97 percent of the U.S. companies
works and what doesn’t, and the                                                      that export goods overseas are
grass-roots approach is essential to                                                 small businesses with fewer than
making the project a success.”                                                       500 employees.

She cautions that a lot of work still                                                Another federal initiative provides
needs to be done before finaliz-                                                     funding for state programs to sup-
ing related policy guidance. The                                                     port bank lending to small busi-
emphasis is to “get the things done           user-friendly and more attractive      nesses, which must use the money
that are going to have the biggest            to banks.                              for purposes that include start-up
impact in the field sooner rather                                                    costs and equipment purchases.
than later, within the constraints            The OCC sponsored seminars             As states roll out their programs,
of the regulation review process,”            around the country and conducted       the OCC continues to work on the
Ms. DuChene says.                             a nationwide teleconference to bet-    local level to promote the pro-
                                              ter acquaint bank managers with        grams among national banks and
Small-Business Lending                        these programs. Community devel-       federal savings associations in
                                              opment newsletters and in-depth        those areas.
Small businesses account for about
                                              “Insights” reports as well as bank-
half or more of all new jobs in the
                                              ers’ roundtables offered detailed      The OCC plans to continue
United States. This makes them
                                              information about how banks            outreach activities that highlight
a key component of the nation’s
                                              could participate while receiv-        opportunities for banks to become
economy. During the economic
                                              ing consideration for qualified        involved in small-business ini-
downturn, many small businesses
                                              investments under the Community        tiatives. Such outreach may be
laid off employees, reduced
                                              Reinvestment Act.                      particularly helpful to financial
inventory, and sold assets. Small-
                                                                                     institutions that received funding
business loans by banks declined              “We are getting the banks ener-        from the Treasury Department’s
from 2008 to 2010. As small-busi-             gized about using these programs,”     Small Business Lending Fund.
ness activity recovers, banks must            says Barry Wides, OCC Deputy           The capital investments that the
be prepared to resume providing               Comptroller for Community              Treasury Department made in
needed credit.                                Affairs. “We are part of a broad       institutions under the program
                                              government effort to get banks         carry dividend rates that go down
In 2011, the OCC partnered
                                              involved.”                             as the institution’s small-business
with the U.S. Small Business
Administration, the Export–Import                                                    lending goes up.
                                              For example, two programs pro-
Bank of the United States, and the            vide federal loan guarantees for       The OCC and other federal bank-
U.S. Department of Agriculture                banks that make loans to small         ing agencies expect Small Business
to highlight federal loan guaran-             businesses involved in exporting       Lending Fund participants to
tee programs that support small-              goods or manufacturing compo-          extend credit in a safe and sound
business lending. Recent laws                 nents of goods that are exported.      manner with prudent risk selec-
have made these programs more                 The guarantees shield banks from       tion and credit-risk management




26	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
processes. Each participating          associations, and assured the exec-
institution’s board of directors       utives that former OTS examiners
should ensure that its small-busi-     would continue to serve on their
ness lending policy and activity       examination teams. The message
are consistent with safe and sound     was, “You will have that contact,
credit practices and supportive of     and you will have that continuity,”
the institution’s participation in     Mr. Otto says. “That alleviated
the Small Business Lending Fund        some fears.”
program.
                                       After the meetings, officials from
Outreach to Thrifts                    each of the four OCC districts fol-
                                       lowed up with executives of larger
Before the OCC and OTS inte-
                                       thrifts in one-on-one sessions to
gration took place, Bert Otto, the
                                       discuss the transition.
Deputy Comptroller in charge of
the OCC’s Central District, formed     Outreach to thrifts began well
a team to schedule 17 “Meet the        before these meetings. OCC and
OCC” meetings around the coun-         OTS employees joined forces
try for executive leaders of thrifts   at conferences and trade shows
supervised by the OTS.                 across the nation to meet bankers
                                       and thrift executives and address     of directors of national banks
“These outreach meetings proved                                              and thrifts and provided the OCC
                                       their concerns. The OCC posted
very beneficial,” Mr. Otto says.                                             with invaluable feedback from
                                       transition-related news on National
The sessions addressed the                                                   participants.
                                       BankNet (www.banknet.gov), the
OCC’s examination process,
                                       OCC’s private extranet Web site       The OCC also expects to derive
the ­philosophy on and approach
                                       for bankers, and made BankNet         substantial benefit from the Mutual
toward enforcement actions, OCC
                                       available to thrift executives. In    Savings Association Advisory
expectations, the importance of
                                       March 2011, the OCC invited           Committee, which it formed late in
ongoing communication, and the
                                       directors of thrifts to attend the    2011. This committee, consisting
organizational structure of the
                                       agency’s annual workshops for         of 10 industry officers and direc-
agency’s field offices.
                                       bank directors and increased by       tors, will help the OCC assess the
OCC and OTS officials fielded          50 percent the number of work-        state of mutual savings associa-
questions on numerous subjects,        shops scheduled for the 2011          tions and advise the OCC on ways
including interest rate risk and       calendar year. Those workshops        to help ensure their continued
the supervision of mutual savings      promoted the continuing education     health and viability.




                                              	                                    Section Two: OCC Profiles	   27
Profitability measured by return on equity at OCC-supervised banking
institutions rose to 7.7 percent for the second quarter, which is above the level
of a year earlier but still well below levels of recent history.
Section Three
Condition of the National Banking System

Summary                                  for safety. Businesses in particular        70 percent below the levels that
                                         have accounted for a significant            prevailed at the peak of the finan-
Earnings at national banks and           surge in checkable deposits since           cial crisis in 2009.
federal savings associations contin-     2008. Large banks have been
ued to improve in calendar year          the main recipients of these new            Despite generally improved credit
2011 from the low levels posted          deposits, which help hold down              performance, loss rates have
during the financial crisis. Bank        their funding costs; this pattern           remained high for residential real
capital showed a notable increase.       extended into 2011. Should busi-            estate loans, due at least in part to
Provision expenses declined              ness confidence and investment              the overhang of foreclosed proper-
again from year-earlier levels but       pick up, or returns on alternative          ties. Moreover, about 20 percent
remained well above pre-crisis           investments rise, banks may expe-           of all first-lien mortgages exceed
levels. Credit quality improved,         rience an outflow of these deposits.        the current value of the homes
as net charge-off rates fell for all                                                 financed, with much higher shares
major loan categories. In contrast,      Lending by national banks, as               in the hardest hit states, including
erosion in net interest income           measured by the total value of all          Florida, Arizona, and Nevada.
drove down pre-provision reve-           types of loans on their books, has
nues. With loan demand still weak,       been declining since the onset of           With so many borrowers owing
the substitution of lower-yielding       the recession. Loan growth shows            more than their homes are worth
securities for higher-yielding loans     only limited signs of recovery.             and with high rates of joblessness,
compressed interest margins.             Through the middle of 2011,                 even many prime residential mort-
                                         ­lending continued to decline in            gages are seeing defaults. These
Discussion                                consumer loans, residential real           forces make a near-term recovery
                                          estate, construction, and commer-          in residential mortgage loss rates
Net income at OCC-supervised
                                          cial real estate. The one area of          less likely. For commercial real
banking institutions for the
                                          growth in loans for the system as a        estate loans, charge-off rates have
first half of calendar year 2011
                                          whole (other than interbank lend-          stopped rising, but fundamental
increased by $10.3 billion com-
                                          ing) was lending to commercial             performance measures, such as
pared with the first half of 2010.
                                          and industrial borrowers.                  vacancy rates and net o­ perating
Profitability measured by return on
                                                                                     income, are not expected to
equity rose to 7.7 percent for the
                                         Provisions and credit ­quality.             improve for another year or so.
second quarter, which is above the
                                         Credit quality has improved
level of a year earlier but still well                                               Revenues. For all OCC-supervised
                                         steadily over the past two years.
below levels of recent history.                                                      banking institutions, pre-provision
                                         Charge-off rates declined for all
                                         major loan categories in the first          net revenues for the first half of
Funding and lending. Business
                                         half of 2011 compared with a year           2011 fell 19.7 percent compared
and retail deposits rose sharply
                                         earlier. Loan-loss provisions fell          with the same period a year earlier,
during the financial crisis, as other
                                         by $40.4 billion in the first half of       as net interest income eroded. The
investments appeared less attrac-
                                         2011 compared with a year earlier           weak economy has pressured inter-
tive and savers turned to banks
                                         and are now running about                   est margins, as a surge in deposits




                                                	              Section Three: Condition of the National Banking System	   29
was funneled into safe but low-               Noninterest income also fell in the     r­ evenues as a percent of assets
yielding cash and securities rather           first half of 2011, compared with        have shown little growth in the
than loans.                                   a year earlier, the result of a sharp    recovery so far.
                                              drop in deposit and servicing fees
Lending remained weak though                  and little growth elsewhere. For        Capital. Over the past two years,
June 2011, in part because eco-               some of the largest banking institu-    national banking institutions have
nomic growth has been slower than             tions with extensive international      significantly increased their capital
during past recoveries. Continued             operations or significant trading       levels and strengthened the quality
deleveraging by consumers also                activities, noninterest income held     of that capital. While this improve-
appeared to be constraining loan              up better, though costs related to      ment has been evident across the
demand. These developments point              residential mortgages weighed on        board, it is especially notable at
to continued slow growth in con-              the performance of large real estate    the largest institutions. A number
sumer spending (and borrowing),               lenders.                                of forces combined to spur the
even if gross domestic product                                                        improvement in capital at large
growth improves. Corporate profits            For smaller banks and federal sav-      banks; they included market and
have recovered to pre-recession               ings associations, revenue growth       supervisory pressure, anticipated
levels, but with many firms accu-             has been even more of a concern         changes in regulatory capital
mulating cash, and even medium-               than at larger institutions. Funding    requirements, and capital increases
size firms now able to access the             costs for smaller institutions did      related to mergers and acquisi-
bond markets, banking institutions            not benefit as much from the            tions, in addition to a general need
have experienced less growth in               sharp drop in interest rates since      to rebuild capital lost during the
business lending than they did                2008, and their pre-provision net       financial crisis.
­during earlier recoveries.




30	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
	   Section Three: Condition of the National Banking System	   31
The men and women who lead the OCC play a critical role in ensuring the
safety and fairness of our national banking system.
Section Four
OCC Organization

Comptroller of the                    group that focuses on international
Currency                              economic and monetary affairs.
                                      He joined the group in 1992
John Walsh became Acting              and became Executive Director
Comptroller of the Currency on        in 1995. Mr. Walsh served on
August 15, 2010.                      the U.S. Senate Committee on
The Comptroller of the Currency       Banking, Housing, and Urban
is the chief executive of the OCC,    Affairs from 1986 to 1992 and as
which supervises federally char-      an international economist for the
tered commercial banks, federal       Treasury Department from 1984 to
savings associations, and federal     1986. Mr. Walsh also served with
branches and agencies of foreign      the Office of Management and
banks in the United States. The       Budget (OMB) as an international      John Walsh, Acting Comptroller
                                                                            of the Currency
Comptroller also is a director of     program analyst, with the Mutual
the Federal Deposit Insurance         Broadcasting System, and in the
Corporation and NeighborWorks         U.S. Peace Corps in Ghana.
America.                              Mr. Walsh holds a master’s degree
Mr. Walsh joined the OCC in           in public policy from the John F.
October 2005 and previously           Kennedy School of Government
served as Chief of Staff and Public   at Harvard University (1978) and
Affairs.                              graduated magna cum laude from
                                      the University of Notre Dame in
Before joining the OCC, Mr. Walsh     1973. He lives in Catonsville, Md.
was the Executive Director of the     He is married with four children.
Group of Thirty, a consultative




                                             	                               Section Four: OCC Organization	   33
Executive Committee




John Walsh           Julie L. Williams   John C. Lyons Jr.   Michael L.       Jennifer C. Kelly    Thomas R. Bloom   Mark Levonian
Acting               First Senior        Senior Deputy       Brosnan          Senior Deputy        Senior Deputy     Senior Deputy
Comptroller of the   Deputy              Comptroller for     Senior Deputy    Comptroller for      Comptroller for   Comptroller for
Currency             Comptroller and     Bank Supervision    Comptroller      Midsize and          Management and    Economics
                     Chief Counsel       Policy and Chief    for Large Bank   Community Bank       Chief Financial
                                         National Bank       Supervision      Supervision          Officer
                                         Examiner


Chief National Bank                              Large Bank Supervision                           The Law Department enforces
Examiner’s Office                                                                                 compliance with banking require-
                                                 The Department of Large Bank                     ments and securities laws,
The Chief National Bank                          Supervision is headed by Senior                  addresses protection and fair treat-
Examiner’s Office was headed by                  Deputy Comptroller Michael L.                    ment of bank customers through
Senior Deputy Comptroller for                    Brosnan. The department oversees                 enforcement of consumer laws
Bank Supervision Policy and Chief                the supervision of the largest and               and regulations, issues opinions on
National Bank Examiner David K.                  most complex national banking                    national bank powers and activi-
Wilson in the last three months of               and thrift companies, as well as                 ties, handles OCC litigation mat-
the fiscal year. Mr. Wilson agreed               foreign-owned U.S. branches                      ters, provides legislative analysis
to accept one of the agency’s most               and agencies.                                    and technical advice, and devel-
critical positions, Examiner-in-                                                                  ops regulations. The Licensing
Charge of Citibank, and John C.                  Midsize and Community
                                                 Bank Supervision                                 Department charters national banks
Lyons Jr. subsequently became                                                                     and federal savings associations
Senior Deputy Comptroller for                    Senior Deputy Comptroller                        and issues decisions on regulated
Bank Supervision Policy and Chief                Jennifer C. Kelly oversees the                   institution structure and business
National Bank Examiner.                          Midsize and Community Bank                       changes. The Community Affairs
                                                 Supervision Department. The                      Department supports national
The department focuses on devel-
                                                 department is responsible for                    banks and federal savings associa-
oping supervisory policies and
                                                 the supervision of midsize and                   tions in their community develop-
examination procedures and tools
                                                 ­community banks, focusing on                    ment activities and the provision of
in the areas of bank information
                                                  ensuring sound risk identification              financial services to underserved
technology, capital, commercial
                                                  and management processes and                    communities and consumers.
and retail credit risk, compli-
                                                  regulatory compliance.
ance, financial markets, balance                                                                  Economics
sheet and asset management,                      Chief Counsel
and operational risk. The depart-                                                                 The Economics Department
ment includes the Office of the                  First Senior Deputy Comptroller                  is headed by Senior Deputy
Chief Accountant, which oversees                 and Chief Counsel Julie L.                       Comptroller Mark Levonian. The
accounting policy guidance for                   Williams supervises the OCC’s                    department provides economic
national banks and federal savings               Law, Licensing, and Community                    analysis of national and global
associations, and chairs the OCC’s               Affairs departments.                             economic trends, provides on-site
National Risk Committee.                                                                          and off-site examination support




34	       Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
for bank supervision, contributes to    Chief of Staff and                     The office, headed by Larry L.
policy development, and conducts        Public Affairs                         Hattix, reports to the Comptroller
original research to support the                                               of the Currency.
OCC’s mission.                          The Public Affairs Department,
                                        which reports to the Chief of Staff,   Office of Minority and
Office of Management                    supports the OCC through its           Women Inclusion
                                        communications with the banking
The Office of Management is             industry and its representatives,      The Office of Minority and
directed by Thomas R. Bloom, the        the news media, Congress, and          Women Inclusion, headed by
Senior Deputy Comptroller for           the public. The department is also     Executive Director Joyce Cofield,
Management and Chief Financial          responsible for the OCC’s internal     is responsible for developing
Officer. The office administers         communications program.                standards for equal employment
the OCC’s human resources, asset                                               opportunity and the racial, ethnic,
acquisition, travel and staff reloca-   Ombudsman                              and gender diversity of the OCC’s
tion, physical space, training and                                             workforce and senior management.
development, physical and person-       The Office of the Ombudsman            The director of this new office
nel security, compensation and          administers the national bank          reports to the Comptroller of the
benefits, and financial manage-         appeals program, the OCC’s             Currency.
ment. It also provides the OCC’s        Customer Assistance Group, and
information technology services.        the Enterprise Governance unit.




                                               	                                Section Four: OCC Organization	   35
The OCC is responsible for approving or denying changes in corporate
or banking structure, while taking supervisory action against institutions
that do not comply with laws and regulations or that otherwise engage in
unsound practices.
Section Five
Licensing and Enforcement Measures

Figure 1: Corporate Application Activity, National Banks, FY 2010 and FY 2011

                                                       FY 2010             FY 2011                               FY 2011 decisions

                                                                                                              Conditionally
                                                       Applications received                    Approved                           Denied         Totalb
                                                                                                               approveda
    Branches                                                   812                 917                868                   2               0           870
    Capital/sub-debt                                           269                 224                177                   8               0           185
    Change in bank control                                       8                   4                  1                   1               0             3
    Charters                                                    17                   6                  3                   4               0             8
    Conversionsc                                                 4                   8                  1                   2               0             3
    Federal branches                                             2                   2                  0                   1               0             1
    Fiduciary powers                                            13                   9                  2                   0               0             2
    Mergersd                                                    71                  70                 43                   8               0            51
    Relocations                                                168                 187                169                   1               0           170
    Reorganizations                                             49                  71                 52                  12               0            64
    Stock appraisals                                             0                   0                  0                   0               0             0
    Subsidiaries                                                58                 107                 24                   0               0            24
    12 CFR 5.53 change in assets                                 4                   2                  0                   1               0             1
    Limited national bank upgrade                                0                   1                  0                   0               0             0
    Total                                                    1,475               1,608              1,340                  40               0         1,382
Source: OCC data.
a
    Data presented are for the fourth quarter of FY 2011 only.
b
    Total includes alternative decisions or no-objections.
c
    Conversions to national bank charters.
d
    Mergers include failure transactions when the national bank is the resulting institution.




                                                                       	                          Section Five: Licensing and Enforcement Measures	        37
Figure 2: Corporate Application Activity, Federal Savings Associations, FY 2011

                                                  FY 2011                                                  FY 2011 decisions
                                              Applications
                                                                      Approved             Denied             Withdrawn             Transferreda               Total
                                               received
    Branchesb                                                40                  39                    0                     0                      0               39
    Bylaw/charter                                             8                   7                    0                     1                      0                8
    Conditions                                                2                   3                    0                     0                      0                3
    Controlc                                                  0                   3                    0                     0                      2                5
    Conversionsd                                              0                   2                    0                     0                      0                2
    Holding company                                           3                   5                    0                     0                      5               10
    Merger                                                    1                   4                    0                     0                      0                4
    New institution                                           0                   0                    0                     0                      0                0
    Oakar                                                     7                   6                    0                     0                      0                6
    Operationse                                              31                  36                    1                     8                      2               47
    Sasser                                                    9                   7                    0                     1                      0                8
    Subsidiaries                                              9                   4                    0                     2                      1                7
    Waiver                                                    3                   2                    0                     1                     31               34
    Total                                                   113                 118                    1                    13                     41              173

Source: National Applications Tracking System.
Note: Data presented are for the fourth quarter of FY 2011 only.
a
    Filings transferred to the Federal Reserve Board or FDIC under Dodd–Frank.
b
    Includes branch closings, change in location, interstate, and intrastate filings.
c
    Rebuttal of control filings.
d
    Mutual-to-stock conversions.
e
    Includes home office redesignation, director and senior officers, capital distribution, transfer of assets, voluntary dissolution, and golden parachute.




38	            Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
Figure 3: Licensing Actions and Timeliness, National Banks, FY 2010 and FY 2011

                                                                           FY 2010                                                     FY 2011
                                                                                          Within target                                      Within target
                                               Target time
                                                                   Number of                                         Number of
                                                frames in                             Number          Percent                           Number          Percent
                                                                   decisions                                         decisions
                                                  daysa
    Branches                                             45/60               819             806              98               870             857               99
    Capital/sub-debt                                     30/45               157             148              94               185             176               95
    Change in bank control                              NA/60                   5               3             60                  3               2              67
    Charters  b
                                                                              12                8             67                  8               7              88
    Conversions                                          30/90                  5               3             60                  3               2              67
    Federal branches                                  NA/120                    0               0               0                 1               1            100
    Fiduciary powers                                     30/45                  1               1            100                  2               2            100
    Mergers                                              45/60                64              61              95                 51              49              96
    Relocations                                          45/60               166             158              95               170             165               97
    Reorganizations                                      45/60                45              40              89                 64              58              91
    Stock appraisals                                    NA/90                   0               0               0                 0               0               0
    Subsidiaries                                            NA                65              61              94                 24              21              88
    12 CFR 5.53 change in assets                        NA/60                   5               5            100                  1               1            100
    Limited national bank upgrade                                               0               0               0                 0               0               0
    Total                                                                 1,344           1,294               96             1,382           1,341               97

Source: OCC data.
Note: Most decisions (95 percent in 2010 and 97 percent in 2011) were decided in the district offices and Large Bank Licensing under delegated authority.
Decisions include approvals, conditional approvals, and denials. NA means not applicable.
a
 Those filings that qualified for the “expedited review” process are subject to the shorter time frames listed. The longer time frames are the standard benchmarks for
more complex applications. New time frames commenced in 1997 with the adoption of the revised part 5. The target time frame may be extended if the OCC needs
additional information to reach a decision, permits additional time for public comment, or processes a group of related filings as one transaction.
b
  For independent charter applications, the target time frame is 120 days. For holding-company-sponsored applications, the target time frame is 45 days for applica-
tions eligible for expedited review and 90 days for all others.




                                                                   	                          Section Five: Licensing and Enforcement Measures	                    39
Figure 4: Change in Bank Control Act, National Banks, FY 2007–FY 2011
(Notices Processed With Disposition)

               Year                     Received            Acted on            Not disapproved       Disapproved           Withdrawn
               2011                                    4                   3                     3                      0               0
              2010                                     8                   5                     5                      0               0
              2009                                 10                  10                        7                      0               3
              2008                                     5                   4                     4                      0               0
              2007                                     6                   6                     6                      0               0

Source: OCC data.




Figure 5: Change in Bank Control Act, Federal Savings Associations, FY 2011
(Notices Processed With Disposition)a

             Year                    Received              Acted on            Not disapproved       Disapproved            Withdrawn
             2011                                  0                   3                     3                      0                   0

Source: National Applications Tracking System.
a
    Data are for fourth quarter of FY 2011.




40	           Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
Figure 6: OCC Enforcement Actions, FY 2011

                                                                                               Against institution-
                        Type of enforcement action             Against institutions
                                                                                                affiliated parties
 Cease-and-desist orders                                                               43                             11
 Temporary cease-and-desist orders                                                      0                              0
 12 USC 1818 civil money penalties                                                      5                             32
 12 USC 1818 civil money penalties amount assessed               $         40,000,000         $           1,992,773
 Flood insurance civil money penalties                                                  3                              0
 Flood insurance civil money penalties amount assessed           $              3,895         $                   0
 Restitution orders                                                                     3                              5
 Amount of restitution ordered                                   $         54,268,745         $           4,541,970
 Formal agreements                                                                     55                              0
 Capital directives                                                                     3                             NA
 Prompt corrective action directives                                                    3                             NA
 Individual minimum capital ratio letters                                              50                             NA
 Safety and soundness orders                                                            0                             NA
 Memorandums of understanding                                                          16                              0
 Commitment letters                                                                     3                             NA
 Suspension orders                                                                    NA                               1
 12 USC 1818 removal/prohibition orders                                               NA                              35
 12 USC 1829 prohibitions                                                             NA                            133
 Letters of reprimand                                                                 NA                              23
 Total                                                                                184                           240

Note: NA means not applicable.




Figure 7: List of Applications Presenting Community Reinvestment Act Issues Decided, FY 2011

                                                            Interpretations and
                            Bank, city, state                                               Document number
                                                                  actions
 First Niagara Bank, National Association, Buffalo, N.Y.
 (merger)                                                                May 2011                CRA Decision No. 148
 Harris National Association, Chicago, Illinois
 (conversion/merger)                                                     July 2011     Corporate Decision No. 2011-10

Source: OCC data.




                                                     	          Section Five: Licensing and Enforcement Measures	      41
Future challenges will not deter the OCC from maintaining a strong internal
control environment, or from pursuing a fiscally sound approach in operating
the agency.
Section Six
Financial Management
Discussion and Analysis
Letter From the                         Annually, the Financial
Chief Financial Officer                 Management Department conducts
                                        a detailed risk assessment of the
I am pleased to present the OCC’s       financial statements and applies
financial statements as an inte-        rigorous tests of controls. This
gral part of the Fiscal Year 2011       year’s risk assessment includes
Annual Report. For FY 2011, our         the impact of assuming the bulk
independent auditors have again         of the OTS’s assets and liabilities.
rendered an unqualified opinion         We performed a detailed analysis
with no material internal control       of the OTS balance sheet, and the
weaknesses.                             results guided the proper classi-
The financial statements include        fication of OTS accounts into the
the assets and liabilities trans-       OCC’s financial records.
                                                                                   Thomas R. Bloom, Chief Financial
ferred to the OCC from the OTS          While the impact of assuming               Officer
on July 21, 2011, as required by        the functions formerly performed
Dodd–Frank, and they are pre-                                                      the OCC to plan for structural
                                        by the OTS has been discussed              changes to the national banking
sented in accordance with gener-        throughout the Annual Report,
ally accepted accounting principles                                                system, replace capital assets,
                                        I would like to take a few moments         and fund unanticipated, one-time
(GAAP) for U.S. federal agencies.       to review the financial impact of          needs—such as the impact of
The foundation for an unquali-          these changes. The OCC, which              Dodd–Frank—without continuous
fied audit opinion begins with a        remains a nonappropriated agency           changes to the bank assessment
strong internal control environ-        after the passage of Dodd–Frank,           rate structure.
ment. For the past six years, the       continues to receive its main
OCC has diligently applied the          source of funding through assess-          After careful analysis, the
concepts and requirements embod-        ments on national banks and, with          Financial Management Department
ied in the OMB’s Circular A-123,        the integration of the OTS, federal        determined that in FY 2012 the
“Management’s Responsibility for        savings associations. These assess-        combined assessments from
Internal Control, Appendix A—           ments are used to fund the OCC’s           national banks and federal sav-
Internal Control Over Financial         operating costs, which include per-        ings associations will be adequate
Reporting.” Once again, the OCC         sonnel, travel, and training. These        to fund normal operations. Our
provided unqualified assurance          three items alone represent 73             analysis also shows that, overall,
that its internal control over finan-   percent of the total annual operat-        federal savings associations will
cial reporting operated effectively     ing budget.                                pay less using the current OCC
and that no material weaknesses                                                    assessment structure. Although
                                        Unused budgetary funds are                 some federal savings associations
were found in the design or opera-      placed into the OCC’s financial
tion of those internal controls.                                                   will pay higher fees under the
                                        reserves and are essential to the          OCC assessment schedule, others
                                        prudent financial management of            will pay less. If all federal savings
                                        the agency. These reserves allow           associations had been on the OCC


                                               	          Section Six: Financial Management Discussion and Analysis	   43
assessment schedule in FY 2010,              the provisions of Dodd–Frank. A         process improvement projects,
the federal savings association              discussion of this liability can be     primarily with LSS, which resulted
industry overall would have paid             found in Note 8 to the Financial        in $4.9 million of total cost sav-
an estimated $18 million less in             Statements. The OCC expects to be       ings. Since the inception of the
annual assessments.                          able to fund this liability through     program, 141 LSS projects have
                                             current operations and, if required,    been completed with total cost sav-
This year, the OCC entered into a            through the use of the agency’s         ings or avoidance of $26.0 million.
lease agreement for a new office             financial reserves.                     In addition, the OCC maintains a
building in Washington, D.C., to                                                     robust Black Belt and Green Belt
serve as the OCC’s headquarters.             While the OTS consolidation             training program. All OM execu-
The agreement enables the OCC to             was a momentous priority, other         tives have received formal training,
consolidate several office locations         structural changes occurred during      and 46 staff members are certified
in Washington, provide the needed            the year to improve the overall         as Master Black Belts, Black Belts,
space to house former OTS staff,             operating efficiency of the OCC’s       or Green Belts.
and realize the operating efficien-          administrative functions. The
cies afforded by such a move. In             Information Technology Services         As we look forward to FY 2012
FY 2012, the OCC budget will                 (ITS) division was re-aligned to        and beyond, the OCC will have
include funding for leasehold                the Office of Management (OM).          the financial resources needed to
improvements related to this new             To improve the effectiveness and        accomplish its mission to super-
office space. It is anticipated that         efficiency of the technology func-      vise, charter, and regulate national
funds from the financial reserves            tion, the ITS division was restruc-     banks and federal savings associa-
will be used for this purpose.               tured and is adopting process           tions. While the coming year holds
                                             improvement programs, such as           many challenges, it will not deter
In conjunction with the transfer             Lean Six Sigma (LSS), currently in      the OCC from maintaining a strong
of OTS assets and liabilities, the           place in OM.                            internal control environment, or
OCC assumed ownership of the                                                         from pursuing a fiscally sound
OTS’s former headquarters office             OM’s LSS program was estab-             approach in operating the agency.
building. While that property was            lished in FY 2005 primarily to
not large enough to house the                improve the processes at the
OCC headquarters, it is appro-               OCC. Over time, this program has
priate for the needs of the new              produced substantial cost savings
CFPB. The OCC also assumed a                 and improved benchmark perfor-
                                                                                                     Thomas R. Bloom
significant pension liability, which         mance in many areas. In FY 2011,
                                                                                                 Chief Financial Officer
it is required to fund according to          the OCC completed 16 business




44	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
Financial Summary                      The fluctuations caused by the                    Under the provisions of Dodd–
                                       transfer-in of assets and liabilities             Frank, in FY 2011 the OCC
The OCC received an unquali-           from the OTS are discussed in                     assumed the cost of the Pentegra
fied opinion on its FY 2011 and        more detail below.                                DB Plan, a special retirement
FY 2010 financial statements. The                                                        system in which some of the trans-
OCC’s financial statements consist     Assets totaling $321.0 million
                                                                                         ferred OTS employees participate.
of Balance Sheets, Statements of       and liabilities totaling in excess
                                                                                         The current fund target for this
                                       of $50.1 million were transferred
Net Cost, Statements of Changes                                                          significant pension liability is
                                       to the OCC’s Balance Sheet. The
in Net Position, and Statements of                                                       $481.3 million, with plan assets of
                                       majority of the transfer of net
Budgetary Resources. The OCC                                                             $406.5 million and an estimated
                                       assets includes $284.6 million in
presents the financial statements                                                        minimum required contribution to
                                       the fund balance with Treasury
and notes on a comparative basis,                                                        the FY 2012 plan year of
                                       (FBWT) and $24.7 million from
providing financial information        the land and a building owned                     $36.1 million. The OCC expects
for FY 2011 and FY 2010. The           by the OTS. Actuarial liabilities                 to be able to fund the costs asso-
financial statements were pre-         of $24.7 million, including the                   ciated with this liability using
pared from the OCC’s accounting        Pentegra Defined Benefit Plan for                 assets transferred from the OTS.
records in conformity with GAAP.       Financial Institutions (Pentegra                  The remaining costs will be
The financial statements include       DB Plan), formerly known as the                   funded as required through current
the assets and liabilities that were   Financial Institutions Retirement                 operations.
transferred to the OCC from the        Fund, annual leave of
OTS on July 21, 2011, the transfer     $13.0 million, and $10.4 million in               The figure below shows the full
date, as required by Dodd–Frank.       payroll-related liabilities, repre-               impact of the OTS transfer of
The financial statements, followed     sent the majority of the transfer of              assets and liabilities to the OCC.
by notes and the auditor’s opinion,    liabilities.
begin on page 52.
                                       OTS Transfer (in Millions)
The following sections of the                                                                                FY 2011
report address the OCC’s financial      Fund balance with Treasury                                  $                284.6
activities in FY 2011 and FY 2010.      Accounts receivable                                                             9.6
                                        Building and land                                                              24.7
Office of Thrift Supervision
                                        Equipment and leasehold improvements                                            2.1
Transfer
                                            Total assets (net)                                      $                321.0
On July 21, 2010, President
Obama signed Dodd–Frank                 Accrued liabilities                                                             2.0
into law. The act includes the          Accrued payroll and benefits                                                   10.4
Enhancing Financial Institution         Accrued annual leave                                                           13.0
Safety and Soundness Act of 2010,
                                        Accrued postretirement benefits                                                24.7
which transferred all of the OTS’s
                                            Total liabilities                                       $                  50.1
assets and liabilities to the OCC on
July 21, 2011, at book value as of
the close of business on July 20,       Net position                                                                 270.9
2011. The transfer of the OTS bal-          Total liabilities and net position                      $                321.0
ance sheet complies with GAAP.         Source: OCC financial system data.




                                                  	             Section Six: Financial Management Discussion and Analysis	    45
Assets                                           are civil money penalties due the      the land and a building owned by
                                                 federal government through court-      the OTS. The remaining increase
The OCC’s assets include both                    enforced legal actions.                is primarily attributable to the
“entity” and “non-entity” assets.                                                       growth in the OCC’s investment
The OCC uses entity assets, which                As of September 30, 2011, total        portfolio. Investments and related
belong to the agency, to fund oper-              assets were $1,526.6 million, an       interest rose by $143.5 million,
ations. The OCC acquires revenue                 increase of $414.8 million, or         or 13.7 percent, due in part to the
through the collection of assess-                37.3 percent, from the level on        transfer of assets, which resulted in
ments from national banks and fed-               September 30, 2010. The major-         an increase in operating cash and,
eral savings associations and from               ity of this increase is attributable   subsequently, the ability to invest
other income, including interest                 to the transfer of assets, including   additional funds in overnight
on investments in U.S. Treasury                  those from the liquidation of the      securities.
securities. Non-entity assets are                OTS’s long-term investments prior
assets that the OCC holds on                     to the transfer date as reflected in   Figure 8 shows the OCC’s com-
behalf of another federal agency.                the FBWT and other assets amount       position of assets for FY 2011 and
The OCC’s non-entity assets                      shown in the figure below. Also        FY 2010.
presented as accounts receivable                 included were fixed assets, notably

Figure 8: Composition of Assets (in Millions)




Source: OCC financial system data.




46	        Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
Liabilities                                 liabilities were $430.8 million,           the increase of $27.3 million, or
                                            a net increase of $104.4 million,          25.8 percent, in accounts pay-
The OCC’s liabilities represent the         or 32.0 percent, over the level on         able and accrued liabilities was
resources due to others or held for         September 30, 2010. The increase           caused by an increase in payroll
future recognition and are com-             of $41.1 million, or 21.1 percent,         and employee benefits, primarily a
posed largely of deferred revenue,          in deferred revenue was a result of        result of the transfer of 670 former
accrued liabilities, and accounts           an increase in assessment collec-          OTS employees to the OCC on
payable. Deferred revenue rep-              tions during FY 2011, the majority         July 21, 2011.
resents the unearned portion of             of which is attributable to assess-
semiannual assessments that have            ments collected from federal               Figure 9 illustrates the OCC’s
been collected but not earned.              savings associations that the OCC          composition of liabilities for
                                            now supervises. The majority of            FY 2011 and FY 2010.
As of September 30, 2011, total


Figure 9: Composition of Liabilities (in Millions)




Source: OCC financial system data.




                                                     	        Section Six: Financial Management Discussion and Analysis	   47
Net Position                                     $310.3 million, or 39.5 percent, is     and to cover foreseeable but rare
                                                 directly attributable to the transfer   events or new requirements and
The OCC’s net position of                        of the OTS net position. The net        opportunities. The OCC also sets
$1,095.8 million as of September                 position is presented on both the       aside funds for ongoing operations
30, 2011, and $785.5 million as                  Balance Sheets and the Statements       to cover undelivered orders, the
of September 30, 2010, represent                 of Changes in Net Position.             consumption of assets, and capital
the cumulative net excess of the                                                         investments.
OCC’s revenues over the cost of                  The OCC reserves a significant
operations since inception and                   portion of the net position to sup-     Figure 10 shows the OCC’s com-
includes the transfer-in of                      plement resources made available        position of net position for
$270.9 million from the OTS. The                 to fund the OCC’s annual budget         FY 2011 and FY 2010.
majority of the increase of

Figure 10: Composition of Net Position (in Millions)




Source: OCC financial system data.




48	        Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
Reserves                                                  transfer of the OTS’s net position                     $62.0 million in budget authority
                                                          caused the significant increase                        transferred from the OTS.
The establishment of financial                            in the contingency reserve. The
reserves is integral to the effec-                        asset replacement reserve is for                       Total FY 2011 revenue of
tive stewardship of the OCC’s                             the replacement of information                         $843.2 million reflects a
resources, particularly because the                       technology investments, lease-                         $56.5 million, or 7.2 percent,
agency does not receive congres-                          hold improvements, and furniture                       increase over FY 2010 revenues
sional appropriations. The contin-                        replacement for future years.                          of $786.7 million. The increase is
gency reserve reduces the impact                          During FY 2011, the OCC entered                        largely attributable to asset growth
on the OCC’s operations from                              into a long-term lease for a new                       in the national banking system and
revenue shortfalls, from unan-                            headquarters office building for                       the collection of assessments from
ticipated expenses resulting from                         which the leasehold improvements                       the federal savings associations
foreseeable but rare events that are                      will be funded from the asset                          that the OCC began supervising
beyond the OCC’s control, or from                         replacement reserve.                                   in FY 2011. Total national bank
new requirements and opportu-                                                                                    assets under OCC supervision rose
nities. Examples of such events                           Revenues and Costs                                     as of June 30, 2011, to
might include a major change in                                                                                  $8.8 trillion, up 3.5 percent from
the national banking system, a fire                       The OCC’s operations are funded
                                                                                                                 $8.5 trillion a year earlier. Of this
or flood, or significant impairment                       primarily by assessments collected
                                                                                                                 total, $7.7 trillion, or 87.5 percent,
to the OCC’s information technol-                         from national banks and federal
                                                                                                                 is attributable to large national
ogy network that interferes with                          savings associations and from
                                                                                                                 banks. Midsize and community
the OCC’s ability to accomplish its                       interest received on investments in
                                                                                                                 banks’ share represents $915.1 bil-
mission.                                                  U.S. Treasury securities. The OCC,
                                                                                                                 lion, or 10.2 percent, followed by
                                                          in accordance with 12 USC 482,
                                                                                                                 federal branches at $179.4 billion,
These reserves also allow the OCC                         establishes budget authority for a
                                                                                                                 or 2.3 percent. Although not yet
to fund special one-time needs,                           given fiscal year. The total budget
                                                                                                                 consolidated with the OCC, the
such as those that arose from the                         authority available for use by the
                                                                                                                 OTS had thrift assets totaling
regulatory restructuring required                         OCC in FY 2011 was $876.5 mil-
                                                                                                                 $908.3 billion as of June 30, 2011.
by Dodd–Frank, and which could                            lion, which represents an increase
include the funding of the Pentegra                       of $84.8 million, or 10.7 percent,                     Figure 11 depicts the components
DB Plan liability transferred                             over the $791.7 million budget in                      of total revenue for FY 2011 and
from the OTS. In FY 2011, the                             FY 2010 and includes                                   FY 2010.

Figure 11: Components of Total Revenue (in Millions)

                                                                    FY 2011                     FY 2010             Change ($)          Change (%)
    Assessments                                                $         814.6            $        764.4          $         50.2                  6.6%
    Investments and other income           a
                                                                                28.6                      22.3                   6.3             28.3
    Total revenue                                              $         843.2            $        786.7          $         56.5                  7.2%
Source: OCC financial system data.
a
    Other sources of revenue include reimbursable activities and other miscellaneous sources.




                                                                    	               Section Six: Financial Management Discussion and Analysis	          49
Investments                                      the inherent risk of interest-rate     uses an activity-based time report-
                                                 fluctuations. The weighted average     ing system to allocate costs among
The book value of the OCC’s                      maturity of the OCC’s investment       the agency’s programs. Costs are
investment portfolio on September                portfolio as of September 30, 2011,    further divided into those result-
30, 2011, was $1,184.6 million,                  and September 30, 2010, was            ing from transactions between the
compared with $1,041.1 million a                 1.62 years and 1.87 years, respec-     OCC and other federal entities
year earlier. The market value of                tively. The portfolio earned an        (intragovernmental) and those
the OCC’s portfolio in excess of                 annual yield for FY 2011 of            between the OCC and nonfederal
book value rose to $38.9 million                 2.3 percent, compared with             entities (with the public). The
from $37.9 million on September                  2.6 percent in FY 2010. The OCC        Statements of Net Cost present the
30, 2010. The OCC invests avail-                 calculates annual portfolio yield by   full cost of operating the OCC’s
able funds in non-marketable U.S.                dividing the total interest earned     three major programs—supervise,
Treasury securities issued through               during the year by the average         regulate, and charter national
the Treasury Department’s Bureau                 ending monthly book value of           banks. FY 2011 data include the
of Public Debt in accordance with                investments.                           costs associated with operating
the provisions of 12 USC 481 and                                                        these programs beginning July
12 USC 192. The OCC manages                      Cost of Operations                     21, 2011, for federal savings
risk by diversifying its portfolio                                                      associations.
across maturities within estab-                  The OCC’s net cost of operations
lished parameters. Diversifying                  is reported on the Statements of
                                                                                        Figure 12 illustrates the breakdown
maturities of the individual secu-               Net Cost and the Statements of
                                                                                        of costs of operations by major
rities is meant to help manage                   Changes in Net Position. The OCC
                                                                                        program for FY 2011 and FY 2010.


Figure 12: Costs of Operations by Major Program (in Millions)




Source: OCC financial system data.




50	        Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
The full cost presented in the        those for former OTS employees             Correspondingly, the costs of
Statements of Net Cost includes       who were transferred to the OCC.           supervising the national banks and
costs contributed by the Office of    Additional contributing factors            federal savings associations have
Personnel Management (OPM)            include increases to contractual           risen because of the increasing size
on behalf of the OCC to cover         services for systems maintenance,          and complexity of their assets.
the cost of the Federal Employees     rent, and travel costs.
Retirement System (FERS) and                                                     Budgetary Resources
Civil Service Retirement System       The full cost is reduced by earned
                                                                                 The Statements of Budgetary
(CSRS) retirement plans and the       revenues to arrive at net cost.
                                                                                 Resources, found on page 55,
Federal Employees Health Benefits     Earned revenues increased by
                                                                                 provide information about how
(FEHB) and Federal Employees’         $56.5 million, or 7.2 percent, to
                                                                                 budgetary resources were made
Group Life Insurance (FEGLI)          $843.2 million in FY 2011, due
                                                                                 available to the OCC for the year
plans, totaling $33.7 million in      to an increase in FY 2011 bank
                                                                                 and present the status of these
FY 2011 and $32.9 million in          assessments that was slightly
                                                                                 resources and the net outlay of
FY 2010. FY 2011 total program        offset by minor decreases in other
                                                                                 budgetary resources at the end
costs of $837.7 million reflect an    revenues. The increases in assess-
                                                                                 of the year. The OCC executed
increase of $51.1 million, or         ments are a direct result of bank
                                                                                 $819.5 million, or 93.5 percent,
6.5 percent, from $786.6 million      asset growth in both the national
                                                                                 of the FY 2011 budget of
in FY 2010. The increase was          banking system, particularly the
                                                                                 $876.5 million.
primarily due to an increase in the   largest banks, and the federal
cost of pay and benefits, including   savings association industry.




                                             	          Section Six: Financial Management Discussion and Analysis	   51
Financial Statements

                                  Office of the Comptroller of the Currency
                                                Balance Sheets
                                             As of September 30, 2011 and 2010
                                                              (in Thousands)

                                                                                        2011                   2010


 Assets                                                                                                    
      Intragovernmental:
         Fund balance with Treasury (Note 2)                                      $      237,036           $      3,981
         Investments and related interest (Note 3)                                      1,188,159              1,044,678
         Accounts receivable (Note 4)                                                      3,931                        0
         Other assets                                                                          316                      0
      Total intragovernmental                                                           1,429,442              1,048,659


      Accounts receivable, net (Note 4)                                                        542                    661
      Property and equipment, net (Note 5)                                                96,617                 62,460
      Other assets                                                                              24                    49


 Total assets                                                                     $     1,526,625          $   1,111,829


 Liabilities
      Intragovernmental:
        Accounts payable and other accrued liabilities                            $        3,300           $      2,489
      Total intragovernmental                                                              3,300                  2,489


      Accounts payable                                                                     8,056                  9,772
      Accrued payroll and benefits                                                        43,811                 32,463
      Accrued annual leave                                                                47,630                 37,476
      Other accrued liabilities                                                           30,249                 23,442
      Deferred revenue                                                                   235,514                194,443
      Other actuarial liabilities (Note 8)                                                62,272                 26,290
      Total liabilities                                                                  430,832                326,375


      Net position (Note 9)                                                             1,095,793               785,454


 Total liabilities and net position                                               $     1,526,625          $   1,111,829




                             The accompanying notes are an integral part of these financial statements.


52	        Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
                            Office of the Comptroller of the Currency
                                          Statements of Net Cost
                           For the Years Ended September 30, 2011 and 2010
                                                      (in Thousands)




                                                                                   2011                           2010

Program costs                                                                                            
  Supervise
     Intragovernmental                                                     $              103,977        $                 94,707
     With the public                                                                      611,387                        580,615

  Subtotal—supervise                                                       $              715,364        $               675,322


  Regulate
     Intragovernmental                                                     $               16,003        $                 13,972
     With the public                                                                       91,977                          83,415

  Subtotal—regulate                                                        $              107,980        $                 97,387


  Charter
     Intragovernmental                                                     $                2,212        $                  2,063
     With the public                                                                       12,148                          11,796

  Subtotal—charter                                                         $               14,360        $                 13,859


Total program costs                                                        $              837,704        $               786,568
  Less: earned revenues not attributed to programs                                      (843,203)                    (786,717)

Net program costs before gain/loss from
changes in assumptions                                                     $               (5,499)       $                  (149)
  Actuarial (gain)/loss (Note 8)                                                             (196)                          1,903


Net cost of operations (Note 10)                                           $               (5,695)          $               1,754




                         The accompanying notes are an integral part of these financial statements.

                                                  	           Section Six: Financial Management Discussion and Analysis	        53
                                  Office of the Comptroller of the Currency
                                   Statements of Changes in Net Position
                               For the Years Ended September 30, 2011 and 2010
                                                             (in Thousands)


                                                                                         2011                   2010


 Beginning balances                                                                $            785,454   $            754,318



 Budgetary financing sources:
      Transfer-in without reimbursement (Note 13)                                               259,222                      0


 Other financing sources:
      Transfer-in without reimbursement (Note 13)                                                11,675                      0

      Imputed financing (Note 11)                                                                33,747                 32,890



 Net cost of operations                                                                           5,695                 (1,754)



 Net change                                                                                     310,339                 31,136


 Ending balances                                                                   $       1,095,793      $            785,454




                            The accompanying notes are an integral part of these financial statements.

54	       Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
                               Office of the Comptroller of the Currency
                                 Statements of Budgetary Resources
                              For the Years Ended September 30, 2011 and 2010
                                                        (in Thousands)

                                                                                    2011                          2010
Budgetary resources
  Unobligated balance, brought forward, October 1                           $              847,259       $               793,371
  Spending authority from offsetting collections
    Earned
       Collected                                                                           891,591                       794,029
       Receivable from federal sources                                                       3,914                              79
    Subtotal                                                                               895,505                       794,108
  Nonexpenditure transfer, net, actual                                                     245,034                               0
Total budgetary resources                                                   $           1,987,798        $            1,587,479
Status of budgetary resources
  Obligations incurred                                                      $              824,994       $               740,220
   Unobligated balance available                                                        1,162,804                       847,259
Total status of budgetary resources                                         $           1,987,798        $            1,587,479

Change in obligated balance
  Obligated balance, net, beginning of period
     Unpaid obligations brought forward, October 1                          $              184,501       $               177,517
     Uncollected customer payments from federal sources, October 1                          (3,579)                         (3,500)
  Total unpaid obligated balance, net                                                      180,922                       174,017


  Obligations incurred                                                                     824,994                       740,220
  Gross outlays                                                                          (797,892)                     (733,236)
  Obligated balance transfer, net
     Unpaid obligations transferred                                                         39,562                               0
     Uncollected customer payments from federal sources transferred                               0                              0
  Total unpaid obligated balance transferred, net                                           39,562                               0

  Change in uncollected customer payments from federal sources                              (3,914)                            (79)
  Obligated balance, net, end of period
     Unpaid obligations                                                                    251,164                       184,501
     Uncollected customer payments from federal sources                                     (7,493)                         (3,579)
Obligated balance, net, end of period                                                      243,671                       180,922
  Net outlays
     Gross outlays                                                          $              797,892       $               733,236
     Offsetting collections                                                              (891,591)                     (794,029)
Net outlays                                                                 $              (93,699)       $              (60,793)


                         The accompanying notes are an integral part of these financial statements.

                                                    	          Section Six: Financial Management Discussion and Analysis	        55
Notes to the Financial                        are prepared from the agency’s         a liability is incurred, without
Statements                                    accounting records in conformity       regard to cash receipt or payment.
                                              with GAAP as set forth by the          The budgetary method recognizes
Note 1—Significant                            Federal Accounting Standards           the obligation of funds according
Accounting Policies                           Advisory Board (FASAB). The            to legal requirements, which in
A. Reporting Entity                           OCC’s financial statements are         many cases is recorded before the
                                              presented in accordance with the       occurrence of an accrual-based
The OCC was created as a bureau               form and content guidelines estab-     transaction. Budgetary accounting
within the Treasury Department                lished by the OMB in Circular          is essential for compliance with
by an act of Congress in 1863.                No. A-136, “Financial Reporting        legal constraints and controls over
The mission of the OCC was to                 Requirements.”                         the use of federal funds.
establish and regulate a system
of federally chartered national               In addition, the OCC applies           In accordance with GAAP, the
banks. The National Currency Act              financial accounting and reporting     preparation of financial state-
of 1863, rewritten and reenacted              standards issued by the Financial      ments requires management to
as the National Bank Act of 1864,             Accounting Standards Board             make estimates and assumptions
authorized the OCC to supervise               only as outlined in Statement of       that affect the reported amounts of
national banks and to regulate the            Federal Financial Accounting           assets and liabilities, the disclosure
lending and investment activities             Standards (SFFAS) 34, “The             of contingent assets and liabilities
                                              Hierarchy of Generally Accepted        at the date of the financial state-
of federally chartered institutions.
                                              Accounting Principles,” includ-        ments, and the reported amounts
With the passage of Dodd–Frank
                                              ing the “Application of Standards      of revenue and expense during the
on July 21, 2010, the OCC now
                                              Issued by the Financial Accounting     reporting period. Such estimates
also oversees federally chartered
                                              Standards Board.”                      and assumptions could change in
savings associations.
                                                                                     the future as more information
                                              The OCC’s financial state-             becomes known, which could
The financial statements report on
                                              ments consist of Balance Sheets,       affect the amounts reported and
the OCC’s three major programs:
                                              Statements of Net Cost, Statements     disclosed herein.
supervise, regulate, and charter
                                              of Changes in Net Position,
national banks and federal savings
                                              and Statements of Budgetary            Throughout these financial state-
associations. The OCC’s major
                                              Resources. The OCC presents its        ments, assets, liabilities, earned
programs support the agency’s
                                              financial statements on a compara-     revenues, and costs have been
overall mission by ensuring a
                                              tive basis, providing information      classified according to the entity
safe and sound system of national
                                              for FY 2011 and FY 2010. Fiscal        responsible for these transactions.
banks and federal savings associa-
                                              year 2011 data include balances        Intragovernmental earned rev-
tions (collectively, banks); pro-
                                              transferred from the OTS financial     enues are collections or accruals of
moting equal access to financial
                                              statements for the period ending       revenue from other federal entities,
services and fair treatment of bank
                                              July 20, 2011, and activity of the     and intragovernmental costs are
customers; maintaining a flexible
                                              combined entity from the transfer      payments or accruals of expendi-
legal and regulatory framework
                                              date through September 30, 2011.       tures to other federal entities.
that enables a strong, competitive
                                              The FY 2010 financial statements
system of banks; and having a                                                        C. Revenues and Other
                                              represent OCC financial informa-
competent, highly motivated, and                                                     Financing Sources
                                              tion as originally published, before
diverse workforce.                                                                   The OCC derives its revenue pri-
                                              the consolidation.
B. Basis of Accounting and                                                           marily from assessments and fees
Presentation                                  The financial statements reflect       paid by national banks and federal
                                              both the accrual and budgetary         savings associations, and from
The accompanying financial                    bases of accounting. Under the         income on investments in non-
statements present the operations             accrual basis of accounting, rev-      marketable U.S. Treasury securi-
of the OCC, which include the                 enues are recognized when earned,      ties. The OCC does not receive
recently transferred OTS functions.           and expenses are recognized when       congressional appropriations to
The OCC’s financial statements

56	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
fund any of the agency’s opera-       U.S. Treasury securities, which            method. They are removed from
tions. Therefore, the OCC has no      may include one-day certificates,          the OCC’s asset accounts in the
unexpended appropriations.            bills, notes, and bonds. The OCC           period of disposal, retirement, or
                                      does not invest funds with state           removal from service. Any differ-
By federal statute 12 USC 481,        or national banks. The OCC has             ence between the book value of
the OCC’s funds are maintained        the positive intent and ability to         the property and equipment and
in both a U.S. government trust
                                      hold all U.S. Treasury securi-             amounts realized is recognized as a
revolving fund and a non-trust
                                      ties to maturity in accordance             gain or loss in the same period that
revolving fund. The funds remain
                                      with Statement of Financial                the asset is removed.
available to cover the annual costs
                                      Accounting Standard (SFAS)
of the OCC’s operations in accor-                                                I. Liabilities
                                      No. 115, “Accounting for Certain
dance with policies established by
the Comptroller of the Currency.      Investments in Debt and Equity             The OCC records liabilities for
                                      Securities,” and does not maintain         amounts that are likely to be paid
D. Earmarked Funds                    any available-for-sale or trading          as a result of events that have
Earmarked funds are financed          securities.                                occurred as of the relevant Balance
by specifically identified rev-                                                  Sheet dates. The OCC’s liabili-
                                      G. Accounts Receivable
enues, often supplemented by                                                     ties consist of routine operating
other financing sources, which        In accordance with SFFAS No. 1,            accounts payable, accrued payroll
remain available over time. These     “Accounting for Selected Assets            and benefits, and deferred revenue.
specifically identified revenues      and Liabilities,” the OCC updates          The OCC’s liabilities represent the
and other financing sources are       the “allowance for loss on accounts        amounts owed or accrued under
required by statute to be used for    receivable” account annually or as         contractual or other arrangements
designated activities, benefits, or   needed to reflect the most cur-            governing the transactions, includ-
purposes, and must be accounted       rent estimate of accounts that are         ing operating expenses incurred
for separately from the govern-       likely to be uncollectible. Accounts       but not paid. The OCC accounts
ment’s general revenues. In           receivable from the public are             for liabilities in accordance with
accordance with FASAB SFFAS           reduced by an allowance for loss           SFFAS No. 5, “Accounting
No. 27, “Identifying and Reporting    on doubtful accounts.                      for Liabilities of the Federal
Earmarked Funds,” all of the          H. Property and Equipment                  Government.”
OCC’s revenue meets this criterion
and constitutes an earmarked fund.    Property and equipment as well as          Accounts Payable
                                      internal-use software are accounted
E. Fund Balance With                  for in accordance with SFFAS No.           Payments are made in a timely
Treasury                                                                         manner in accordance with the
                                      6, “Accounting for Property, Plant,
The Treasury Department pro-          and Equipment,” and SFFAS No.              Prompt Payment Act. Interest pen-
cesses the OCC’s cash receipts        10, “Accounting for Internal Use           alties are paid when payments are
and disbursements. Sufficient         Software.”                                 late. Discounts are taken when cost
funds are maintained in two U.S.                                                 effective and when the invoice is
government revolving funds            Property and equipment purchases           paid within the discount period.
and are available to pay current      and additions are stated at cost.
liabilities. The OCC’s Statements     The OCC expenses acquisitions              Accrued Annual Leave
of Budgetary Resources reflect the    that do not meet the capitalization
                                                                                 In accordance with SFFAS No. 5,
status of the agency’s FBWT.          criteria, such as normal repairs
                                                                                 annual leave is accrued and funded
                                      and maintenance, when they are
F. Investments                                                                   by the OCC as it is earned, and the
                                      received or incurred.
                                                                                 accrual is reduced as leave is taken
It is the OCC’s policy to invest
                                      In addition, property and equip-           or paid. Each year, the balance in
available funds in accordance with
                                      ment are depreciated or amortized,         the accrued annual leave account
the provisions of 12 USC 481 and
                                      as applicable, over their estimated        is adjusted to reflect actual leave
12 USC 192. The OCC invests
available funds in non-marketable     useful lives using the straight-line

                                             	          Section Six: Financial Management Discussion and Analysis	   57
balances with current pay rates.              statements; OPM reports them.            As required by law, for OTS
Sick leave and other types of leave           Although the OCC reports no              employees transferred to the OCC,
are expensed as incurred.                     liability for future payments to         the OCC continues to offer a
                                              employees under these programs,          separate 401(k) plan. The amount
Deferred Revenue                              the federal government is liable         of each participant’s matching con-
                                              for future payments to employ-           tribution is based on the applicable
The OCC’s activities are primarily
                                              ees through the various agencies         retirement system under which
financed by assessments on assets
                                              administering these programs.            each participant is covered.
held by national banks, federal
savings associations, and the                 As benefit administrator for the         Federal Employees Health
federal branches of foreign banks.            Pentegra DB Plan—in which some           Benefits and Federal Employees’
These assessments are due March                                                        Group Life Insurance
                                              of the transferred OTS employees
31 and September 30 of each                   participate and which is closed          Employees and retirees of the
year, based on their asset balances           to new entrants—the OCC is               OCC are eligible to participate
as of December 31 and June 30,                committed to adhering to sound           in the FEHB and FEGLI plans
respectively. Assessments are paid            financial policies and management        administered by OPM that involve
mid-cycle and are recognized as               oversight of the plan to ensure its      a cost sharing of biweekly cover-
earned revenue on a straight-line             sustainability for current and future    age premiums by employee and
basis. The unearned portions of               retirees.                                employer. The OCC does not fund
collected assessments are classified
                                                                                       post-retirement benefits for these
as deferred revenue.                          Thrift Savings Plan
                                                                                       programs. Instead, the OCC’s
J. Employment Benefits                        The OCC’s employees are eligible         financial statements recognize an
                                              to participate in the federal Thrift     imputed financing source and cor-
Retirement Plans
                                              Savings Plan. For employees              responding expense that represent
All of the OCC’s employees partic-            under FERS, a Thrift Savings Plan        the OCC’s share of the cost to the
ipate in one of three retirement sys-         account is automatically estab-          federal government of providing
tems—two administered by OPM                  lished, and the OCC contributes          these benefits to all eligible OCC
(CSRS and FERS) and one for                   a mandatory 1.0 percent of base          employees.
which the OCC assumed the role                pay to this account. The OCC also
                                                                                       Post-retirement Life Insurance
of benefit administrator in FY 2011           matches employee contributions up
                                                                                       Benefit Plan
(the Pentegra DB Plan). Pursuant              to an additional 4.0 percent of pay,
to the enactment of Public Law                for a maximum OCC contribution           The OCC sponsors a life insurance
99-335, which established FERS,               of 5.0 percent of base pay.              benefit plan for current and retired
most OCC employees hired after                                                         employees. This plan is a defined
December 31, 1983, are automati-              OCC 401(k) Plans
                                                                                       benefit plan for which the benefit
cally covered by FERS and Social                                                       is earned over the period from the
                                              In addition to the federal Thrift
Security. Employees hired before                                                       employee’s date of hire to the date
                                              Savings Plan, OCC employees can
January 1, 1984, are covered by                                                        on which the employee is assumed
                                              elect to contribute a portion of their
CSRS, with the exception of those                                                      to retire. The valuation of the plan
                                              base pay to the OCC-sponsored
who, during the election period,                                                       is conducted in accordance with
                                              401(k) plan, subject to Internal
joined FERS.                                                                           generally accepted actuarial prin-
                                              Revenue Service regulations that
                                              apply to employee contributions          ciples and practices, including the
The OCC does not report CSRS or
                                              in both the federal Thrift Savings       applicable Actuarial Standards of
FERS assets or accumulated plan
                                              Plan and the OCC-sponsored               Practice as issued by the Actuarial
benefits that may be applicable
                                              401(k) plan.                             Standards Board. Specifically,
to its employees in its financial
                                                                                       the OCC uses the actuarial cost




58	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
method as outlined in SFAS No.         used to estimate federal employee          Note 2—Fund Balance With
87, “Employers’ Accounting for         pensions, other retirement benefits,       Treasury
Pensions,” to determine costs          and other post-employment benefit
for its retirement plans. Gains or     liabilities as a separate line item        The status of the FBWT repre-
losses owing to changes in actuar-     on the Statements of Net Cost in           sents the budgetary resources that
ial assumptions are amortized over     accordance with the guidance out-          support the FBWT and is a recon-
the service life of the plan. The      lined in SFFAS No. 33, “Pensions,          ciliation between budgetary and
actuarial assumptions and meth-        Other Retirement Benefits, and             proprietary accounts. The OCC’s
ods used in calculating actuarial      Other Postemployment Benefits:             FBWT comprises two separate
amounts comply with the require-       Reporting the Gains and Losses             U.S. Treasury fund symbols. The
ments for post-retirement benefits     From Changes in Assumptions                first is designated as a trust fund
other than pensions as set forth       and Selecting Discount Rates and           established by 12 USC 481 that
in SFAS No. 106, “Employers’           Valuation Dates.”                          governs the collection and use of
Accounting for Postretirement                                                     assessments and other funds by the
Benefits Other Than Pensions,”         On August 4, 2010, the FASAB               OCC. The second is a new fund
and for health benefit plans as        published SFFAS No. 39,                    symbol designated as a revolving
set forth in American Institute        “Subsequent Events: Codification           fund and was established to allow
of Certified Public Accountants        of Accounting and Financial                for the transfer of OTS funds to the
Statement of Position 92-6.            Reporting Standards Contained              OCC on July 21, 2011. The OCC’s
                                       in the AICPA [American Institute           FBWT consists of unobligated and
In addition, for the one-year period   of Certified Public Accountants]           obligated balances that reflect the
following the transfer date, the       Statements on Auditing                     budgetary authority remaining for
OCC will continue to administer        Standards.” This statement does            disbursement against current or
a separate life insurance plan for     not establish new accounting guid-         future obligations.
those OTS employees transferred        ance but rather incorporates the
to the OCC who meet eligibility        existing guidance (to the extent           The unobligated balance represents
requirements.                          appropriate in the federal gov-            the cumulative amount of budget-
                                       ernment environment) into the              ary authority that has not been set
K. Custodial Revenues and                                                         aside to cover outstanding obliga-
                                       FASAB standards. The statement’s
Collections                                                                       tions and is classified as available
                                       requirements improve financial
Non-entity receivables, liabilities,   reporting by incorporating authori-        for future OCC use without further
and revenue are recorded as custo-     tative accounting and financial            congressional action. The obli-
dial activity and include amounts      reporting literature into a single         gated balance not yet disbursed
collected for fines, civil money       source and thereby better enabling         represents funds that have been
penalties, and related interest        entities to prepare basic informa-         obligated for goods that have not
assessments. Revenues are recog-       tion and required supplementary            been received or services that have
nized as cash collected that will be   information in conformity with             not been performed. It also repre-
transferred to the General Fund of     GAAP. The statement addresses              sents goods and services that have
the U.S. Treasury at the end of the    the circumstances under which an           been delivered or received but for
fiscal year.                           entity should recognize or disclose        which payment has not been made.
                                       events or transactions occur-              The nonbudgetary FBWT account
L. Effects of Recent                                                              represents adjustments to budget-
Accounting Pronouncements              ring after the end of the reporting
                                       period but before issuance of the          ary accounts that do not affect
In FY 2010, the OCC began              financial report. The OCC adopted          the FBWT. The OCC’s balance
displaying gains and losses from       SFFAS No. 39 upon issuance, as             represents investment accounts that
changes in long-term assumptions       required, without material effect.         reduce the status of the FBWT.




                                              	          Section Six: Financial Management Discussion and Analysis	   59
The figure below depicts the OCC’s FBWT amounts for FY 2011 and FY 2010.

Fund Balance With Treasury (in Thousands)
                                                                                FY 2011                              FY 2010
 Fund balance:
 Revolving fund                                                       $	                   226,413           $	                      0
 Trust fund                                                                                  10,623                              3,981
 Total fund balance                                                   $	                   237,036           $	                  3,981


 Status of fund balance with Treasury
 Unobligated balance—available                                        $	                  1,162,804          $	                847,259
 Obligated balance not yet disbursed                                                       243,671                             180,922
 Non-budgetary fund balance with Treasury                                                (1,169,439)                        (1,024,200)
 Total                                                                $	                   237,036           $	                  3,981


Note 3—Investments and                          The fair market value of invest-                The yield-to-maturity on the non-
Related Interest                                ment securities was $1,223.5 mil-               overnight portion of the OCC’s
                                                lion on September 30, 2011, and                 investment portfolio ranged from
The OCC’s investments are stated                $1,079.0 million on September 30,               0.9 percent to 4.5 percent in
at amortized cost and the related               2010. The overall portfolio earned              FY 2011 and from 0.7 percent to
accrued interest. Premiums and                  an annual yield of 2.3 percent for              4.5 percent in FY 2010.
discounts are amortized over the                FY 2011 and 2.6 percent for
term of the investment using the                FY 2010.
effective interest method.


FY 2011 Investments and Related Interest (in Thousands)
                                                                                       Amortized
                                                              Amortization                             Investments,       Market value
                                                Cost                                   (premium)
                                                                method                                      net            disclosure
                                                                                        discount
 Intragovernmental securities:
     Non-marketable market-based            $  1,192,820 Effective interest        $     (8,224)           $  1,184,596   $   1,223,491
   Accrued interest                                 3,563                                          0              3,563           3,563
 Total intragovernmental
                                            $  1,196,383                           $     (8,224)           $  1,188,159   $   1,227,054
 investments

FY 2010 Investments and Related Interest (in Thousands) 
                                                                                       Amortized
                                                              Amortization                             Investments,       Market value
                                                                                       (premium)
                                                Cost            method                                      net            disclosure
                                                                                        discount
 Intragovernmental securities:
     Non-marketable market-based            $  1,048,359 Effective interest        $     (7,260)           $  1,041,099   $   1,079,001
   Accrued interest                                 3,579                                          0              3,579           3,579
 Total intragovernmental
                                            $  1,051,938                           $     (7,260)           $  1,044,678   $   1,082,580
 investments




60	       Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
Note 4—Accounts                          represent pension sharing costs            fiduciary duty. Because CMPs are
Receivable                               for OTS employees transferred              not debts due the OCC, the amount
                                         to other federal agencies rather           outstanding does not enter into the
As presented in the OCC’s                than to the OCC. Also included             calculation for the allowance for
Balance Sheets, accounts receiv-         are civil money penalty (CMP)              uncollectible accounts. The OCC
able represent monies due from           amounts assessed against people,           has recognized $41.6 million and
the public, for services and goods       national banks, or federal savings         $50.7 million in CMP non-entity
provided that are retained by the        associations for violations of law,        revenue as of September 30, 2011
OCC upon collection. The amounts         regulation, and orders; unsafe or          and 2010, respectively.
shown for federal receivables            unsound practices; and breaches of


FY 2011 Accounts Receivable (in Thousands)
                                                                       Allowance for                Accounts receivable,
                                            Gross                  uncollectible accounts                  net
Federal receivables                 $                3,931        $                     0           $               3,931
Civil money penalties receivables                      486                                  0                           486
Nonfederal receivables                                   81                              (25)                           56
Total accounts receivable           $                4,498        $                   (25)          $               4,473


FY 2010 Accounts Receivable (in Thousands)                                                       
               
                                                                       Allowance for                Accounts receivable,
                                            Gross                  uncollectible accounts                  net
Civil money penalties receivables   $                 643         $                     0           $                643
Nonfederal receivables                                   45                              (27)                           18
Total accounts receivable           $                 688         $                   (27)          $                661




                                               	           Section Six: Financial Management Discussion and Analysis	      61
Note 5—Property and                              Land, leasehold improvements                    fully depreciated assets removed
Equipment, Net                                   in development, and internal-use                from service. In FY 2011, there
                                                 software in development are not                 was no gain or loss on asset
Property and equipment purchased                 depreciated. Major alterations                  disposal. In FY 2010, the OCC
at a cost greater than or equal                  and renovations, including lease-               recognized a loss of $5.7 million
to the noted thresholds below                    hold and land improvements, are                 on the disposal of other assets. The
with useful lives of three years                 capitalized, while maintenance                  figures below summarize prop-
or more are capitalized at cost                  and repair costs are charged to                 erty and equipment balances as of
and depreciated or amortized,                    expenses as incurred. All other                 September 30, 2011 and 2010.
as applicable. Depreciation is                   property and equipment are depre-
expensed on a straight-line basis                ciated or amortized, as applicable,             FY 2011 assets include the land
over the estimated useful life of the            on a straight-line basis over their             and a building owned by the OTS
asset with the exception of lease-               estimated useful lives.                         that were transferred to the OCC
hold improvements. Leasehold                                                                     on July 21, 2011. The building is
improvements are amortized on a                  For FY 2011 and FY 2010, the                    a rental income property that the
straight-line basis over the lesser              OCC reported $1.9 million and                   OCC uses to supplement its operat-
of the terms of the related leases               $312.3 thousand, respectively, of               ing budget. See Note 6.
or their estimated useful lives.

FY 2011 Property and Equipment, Net (in Thousands)
                                                                                                   Accumulated
                                                 Capitalization       Useful                                             Net book
               Class of assets                                                      Cost           depreciation/
                                                  threshold            life                                               value
                                                                                                   amortization
 Land                                                          NA         NA    $    7,101       $              0      $      7,101
 Building                                                       50        50            49,188              (31,812)          17,376
 Leasehold improvements                                         50      5–20            78,766              (48,536)          30,230
 Equipment                                                      50      3–10            30,918              (24,170)           6,748
 Internal use software                                         500          5           69,025              (57,797)          11,228
 Internal use software—development                             500        NA            19,990                     0          19,990
 Leasehold
                                                                50        NA             3,944                     0           3,944
 improvements—development
 Total                                                                          $  258,932       $       (162,315)     $     96,617


FY 2010 Property and Equipment, Net (in Thousands)
                                                                                                   Accumulated
                                                 Capitalization       Useful                                             Net book
                                                                                    Cost           depreciation/
               Class of assets                    threshold            life                                               value
                                                                                                   amortization
 Land                                                          NA         NA     $       0       $              0      $          0
 Building                                                       50        50                0                      0                0
 Leasehold improvements                                         50      5–20            71,974              (37,701)          34,273
 Equipment                                                      50      3–10            27,180              (21,662)           5,518
 Internal use software                                         500          5           63,496              (51,948)          11,548
 Internal use software—development                             500        NA             9,858                     0           9,858
 Leasehold
                                                                50        NA             1,263                     0           1,263
 improvements—development
 Total                                                                          $  173,771       $       (111,311)     $     62,460

Note: NA means not applicable.




62	        Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
Note 6—Rental Income                   Note 7—Leases                               between two and 193 months, as
                                                                                   old leases expired, including a
Before the transfer date, the OTS      The OCC leases equipment and                new lease for Headquarters. All
leased a portion of its former         office space for its Headquarters           of the OCC’s leases are treated as
headquarters building as office and    operations in Washington, D.C.,             operating leases. All annual lease
retail space under non-cancellable     and for district and field opera-           costs under the operating leases are
operating leases expiring at various   tions. During FY 2011, the OTS              included in the Statements of Net
dates through 2021. Some of these      transferred its 10 leases for office        Cost.
leases provide renewal options.        space in various locations through-
The leases provide for annual          out the continental United States           Under existing commitments, the
base rent and additional rents for     to the OCC. In addition, the OCC            minimum yearly lease payments
building operating expenses. Some      entered into six new lease occu-            through FY 2017 and thereafter are
                                       pancy agreements that ranged                shown below.
leases provide for fixed future
increases in rents over the term of
                                       FY 2011 Future Lease Payments               FY 2010 Future Lease Payments
the lease. After the transfer date,    (in Thousands)                              (in Thousands)
the OCC assumed ownership over                     Year          Amount                      Year              Amount
the leases and received rental         2012                    $    45,569          2011                     $    35,528
income from both existing and new
                                       2013                           59,915        2012                               24,055
tenants.
                                       2014                           48,826        2013                               19,654
The future minimum rentals to be       2015                           45,078        2014                               16,757
received under non-cancellable         2016                           45,657        2015                               13,016
operating lease arrangements, not      2017 and beyond              420,088         2016 and beyond                    43,587
including renewals, are shown
                                       Total                   $   665,133          Total                    $   152,597
below.

The OCC has been negotiating an
occupancy agreement with another
federal agency for the remaining
space at the OTS’s former head-
quarters. The figure below does not
include anticipated future rental
income for the OCC.
FY 2011 Future Rental Income
(in Thousands)

        Year             Amount
2012                    $    2,468
2013                            647
2014                            599
2015                            374
2016                            305
2017 and beyond                1,141
Total                   $    5,534




                                               	          Section Six: Financial Management Discussion and Analysis	        63
Note 8—Other Actuarial                        Actuarial Liabilities Category (in Thousands)
Liabilities                                                     Component                       FY 2011          FY 2010
                                               Federal Employees’ Compensation Act            $       5,513   $       1,299
The OCC’s other actuarial liabili-
                                               Pentegra DB Plan                                       9,027                 0
ties are reported on the Balance
Sheets and include the following               Post-retirement life insurance benefits               47,732            24,991
components.                                    Total actuarial liabilities                    $      62,272   $      26,290

Federal Employees’
Compensation Act                              is a defined benefit plan that the         those OTS employees transferred
                                              OTS assumed from its predeces-             to the OCC who meet eligibil-
The Federal Employees’                        sor agency when it was created in          ity requirements. The significant
Compensation Act provides                     1989. The Pentegra DB Plan is a            increase year over year as shown
income and medical cost protection            system in which all costs are paid         in the figure above is a result of the
to cover federal civilian employ-             by the employer into one general           transfer of the existing OTS plan
ees injured on the job, employees             account. At retirement, employees          liability, which offered higher ben-
who have incurred a work-related              may either receive a lump sum or           efits than the OCC-sponsored plan.
occupational disease, and benefi-             opt for an annuity/lump sum split.         Transferred OTS plan participants
ciaries of employees whose death              There are 299 OTS employees who            that remain with the OCC will be
is attributable to a job-related              transferred to the OCC and partici-        converted to the OCC-sponsored
injury or occupational disease.               pate in the Pentegra DB Plan, 542          plan on July 28, 2012. Liabilities
Claims incurred for benefits for              retirees who receive a Pentegra            related to the OCC-sponsored plan
OCC employees covered under the               DB Plan annuity, and 708 sepa-             are significantly lower than the
Federal Employees’ Compensation               rated employees who are deferred           OTS-sponsored plan’s. Because
Act are administered by the U.S.              vested in the Pentegra DB Plan.            the actuarial calculations rely on
Department of Labor and later                 Total expenses recognized for the          a variety of factors, it is uncer-
billed to the OCC. FY 2011 and                Pentegra DB Plan during FY 2011            tain whether next year’s liability
FY 2010 present value of these                were $9.0 million. The unfunded            will be reduced once the former
estimated outflows is calculated              portion of the liability that is           OTS employees join the OCC-
using a discount rate of 3.5 percent          actuarially determined was                 sponsored plan. The weighted-
in the first year and 4.0 percent in          $86.2 million as of September 30,          average discount rate used in
subsequent years, and 3.7 percent             2011.                                      determining the accumulated
in the first year and 4.3 percent in                                                     post-retirement benefit obligation
subsequent years, respectively.               Post-retirement Life Insurance             was 4.75 percent. Gains or losses
                                              Benefits
                                                                                         owing to changes in actuarial
Pentegra Defined Benefit Plan
                                              The OCC sponsors a life insur-             assumptions are amortized over the
According to the provisions of                ance benefit plan for current and          service life of the plan.
Dodd–Frank, in FY 2011, the                   retired employees. In addition, for
                                                                                         The figure above shows the bal-
OCC assumed the role of ben-                  one year after the transfer date, the
                                                                                         ance of each of the three com-
efit administrator for a special              OCC will continue to administer
                                                                                         ponents of the OCC’s actuarial
retirement system—Pentegra                    a separate life insurance plan for
                                                                                         liabilities.
DB Plan. The Pentegra DB Plan




64	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
Net periodic post-retirement ben-           or losses from changes in long-               The following table presents a
efit costs for life insurance provi-        term assumptions used to measure              reconciliation of the beginning
sions under the plans include the           liabilities for post-retirement life          and ending post-retirement life
components shown on this page.              insurance benefits are displayed              insurance liability and provides
The total benefit expenses are              separately on the Statements of Net           material components of the related
recognized as program costs in the          Cost, as required.                            expenses.
Statements of Net Cost. Any gains

Reconciliation of Beginning and Ending Post-retirement Liability and the Related Expense (in Thousands)
 Change in actuarial and accrued benefits                                   FY 2011                             FY 2010
 Actuarial post-retirement liability beginning balance                  $     45,472                        $     21,674
 Actuarial expense:
  Normal cost                                                                  1,374                                 747
  Interest on the liability balance                                            2,385                               1,198
 Actuarial (gain)/loss:
  From experience                                                                495                                 375
  From assumption changes                                                       (691)                              1,528
 Prior service costs                                                              80                                   0
   Total expense                                                               3,643                               3,848
 Less amounts paid                                                            (1,383)                               (531)
 Actuarial post-retirement liability ending balance                     $     47,732                        $     24,991


Note 9—Net Position                         mission in the case of foreseeable            The asset replacement reserve
                                            but rare events. Foreseeable but              funds the replacement of informa-
Net position represents the net             rare events are beyond the control            tion technology investments, lease-
result of operations since inception        of the OCC and include a major                hold improvements, and furniture
and includes cumulative amounts             change in the national banking sys-           replacements for future years. The
related to investments in capital-          tem or the federal savings associa-           target level for the replacement
ized assets held by the OCC. The            tion industry or, for instance, a fire,       reserve is established annually
OCC sets aside a portion of its net         flood, or significant impairment of           based on the gross value of exist-
position as contingency and asset           the agency’s information technol-             ing property and equipment plus a
replacement reserves for use at the         ogy systems. In addition, reserves            growth-rate factor and a margin for
Comptroller’s discretion. In addi-          are available to address special              market cost adjustments.
tion, funds are set aside to cover          one-time needs resulting from the
the cost of ongoing operations.             regulatory restructuring required             The figure below reflects balances
                                            by Dodd–Frank, which could                    for FY 2011 and FY 2010.
The contingency reserve supports
the OCC’s ability to accomplish its         include payments for the Pentegra
                                            DB Plan. See Note 8.

Net Position Availability (in Thousands)                                                        
                    Component                                       FY 2011                                FY 2010
 Contingency reserve                                     $                   692,690               $                  425,048
 Asset replacement reserve                                                        192,900                                 192,900
 Set aside for ongoing operations:
  Undelivered orders                                                                  64,440                                 58,906
  Consumption of assets                                                           112,114                                    79,408
  Capital investments                                                                 33,649                                 29,192
 Net position                                            $                 1,095,793               $                  785,454


                                                    	           Section Six: Financial Management Discussion and Analysis	        65
Note 10—Net Cost of                            and from investment interest                Changes in Net Position and in
Operations                                     income earned. The operating costs          Note 12, Reconciliation of Net
                                               include the gain or loss from actu-         Cost of Operations to Budget.
The Net Cost of Operations                     arial experience and assumption
represents the OCC’s operating                 changes per the guidance in SFFAS           The following figure illustrates the
costs deducted from assessments                No. 33. The imputed financing               OCC’s operating expense catego-
and fees paid by national banks                sources for net cost of operations          ries for FY 2011 and FY 2010.
and federal saving associations                are reported on the Statements of

Net Cost of Operations by Expense Category (in Thousands)                                            
                                                                                FY 2011                         FY 2010
 Personnel compensation and benefits                                   $               546,739          $                508,575
 Contractual services                                                                     115,912                         106,476
 Rent, communication, and utilities                                                        50,381                          49,985
 Travel and transportation of persons and things                                           51,963                          48,701
 Imputed costs                                                                             33,747                          32,890
 Depreciation                                                                              18,437                          25,490
 Other                                                                                     20,329                          16,354
 Total                                                                 $               837,508          $                788,471



Note 11—Imputed Costs                          other agencies. Annually, OPM               The imputed costs categories
and Financing Sources                          provides federal agencies with              for FY 2011 and FY 2010 are
                                               cost factors for the computation of         listed in the table below. These
In accordance with SFFAS                       current year imputed costs. These           imputed costs are included on
No. 5, “Accounting for Liabilities             cost factors are multiplied by the          the Statements of Net Cost.
of the Federal Government,”                    current year salary or number               The financing sources absorbed
federal agencies must recognize                of employees, as applicable, to             by the OPM are reflected on
the portion of employees’ pension              provide an estimate of the imputed          the Statements of Changes in
and other retirement benefits to be            financing that OPM trust funds              Net Position and in Note 12,
paid by OPM trust funds. These                 will provide for each agency.               Reconciliation of Net Cost of
amounts are recorded as imputed                                                            Operations to Budget.
costs and imputed financing for

Imputed Costs Absorbed by the OPM (in Thousands)                                                     
                          Component                                             FY 2011                         FY 2010
 Retirement                                                            $                16,163          $                 18,509
 Federal Employees Health Benefits                                                         17,545                          14,346
 Federal Employees’ Group Life Insurance                                                      39                              35
 Total imputed costs covered by the OPM                                $                33,747          $                 32,890




66	      Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
Note 12—Reconciliation of              $25.1 million in excess resources          financing, and $11.7 million of
Net Cost of Operations to              available to finance activities,           OTS resources transferred in. The
Budget                                 which is a net increase of                 increase in net resources avail-
                                       $4.0 million over September 30,            able is primarily due to increased
The Reconciliation of Net Cost         2010. This net increase resulted           assessment revenue, while the
of Operations to Budget demon-         from a $101.4 million increase             increase in resources used results
strates the relationship between the   in resources available (spending           from various office space and
OCC’s proprietary accounting (net      authority from offsetting collec-          information technology invest-
cost of operations) and budgetary      tions) netted against the increase         ments as well as salary and
accounting (net obligations) infor-    of $84.8 million in resources used         employee benefits, as shown on the
mation. For FY 2011, the statement     (obligations incurred) and the             next page.
on the next page shows                 $0.9 million increase in imputed




                                              	          Section Six: Financial Management Discussion and Analysis	   67
                            Office of the Comptroller of the Currency
                        Reconciliation of Net Cost of Operations to Budget
                               For the Years Ended September 30, 2011 and 2010
                                                             (in Thousands)
                                                                                        FY 2011                 FY 2010
 Resources used to finance activities                                                                                    

 Budgetary resources obligated
      Obligations incurred                                                              $        824,994        $           740,220

      Less: spending authority from offsetting collections                                   (895,505)                  (794,109)

      Net obligations                                                                            (70,511)                   (53,889)
 Other resources
      Transfer-in without reimbursement (Note 13)                                                 11,675                          0
      Imputed financing sources (Note 11)                                                         33,747                     32,890
 Total resources used to finance activities                                                      (25,089)                   (20,999)


 Resources used to finance items not part of the net cost of operations                                                            

      Change in budgetary resources obligated for goods, services, and benefits
      ordered but not yet provided                                                                10,903                       (792)
      Resources that finance the acquisition of assets                                           (25,821)                    (9,359)

      Adjustment to net obligated balance that does not affect net cost of operations            (11,675)                         0

 Total resources used to finance items not part of the net cost of operations                    (26,593)                   (10,151)
 Total resources used to finance the net cost of operations                             $        (51,682)       $           (31,150)


 Components of the net cost of operations that will not require or generate
                                                                                                                                   
 resources in the current period

 Components requiring or generating resources in future periods
      Change in deferred revenue                                                                  41,071                      5,378
      Increase in exchange revenue receivable from the public                                      9,478                          1
      Total components that will require or generate resources in future periods                  50,549                      5,379


 Components not requiring or generating resources
      Depreciation and amortization                                                               18,437                     19,822
      Net increase in bond premium                                                                 1,742                      2,035

      Other                                                                                      (24,741)                     5,668

      Total components that will not require or generate resources                                (4,562)                    27,525


 Total components of net cost of operations that will not require or
 generate resources in the current period                                                         45,987                     32,904


 Net cost of operations                                                                  $        (5,695)           $         1,754




68	       Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
Note 13—OTS Transfer                   resources, including FBWT                  involving the OCC. For three
                                       amounts transferred in, and                of these, there was a reasonable
The OTS transfer of assets and         $11.7 million in other financing           possibility that the OCC could
liabilities to the OCC was com-        sources, which include property            incur a loss of $1.5 million, which
pleted on July 21, 2011, in accor-     and equipment transferred in.              comprises $900,000 in back pay
dance with the guidance outlined                                                  plus interest and $600,000 in
in SFFAS No. 7, “Accounting            Note 14—Commitments and                    compensatory damages. For the
for Revenue and Other Financing        Contingencies                              fourth contingency where the risk
Sources and Concepts for                                                          of loss was probable, the OCC
Reconciling Budgetary and              The OCC recognizes and discloses
                                       contingencies in accordance with           recorded a liability for FY 2011
Financial Accounting.” As the                                                     of $191,000, which covered an
receiving entity, the OCC rec-         SFFAS No. 12, “Recognition of
                                       Contingent Liabilities Arising             enforcement proceeding plus court
ognized the value of the assets                                                   costs. As of September 30, 2010,
and liabilities transferred-in at      From Litigation.” The OCC is
                                       party to various administrative pro-       the OCC reported $1.0 million for
the OTS’s book value at the time                                                  contingencies where the loss was
of transfer. Audited amounts           ceedings, legal actions, and claims
                                       brought against it, including threat-      reasonably possible. There were no
transferred in were total assets of                                               contingencies in FY 2010 where
$321.0 million, total liabilities of   ened or pending litigation involv-
                                       ing federal employment claims,             the risk of loss was probable. In
$50.1 million, and total net posi-                                                addition, for FY 2011, the OCC is
tion of $270.9 million—the major-      some of which may ultimately
                                       result in settlements or decisions         aware of one potential unasserted
ity of which is reflected within the                                              claim from a software vendor for
OCC’s contingency reserve. The         against the federal government. As
                                       of September 30, 2011, there were          approximately $1.1 million. In
total net position amount repre-                                                  FY 2010, there were no unasserted
sents $259.2 million in budgetary      four contingencies for litigations
                                                                                  claims.




                                              	          Section Six: Financial Management Discussion and Analysis	   69
Independent Auditor’s Report




                                       Independent Auditor’s Report on Financial Statements

                      Inspector General, Department of the Treasury, and
                      the Comptroller of the Currency:

                      We have audited the accompanying balance sheets of the Office of the Comptroller of
                      the Currency (OCC) as of September 30, 2011 and 2010, and the related statements
                      of net cost, changes in net position and budgetary resources (hereinafter referred to
                      as “financial statements”) for the years then ended. These financial statements are
                      the responsibility of the management of OCC. Our responsibility is to express an
                      opinion on these financial statements based on our audits. We did not audit “transfer-
                      in without reimbursement” of $270.9 million included in the Statement of Changes
                      in Net Position for the year ended September 30, 2011. This represents the net assets
                      of the Office of Thrift Supervision’s (OTS), as of July 20, 2011, that were transferred
                      to OCC in accordance with the Dodd-Frank Wall Street Reform and Consumer
                      Protection Act. The OTS’ financial statements as of and for the period ended July
                      20, 2011 were audited by another auditor whose report has been furnished to us. Our
                      opinion, insofar as it relates to the amount transferred in from OTS, is based solely on
                      the report of the other auditor.

                      We conducted our audits in accordance with auditing standards generally accepted in
                      the United States of America; the standards applicable to financial audits contained
                      in Government Auditing Standards, issued by the Comptroller General of the United
                      States; and applicable provisions of Office of Management and Budget (OMB) Bulletin
                      No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those
                      standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to
                      obtain reasonable assurance about whether the financial statements are free of material
                      misstatement. An audit includes examining, on a test basis, evidence supporting the
                      amounts and disclosures in the financial statements. An audit also includes assessing
                      the accounting principles used and significant estimates made by management, as
                      well as evaluating the overall financial statement presentation. We believe that our
                      audits and the report of the other auditor provides a reasonable basis for our opinion.

                      In our opinion, based on our audits and the report of the other auditor, the financial
                      statements referred to above present fairly, in all material respects, the financial
                      position of the OCC as of September 30, 2011 and 2010, and its net costs, changes
                      in net position, and budgetary resources for the years then ended in conformity with
                      accounting principles generally accepted in the United States of America.




70	   Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
The information in Section Six, pages 43 through 51, and page 76 of OCC’s fiscal year 2011
Annual Report is not a required part of the financial statements but is supplementary information
required by accounting principles generally accepted in the United States of America. We have
applied certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of this information. However, we did
not audit this information, and we express no opinion on it.

Our audits were conducted for the purpose of forming an opinion on the financial statements
taken as a whole. The information included in Sections One, Two, Three, Four and Five of
OCC’s fiscal year 2011 Annual Report is presented for purposes of additional analysis and is not a
required part of the financial statements. We did not audit this information, and we do not express
an opinion on it.

In accordance with Government Auditing Standards, we have also issued reports dated October
31, 2011, on our consideration of the OCC’s internal control over financial reporting, and on
our tests of its compliance with certain provisions of applicable laws, regulations, and contracts.
These reports are an integral part of an audit performed in accordance with Government Auditing
Standards, and should be read in conjunction with this report in considering the results of our
audits.




October 31, 2011




                                   	         Section Six: Financial Management Discussion and Analysis	   71
                          Independent Auditor’s Report on Internal Control over Financial Reporting

                        Inspector General, Department of the Treasury, and
                        the Comptroller of the Currency:

                        We have audited the balance sheet and the related statements of net cost, changes in
                        net position, and budgetary resources, hereinafter referred to as “financial statements”
                        of the Office of the Comptroller of the Currency (OCC) as of and for the year ended
                        September 30, 2011, and have issued our report thereon dated October 31, 2011. We
                        did not audit “transfer-in without reimbursement” of $270.9 million included in the
                        Statement of Changes in Net Position for the year ended September 30, 2011. This
                        represents the net assets of the Office of Thrift Supervision’s (OTS), as of July 20,
                        2011, that were transferred to OCC in accordance with the Dodd-Frank Wall Street
                        Reform and Consumer Protection Act. The OTS’ financial statements as of and for
                        the period ended July 20, 2011 were audited by another auditor whose report has
                        been furnished to us. Our opinion, insofar as it relates to the amount transferred
                        in from OTS, is based solely on the report of the other auditor. We conducted our
                        audit in accordance with auditing standards generally accepted in the United States
                        of America; the standards applicable to financial audits contained in Government
                        Auditing Standards, issued by the Comptroller General of the United States; and the
                        applicable provisions of Office of Management and Budget (OMB) Bulletin No. 07-
                        04, Audit Requirements for Federal Financial Statements, as amended.

                        In planning and performing our audit, we considered the OCC’s internal control
                        over financial reporting by obtaining an understanding of the design effectiveness
                        of OCC’s internal control, determined whether these internal controls had been
                        placed in operation, assessed control risk, and performed tests of controls as a basis
                        for designing our auditing procedures for the purpose of expressing our opinion on
                        the financial statements. We limited our internal control testing to those controls
                        necessary to achieve the objectives described in OMB Bulletin No. 07-04 and
                        Government Auditing Standards. We did not test all internal controls relevant to
                        operating objectives as broadly defined by the Federal Managers’ Financial Integrity
                        Act of 1982, such as those controls relevant to ensuring efficient operations. The
                        objective of our audit was not to provide an opinion on the effectiveness of OCC’s
                        internal control over financial reporting. Consequently, we do not provide an opinion
                        on the effectiveness of OCC’s internal control over financial reporting.




72	   Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
Our consideration of the internal control over financial reporting was for the limited purpose
described in the preceding paragraph and was not designed to identify all deficiencies in internal
control over financial reporting that might be deficiencies, significant deficiencies, or material
weaknesses. A deficiency in internal control exists when the design or operation of a control does
not allow management or employees, in the normal course of performing their assigned functions,
to prevent or detect and correct misstatements on a timely basis. A significant deficiency is a
deficiency or combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance.

A material weakness is a deficiency, or a combination of deficiencies, in internal control, such that
there is a reasonable possibility that a material misstatement of the entity’s financial statements
will not be prevented, or detected and corrected on a timely basis.

We did not identify any deficiencies in internal control over financial reporting that we consider
to be material weaknesses, as defined above.

We noted certain matters involving internal control and its operation that we reported to
Management of OCC in a separate letter dated October 31, 2011.

This report is intended solely for the information and use of the Management of the OCC, the
Department of the Treasury Office of Inspector General, the Government Accountability Office,
OMB, and the U.S. Congress, and is not intended to be, and should not be used by anyone other
than these specified parties. However, this report is a matter of public record and its distribution
is not limited.




October 31, 2011




                                   	          Section Six: Financial Management Discussion and Analysis	   73
                                           Independent Auditor’s Report on Compliance with
                                                        Laws and Regulations

                        The Inspector General, Department of the Treasury, and
                        the Comptroller of the Currency:


                        We have audited the balance sheets and the related statements of net cost, changes in
                        net position, and budgetary resources, hereinafter referred to as “financial statements”
                        of the Office of the Comptroller of the Currency (OCC) as of and for the years ended
                        September 30, 2011 and 2010, and have issued our report thereon dated October
                        31, 2011. We did not audit “transfer-in without reimbursement” of $270.9 million
                        included in the Statement of Changes in Net Position for the year ended September
                        30, 2011. This represents the net assets of the Office of Thrift Supervision’s (OTS),
                        as of July 20, 2011, that were transferred to OCC in accordance with the Dodd-Frank
                        Wall Street Reform and Consumer Protection Act. The OTS’ financial statements as of
                        and for the period ended July 20, 2011 were audited by another auditor whose report
                        has been furnished to us. Our opinion, insofar as it relates to the amount transferred
                        in from OTS, is based solely on the report of the other auditor. We conducted our
                        audits in accordance with auditing standards generally accepted in the United States
                        of America; the standards applicable to financial audits contained in Government
                        Auditing Standards, issued by the Comptroller General of the United States; and, the
                        applicable provisions of Office of Management and Budget (OMB) Bulletin No. 07-
                        04, Audit Requirements for Federal Financial Statements, as amended.

                        The management of the OCC is responsible for complying with laws, regulations
                        and contracts applicable to the OCC. As part of obtaining reasonable assurance
                        about whether the OCC’s financial statements are free of material misstatement, we
                        performed tests of its compliance with certain provisions of laws, regulations and
                        contracts, noncompliance with which could have a direct and material effect on the
                        determination of financial statement amounts, and certain provisions of other laws
                        and regulations specified in OMB Bulletin No. 07-04, including certain requirements
                        referred to in Section 803(a) of the Federal Financial Management Improvement Act
                        (FFMIA) of 1996. We limited our tests of compliance to the provisions described in
                        the preceding sentence, and we did not test compliance with all laws, regulations
                        and contracts applicable to the OCC. However, our objective was not to provide an
                        opinion on overall compliance with laws, regulations and contracts. Accordingly, we
                        do not express such an opinion.




74	   Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
The results of our tests of compliance with laws, regulations and contracts described in the
preceding paragraph, exclusive of FFMIA, disclosed no instances of noncompliance that are
required to be reported under Government Auditing Standards or OMB Bulletin No. 07-04.

Under FFMIA, we are required to report whether the OCC’s financial management systems
substantially comply with (1) federal financial management systems requirements, (2)
applicable federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance
with FFMIA section 803(a) requirements.

The results of our tests disclosed no instances in which the OCC’s financial management systems
did not substantially comply with the three requirements discussed in the preceding paragraph.

This report is intended solely for the information and use of the Management of the OCC, the
Department of the Treasury Office of Inspector General, the Government Accountability Office,
OMB, and U.S. Congress and is not intended to be, and should not be used by anyone other than
these specified parties. However, this report is a matter of public record and its distribution is not
limited.




October 31, 2011




                                    	         Section Six: Financial Management Discussion and Analysis	   75
Other Accompanying Information
Performance Measures and Results
The OCC’s FY 2011 performance measures, workload indicators, customer service standards, and results are
presented in figure 13.

Figure 13: Performance Measures, Workload Indicators, Customer Service Standards, and Results

                                                Performance measure                                                                                  FY 2011
    Strategic                                                                                                      FY          FY     FY
                                                  workload indicator
      goal                                                                                                        2008        2009   2010       Target      Actual
                                              customer service standard
I. A safe and sound system of national banks and federal savings associations
               Percentage of national banks and federal savings associations with
               composite CAMELS rating of 1 or 21                                             92%     82%      72%      90%                                     75%
               Rehabilitated problem national banks and federal savings associations
               as a percentage of the problem national banks one year ago (CAMELS
               3, 4, or 5)1                                                                   47%     29%      22%      40%                                     22%
               Percentage of national banks and federal savings associations that are
               well capitalized1                                                              99%     86%      91%      95%                                     93%
               Percentage of critically undercapitalized national banks and federal
               savings associations on which responsible action is taken within 90
               calendar days after they become critically undercapitalized                   100% 100% 100%           100%                                    100%
               Average survey response that the report of examination clearly
               communicated examination findings, significant issues, and the
               corrective actions management needed to take2                                  1.28     1.34    1.47   ≤ 1.75                                    1.45
II. Fair access to financial services and fair treatment of national bank and federal savings association customers
               Percentage of national banks and federal savings associations with
               consumer compliance rating of 1 or 2. For institutions with assets over
               $10 billion, these ratings will reflect only those laws and regulations for
               which the OCC has enforcement and supervisory authority.                       97%     97%      96%      94%                                     94%
               Percentage of community banks that are within one year of their first
               Intermediate Small Bank or Large Bank Community Reinvestment
               Act examination for which the OCC offers to provide consultation on
               community development opportunities                                           100% 100% 100%           100%                                    100%
               Percentage of consumer complaints closed within 60 calendar days of
               receipt                                                                        12%       8%      3%      80%                                    30%
                                                                                           41,656/ 58,810/ 80,336/ 72,000/                                  84,557/
               Number of consumer complaints opened/closed during the fiscal year           30,986 32,533 79,660 70,000                                      84,773
III. A flexible legal and regulatory framework that enables national banks and federal savings associations to provide a full,
competitive array of financial services consistent with statutory and prudential safety and soundness constraints
               Percentage of external legal opinions issued within established time
               frames                                                                         92%     88%      85%      86%                                     91%
               Number of external legal opinions issued during the fiscal year                  73       53      64       60                                      77
               Percentage of licensing applications and notices filed electronically          46%     51%      44%      40%                                     53%
               Number of licensing applications and notices filed electronically during
               the fiscal year                                                               1,525   1,681    1,440    1,200                                  1,610
               Percentage of licensing applications and notices completed within
               established time frames                                                        95%     95%      96%      95%                                     97%
               Number of licensing applications and notices completed during the
               fiscal year3                                                                  1,843   1,471    1,344    1,200                                  1,382
               Average survey rating of the overall licensing services provided by the
               OCC4                                                                           1.22     1.25    1.15    ≤ 1.5                                    1.31
IV. A competent, highly motivated, and diverse workforce that makes effective use of OCC resources
               Total OCC costs relative to every $100,000 in assets regulated                $8.39   $8.81    $9.28    $9.22                                  $8.49
Source: OCC data for all fiscal years.
1
  These performance measures for fiscal year 2011 are below target primarily because of the difficult economic situation the entire financial industry is facing. The
OCC continues to closely monitor the capital levels and performance of all its banks and, when necessary, initiates formal and informal agreements to enhance its
level of supervision.
2
    The examination survey is based on a five-point scale, in which 1 indicates complete agreement and 5 indicates complete disagreement.
3
    The number of total licensing filings has declined from the previous fiscal year because the number is based on actual applications received, which also declined.
4
    The licensing survey is based on a five-point scale, in which 1 indicates outstanding and 5 indicates significantly deficient.




76	           Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
Improper Payments                    identified 52 erroneous payments             to prevent additional erroneous
Elimination and                      requiring adjustments totaling               payments.
Recovery Act                         $17,060. Erroneous payments are
                                     identified and monitored daily               The OCC corrected and recovered
The Improper Payments                                                             all erroneous payments made dur-
                                     to ensure prompt recovery. The
Elimination and Recovery Act                                                      ing the year. Figure 14 summarizes
                                     underlying causes and contributing
of 2010, as implemented by the                                                    the OCC’s erroneous payments for
                                     factors are identified quickly, and
OMB, requires federal agencies to                                                 FY 2011 and FY 2010.
                                     control measures are implemented
review all programs and activities
annually and identify those that     Figure 14: Erroneous Payments
may be susceptible to significant
erroneous payments. The OCC                                                       FY 2011                 FY 2010
                                      Number of payments                                      52                       26
analyzed payments (excluding          Dollar value of adjustments                        $17,060                  $29,163
payroll) made during FY 2011 and     Source: OCC data.




                                              	          Section Six: Financial Management Discussion and Analysis	     77
Assurance Statement                           material weakness during FY 2011.      Dodd–Frank, including inter-
                                              Specifically, this assurance is pro-   agency rulemakings that will
The Office of the Comptroller                 vided relative to Sections 2 and 4     significantly impact our financial
of the Currency (OCC) made a                  of the FMFIA.                          system.
conscientious effort during fiscal
year (FY) 2011 to meet the internal           I am also reporting substantial        Our biggest single task this fis-
control requirements of the Federal           compliance with the requirements       cal year has been to integrate the
Managers’ Financial Integrity Act             imposed by the FFMIA.                  staff and functions of the Office of
(FMFIA), the Federal Financial                                                       Thrift Supervision (OTS) into the
Management Improvement                        The OCC conducted its assessment       OCC.46 The OCC welcomed 670
Act (FFMIA), and Office of                    of the effectiveness of internal       OTS employees into policy and
Management and Budget (OMB)                   control over financial reporting,      field units in offices around the
Circular A-123.                               which includes the safeguarding        country, successfully moving to a
                                              of assets and compliance with          single regulator for national banks
The OCC’s systems of manage-                  applicable laws and regulations, in    and federal savings associations.
ment control are designed to                  accordance with the requirements       We need former OTS staff’s talent
ensure that                                   of Appendix A of OMB Circular          and experience to help fulfill our
                                              A-123. Based on the results of         combined supervisory mission.
a)	 programs achieve their                    this evaluation, the OCC can
    intended results;                         provide unqualified assurance that     To share OCC supervisory expec-
b)	 resources are used in accor-              its internal control over financial    tations with federal savings
    dance with the agency’s                   reporting was operating effectively    associations, we corresponded with
    mission;                                  as of June 30, 2011, and no mate-      thrift industry executives through
c)	 programs and resources are                rial weaknesses were found in the      a series of information letters. We
    protected from waste, fraud,              design or operation of the internal    hosted 17 meetings for more than
    and mismanagement;                        control over financial reporting.      1,000 thrift executives, who were
d)	 laws and regulations are                                                         pleased that the OCC will maintain
    followed;                                 I also provide unqualified assur-      the OTS exam cycle and use its
e)	 controls are sufficient to mini-          ance that our supervision programs     historical supervisory information
    mize improper or erroneous                achieved intended results despite      to reduce regulatory burden.
    payments;                                 the extraordinary challenges that
f)	 performance information is                continued to confront the national     Pursuant to Dodd–Frank, the OCC
    reliable;                                 banking system.                        established the Office of Minority
g)	 system security is in substan-                                                   and Women Inclusion (OMWI) to
    tial compliance with relevant             The nation has weathered the           provide executive direction, set
    requirements;                             worst financial crisis since the       policies, and oversee OCC efforts
h)	 continuity of operations plan-            Great Depression, but it may be        encouraging diversity in manage-
    ning in critical areas is suffi-          years before all of its ill effects    ment, employment, and business
    cient to reduce risk to reason-           are behind us. The Dodd–Frank          activities. OMWI workforce initia-
    able levels; and                          Wall Street Reform and Consumer        tives will play a significant role in
i)	 financial management systems              Protection Act took important steps    continuing to keep the OCC atop
    are in compliance with federal            to strengthen the financial system     the list of “Best Places to Work.”
    financial systems standards,              and guard against future crises,
    i.e., FMFIA Section 4 and the             and the OCC is implementing its        We are engaged in several rule-
    FFMIA.                                    responsibilities regarding those       makings affecting federal sav-
                                              safeguards as quickly and effec-       ings associations, including
I am providing unqualified assur-             tively as possible.                    46
                                                                                       On July 21, 2011, the OTS
ance that the above listed man-                                                      independently submitted its final FY 2011
agement control objectives were               The OCC is involved in 96 indi-        Assurance Statement to the Secretary of
achieved by the OCC without                   vidual projects stemming from          the Treasury for the period of October 1,
                                                                                     2010, through July 20, 2011.

78	     Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
republishing as OCC rules those       supervisory letters, information           •	 The OCC’s Strategic Risk
OTS regulations that the OCC has      on enforcement actions, and other             Management Plan;
authority to administer and enforce   important confidential informa-            •	 Results of internal control test-
going forward. We continue to         tion. We also established an OCC              ing under OMB Circular A-123,
review those regulations, as well     steering committee to facilitate              Appendix A;
as our own, for added improve-        coordination and communica-                •	 Executive Committee descrip-
ments. We have published a final      tion with the CFPB on consumer                tions of business unit quality
rule addressing areas important for   protection issues affecting national          management programs;
continuity of supervision, includ-    banks and federal savings asso-            •	 Results of control self-assess-
ing assessments of federal savings    ciations. The OCC continues to                ments completed by OCC man-
associations and completed rule-      provide transitional support for              agers in FY 2011;
making to revise rules on preemp-     other CFPB functions, including            •	 Audit reports and evaluations
tion and visitorial powers. Dodd–     consumer complaints. In fact, the             issued by the Government
Frank calls for a number of other     OCC’s Customer Assistance Group               Accountability Office (GAO)
rulemakings, and we have pro-         has been handling consumer com-               and the Office of the Inspector
posed interagency rules to address    plaints about the large banks now             General;
credit-risk retention, incentive      under CFPB supervision while the           •	 Results of other external and
compensation, proprietary trading,    CFPB builds its own capacity.                 internal reviews;
and margin and capital require-                                                  •	 Improper Payments Information
ments for covered swap entities.      Analytical Basis of                           Act risk assessment submitted
                                      Assurance Statement                           to the U.S. Department of the
In FY 2011, considerable effort                                                     Treasury in June 2011;
                                      The OCC evaluated its manage-
was also devoted to the transfer                                                 •	 GAO Core Financial System
                                      ment controls in accordance with
of supervisory responsibilities                                                     Requirements Checklist;
                                      the FY 2011 Secretary’s Assurance
to the new Consumer Financial                                                    •	 FFMIA Risk Model and
                                      Statement Guidance of July 1,
Protection Bureau (CFPB)                                                            Financial Management System
                                      2011, and considered the following
and to our participation in the                                                     Self-Assessment Checklists
                                      guidance:
work of the Financial Stability                                                     submitted to the Treasury
Oversight Council, which will         •	 OMB Circular A-127, Financial              Department in July 2011;
be an important venue for avert-         Management Systems;                     •	 Unqualified and timely audit
ing and addressing future market      •	 OMB Circular A-130 Revised,                opinion on FY 2010 financial
disruptions.                             Management of Federal                      statements; and
                                         Information Resources; and              •	 Certified public accoun-
The OCC provided considerable
                                      •	 Treasury Directive 40-04,                  tant Gardiner, Kamya and
support for the CFPB standup and
                                         Treasury Internal (Management)             Associates’ status report of
worked with the new agency to
                                         Control Program.                           October 14, 2011, on the FY
harmonize our complementary
                                                                                    2011 financial statement audit.
supervisory roles. As part of its     Information considered in our
support, the OCC assisted the         control assessment included the
CFPB in developing its procure-       following:
ment and personnel management
processes.                            •	 FMFIA certifications submitted
                                                                                                            John Walsh
                                         by each Executive Committee
To assist the CFPB’s supervision                                                                   Acting Comptroller
                                         member;
requirements, we executed a mem-                                                                       of the Currency
                                      •	 FFMIA certification submitted
orandum of understanding to allow                                                                   November 3, 2011
                                         by our Chief Financial Officer;
sharing of reports of examination,




                                             	          Section Six: Financial Management Discussion and Analysis	   79
80	   Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
Abbreviations
ATM	        automated teller machines

CAMELS	 capital, asset quality, management, earnings, liquidity, and sensitivity to market risk

CARE	       Coalition of African-American Regulatory Employees

CMP	        civil money penalty

CSRS	       Civil Service Retirement System

CFPB	       Consumer Financial Protection Bureau

FASAB	      Federal Accounting Standards Advisory Board

FBWT	       fund balance with Treasury

FDIC	       Federal Deposit Insurance Corporation

FEGLI	      Federal Employees’ Group Life Insurance

FEHB	       Federal Employees Health Benefits

FERS	       Federal Employees Retirement System

FFMIA	      Federal Financial Management Improvement Act

FMFIA	      Federal Managers’ Financial Integrity Act

FSOC 	      Financial Stability Oversight Council

FY 	        fiscal year

GAAP 	      generally accepted accounting principles

GAO 	       Government Accountability Office

GLSA	       Gay, Lesbian, and Straight Alliance

HOLA 	      Hispanic Organization for Leadership and Advancement

ITS 	       Information Technology Services

LSS 	       Lean Six Sigma

NAPA	       Network of Asian Pacific Americans

OCC 	       Office of the Comptroller of the Currency

OM 	        Office of Management

OMB 	       Office of Management and Budget

OMWI 	      Office of Minority and Women Inclusion

OPM 	       Office of Personnel Management


                                                            81
                                              	Abbreviations	
OTS 	          Office of Thrift Supervision

QRM 	          qualified residential mortgages

SFFAS 	        Statement of Federal Financial Accounting Standards

SFAS 	         Statement of Financial Accounting Standard

USC 	          U.S. Code




82	      Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
Index
A
abbreviations list, 81
Acting Comptroller of the Currency. See Walsh, John
assurance statement, 78–79
automated teller machines (ATM), 19

B
bank failures, 7
bank holding companies, 4, 11, 17, 24, 38, 39
Bank Secrecy Act, 20, 25
Bank Supervision Policy Department, 34
Barnett preemption standard. See preemption
Basel Committee on Banking Supervision, 2, 4, 14–15
Bland, Toney M., 12
Bloom, Thomas R., 11, 34, 35, 43–44
Brosnan, Michael L., 34

C
CAMELS, 76
Change in Bank Control Act, 40
Chase, Salmon P., ii
Chief Counsel’s Office, OCC, 25
Chief Financial Officer (CFO), Letter From, 43–44. See Bloom, Thomas R.
Chief National Bank Examiner, 14, 34
Chief of Staff and Public Affairs, 33, 35
civil money penalty (CMP), i, 21, 41, 46, 59, 61
Civil Service Retirement System (CSRS), 51, 58
Cofield, Joyce, 23, 35
commercial real estate. See real estate, commercial
Community Affairs Department, 26, 34
community development, 26, 34, 76
Community Reinvestment Act, 20, 26, 41, 76
compensation practices, 18, 20, 79
    Federal Employees’ Compensation Act, 64
Comptroller of the Currency. See Walsh, John
Comptroller’s Viewpoint, 2–5
Condition of the National Banking System. See national banking system
consent orders, 8, 21
consumer advisories
    card skimming at ATMs, 19



                                              83
                                        	Index	
    mortgage modification and foreclosure rescue scams, 19
    public service announcements, 19, 20
    Spanish-language outreach, 20
consumer complaints. See Customer Assistance Group
Consumer Financial Protection Bureau (CFPB), 3, 7, 13–14, 20, 44, 79
consumer protection laws and regulations, ii, 3, 8, 11, 20, 79
counterparty credit-risk management. See credit quality
credit quality, 16, 18, 29
    credit risk, 3, 16, 17, 18, 34
    counterparty credit-risk management, 17
    credit-risk management, 16, 17, 25, 26
    credit-risk retention, proposed rule, 3, 10–11, 79
credit underwriting, 3, 17–18
Cross, Glenda, 25
Cuomo v. The Clearing House Association, 13
Customer Assistance Group, 13, 35
    consumer complaints, 13–14, 20, 79

D
Department of Agriculture, U.S., 26
Department of Housing and Urban Development, U.S., 19
Department of the Treasury, U.S., i, 26, 33, 50, 56, 57, 79
Deputy Comptroller, Central District. See Otto, Bert
Deputy Comptroller for Community Affairs. See Wides, Barry
Deputy Comptroller for Large Banks. See Jee, Delora
Deputy Comptroller for Operational Risk. See DuChene, Carolyn
Deputy Comptroller for Thrift Supervision. See Ward, Timothy T.
Deputy Comptroller, Northeastern District. See Bland, Toney M.
derivatives, 17
Disclosure Services, Manager of. See Vance, Frank
district boundaries, inside front cover
Dodd–Frank Wall Street Reform and Consumer Protection Act of 2010, ii, 2–4, 7, 8, 11, 12, 13, 14, 15,
          20, 23, 38, 43, 44, 45, 49, 56, 64, 65, 78, 79
    Basel III, 14–15
    OTS transfer. See OCC–OTS transfer
    proprietary trading, 4, 14, 79
    Section 111, 14
    Section 115(a), 15
    Section 115(b), 15
    Section 165(i), 17
    Section 171(b), 15
    Section 619, “Volcker rule,” 14
    Section 941, 10
    Section 956, 18
    Section 1472, 10
DuChene, Carolyn, 25–26


84	    Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
E
economic recovery, 5, 7, 9, 18, 29, 30
Economics Department, OCC, 34
enforcement actions, 2, 4, 5, 9, 13, 20, 21, 27, 41, 69, 76, 79
equal employment opportunity and diversity, 5, 23–24, 35, 78
Equal Employment Opportunity Commission, U.S., 23
Executive Committee, OCC, 34, 79
Export–Import Bank of the United States, 26
External Outreach and Minority Affairs, Office of, 24–25

F
Federal Accounting Standards Advisory Board (FASAB), 56, 57, 59
Federal Deposit Insurance Corporation (FDIC), i, 8, 11, 17, 18, 24, 38
Federal Employees’ Compensation Act, 64
Federal Employees’ Group Life Insurance (FEGLI), 51, 58, 66
Federal Employees Health Benefits (FEHB), 51, 58, 66
Federal Employees Retirement System (FERS), 51, 58
Federal Financial Management Improvement Act (FFMIA), 78–79
Federal Managers’ Financial Integrity Act (FMFIA), 78–79
Federal Reserve, 4, 8, 10, 11, 15, 16–17, 18, 24
federal savings associations (thrifts), inside front cover, i–ii, 5, 7–8, 9, 12–13, 14, 15–16, 20, 24, 25, 26,
        29, 30, 33, 34, 38, 40, 43–44, 46, 47, 49, 50, 51, 56, 58, 61, 65, 76, 78–79
    Change in Bank Control Act, 37, 39, 40
    corporate application activity, ii, 37–38
    failures, 7
    number of, inside front cover
financial crisis, 2–5, 7, 14, 15, 17, 18, 25, 29, 30, 78
Financial Management Discussion and Analysis
    assets, 43, 44, 45, 46, 48, 49, 52, 56, 57, 62, 65, 68, 69, 78
    assurance statement, 78–79
    Balance Sheets, 43, 45, 48, 52, 56, 61, 64
    Bloom, Thomas, R., 43–44
    budgetary resources, 51, 55, 56, 59, 68, 69
    cost of operations, 48, 50, 53, 54, 66, 67–68
    Financial Management Department, 43
    financial statements, 43–44, 45, 52–55, 56–69, 79
    Financial Summary, 45–51
    GKA, independent auditor, 43, 70–75
    independent auditor’s report, 70–75
    investments, 46, 48, 49, 50, 52, 56, 57, 59, 60, 65, 66, 67
    Lean Six Sigma, 44
    Letter From the Chief Financial Officer, 43–44
    liabilities, 43, 44, 45, 47, 49, 52, 56, 57, 58, 59, 64, 65, 69
    net position, 45, 48, 49, 50, 52, 54, 56, 65, 66, 69
    notes to the financial statements, 56–69
    Office of Management, 35, 44


                                                   85
                                             	Index	
    Office of Thrift Supervision transfer. See Office of Thrift Supervision.
    other accompanying information, 76–77
    reserves, 43–44, 48, 49, 65, 69
    revenues and costs, 48, 49, 51, 53, 56, 57, 59
    Statements of Budgetary Resources, 45, 51, 55, 56, 57
    Statements of Changes in Net Position, 45, 48, 50, 54, 56, 66
    Statements of Net Cost, 45, 50, 51, 53, 56, 59, 63, 65, 66
    unqualified audit opinion, 43, 45, 79
Financial Stability Oversight Council (FSOC), 3, 14, 15
financial statements, 52–55, 56–69
    Balance Sheets, 43, 45, 48, 52, 56, 61, 64
    notes to, 56–69
    Statements of Budgetary Resources, 45, 51, 55, 56, 57
    Statements of Changes in Net Position, 45, 48, 50, 54, 56, 66
    Statements of Net Cost, 45, 50, 51, 53, 56, 59, 63, 65, 66
First Senior Deputy Comptroller and Chief Counsel. See Williams, Julie L.
flood insurance, 20, 41
foreclosure actions. See mortgages
Freedom of Information Act, 11, 24
fund balance with Treasury (FBWT), 45, 46, 52, 57, 59–60, 69

G
Geithner, Timothy F., 14
generally accepted accounting principles (GAAP), 43, 45, 56, 59
GKA, independent auditor, 70–75
Government Accountability Office (GAO), 79
Great Depression, 7, 78

H
Hattix, Larry L., 35
housing markets, 7, 10, 18

I
Improper Payments Information Act, 79
incentive-based compensation practices, 18, 20, 79
independent auditor’s report, 70–75
information security
    Internet authentication practices, 20
    online accounts, 20, 21
Information Technology Services (ITS), 44
“Interagency Appraisal and Evaluation Guidelines,” 10
interest rate risk, 16, 27
internal controls, i, 10, 43, 44, 78, 79

J
Jee, Delora, 13

86	    Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
K
Kelly, Jennifer C., 12, 34

L
Large Bank Supervision, 16, 34
Lean Six Sigma (LSS), 44
Letter From the Chief Financial Officer, 43–44
Levonian, Mark, 34
licensing and enforcement measures, 37–41
    applications presenting Community Reinvestment Act issues decided, 41
    Change in Bank Control Act, federal savings associations, 40
    Change in Bank Control Act, national banks, 40
    corporate application activity, federal savings associations, 38
    corporate application activity, national banks, 37
    enforcement actions, 41
    licensing actions and timeliness, national banks, 39
Lincoln, Abraham, ii
liquidity, i, 2, 4, 5, 7, 15
    risk management, 16, 17
Lincoln, Abraham, ii
loan losses, 7
    provisions, 16, 29
Long, Timothy W., 14
Lyons, John C., Jr., 34

M
“Management’s Responsibility for Internal Control,” OMB Circular A-123, 43, 78, 79
McCulloch, Hugh, ii
Midsize and Community Bank Supervision Department, 12, 34
minority-owned depository institutions, 24–25
model risk management, 16, 18
Mortgage Metrics Report, OCC, 9–10
mortgages,
   enforcement actions against servicers, 2, 4–5, 9, 21
   foreclosure practices, 2, 4, 5, 8–9, 10, 19, 21
   horizontal review, 4, 8
   lending activities, 2, 3, 7
   modifications, 8, 9, 10, 19
   performance, 9
   qualified residential mortgages, 3, 10, 11
   scams, 19
   securitization, 2, 3, 11
   servicers, 2, 4–5, 8–9, 10
Mutual Savings Association Advisory Committee, 27




                                              87
                                        	Index	
N
national banking system, ii, 14, 25, 43, 49, 51, 66, 78
    capital, 4–5, 7, 14, 15, 30, 37, 39, 43
    Change in Bank Control Act, 40
    condition of, 29–30
    corporate application activity, ii, 37–38
    credit quality, 16, 18, 29
    funding and lending, 29
    large, midsize, and community banks, and federal savings associations, number of, inside front cover
    OCC-supervised institutions
        number of, inside front cover
        share of total U.S. commercial banking assets, inside front cover
        total assets, inside front cover
    licensing actions and timeliness, 39
    net income, 29
    provisions and credit quality, 29
    revenues, 29–30
    summary, 29
National BankNet, 27
National Currency Act (1863), ii, 56
National Diversity Internship Program, 24

O
Obama, Barack, 11, 45
OCC–OTS integration, 2, 11–13, 24, 25, 27, 43
    Dodd–Frank. See Dodd–Frank Wall Street Reform and Consumer Protection Act of 2010
    outreach to thrifts, 2–3, 27
    pilot examinations, 12
    policy integration project, 11, 25–26
    transfer of assets and liabilities, 44, 45, 46, 47
    transfer date, 2, 3, 7, 11, 13, 43, 45, 47, 50, 56, 59, 62, 63, 64, 69, 78
Office of Management (OM). See Financial Management Discussion and Analysis
Office of Management and Budget (OMB), 33, 43, 56, 77, 78, 79
Office of Minority and Women Inclusion (OMWI), 23, 78
Office of Personnel Management (OPM), 51, 58, 66
Office of the Comptroller of the Currency (OCC)
    approach to supervision, 12, 25
    budget authority, inside front cover, 49
    district boundaries, inside front cover
    employees, number of, inside front cover
    equal employment opportunity and diversity, 5, 23–24, 35, 78
    headquarters, i, 24, 26, 44, 49, 63
    history, i–ii
    mission, i
    office locations, inside front cover
    organization, 33–35


88	    Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
    preemption standard, 3, 12–13, 79
    sources of revenue, inside front cover, 46, 49, 56–57
    workforce, inside front cover, 23–24, 35, 56, 76, 78
Office of Thrift Supervision (OTS)
    communications and outreach, 2–3, 27
    Dodd–Frank. See Dodd–Frank Wall Street Reform and Consumer Protection Act of 2010
    employees, inside front cover
   federal savings associations, inside front cover, i–ii, 5, 7–8, 9, 12–13, 14, 15–16, 20, 24, 25, 26, 29,
        30, 33, 34, 38, 40, 43–44, 46, 47, 49, 50, 51, 56, 58, 61, 65, 76, 78–79
    former headquarters, 63
    integration into OCC, 2, 4, 11–12, 24, 25, 27
    Joint Implementation Plan, 11
    pilot examinations, 12
    policy integration project, 11, 25–26
    preemption standard, 3, 12
    staffing plan, 12
    transfer, assets and liabilities, 44, 45, 46, 47
    transfer date, 2, 3, 7, 11, 13, 43, 45, 47, 50, 56, 59, 62, 63, 64, 69, 78
Ombudsman, 20, 35
OTS–OCC integration. See OCC–OTS integration
Otto, Bert, 27

P
performance measures and results, 9, 29, 76
policy integration project, 11, 25–26
preemption
    Barnett preemption standard, 3
    Cuomo v. the Clearing House Association, 13
    state visitorial and enforcement power, 12, 13, 79
prepaid access, 21
Privacy Act, 24
prompt corrective action, 41
proprietary trading. See Dodd–Frank Wall Street Reform and Consumer Protection Act of 2010
Public Affairs Department, OCC, 33, 35
public service announcements, 19, 20

Q
qualified residential mortgages (QRM). See mortgages

R
real estate, 5, 7, 10, 29
    appraisals and evaluation guidelines, 10
    commercial, 7, 16, 29
    residential, 7, 10, 18, 29
reconciliation of net cost of operations to budget, 66, 67–68
records integration and Freedom of Information Act, 24

                                                  89
                                            	Index	
risk management, 8, 16, 17, 79
    categories of, 17
    interest rate, 16, 27
    liquidity, 16
    online banking, 20, 21
rulemaking, 2–4, 13, 14, 78, 79

S
safety and soundness, 3, 7, 8, 14, 15, 41, 45, 76
securities, 29–30, 34, 60
    asset-backed, 11
    U.S. Treasury, 46, 49–50, 56–57
securitization, 2–3, 11
Senior Deputy Comptroller and Chief Financial Officer. See Bloom, Thomas R.
Shared National Credit Program, 18
Small Business Administration, U.S., 26
small business lending, 24–25, 26–27
Statement of Federal Financial Accounting Standards (SFFAS), 56, 57, 59, 66, 69
Statement of Financial Accounting Standard (SFAS), 57, 59
stress testing, 16–17
Supervisory Capital Assessment Program. See stress testing
Survey of Credit Underwriting Practices, 17–18

T
thrifts. See federal savings associations, Office of Thrift Supervision

V
Vance, Frank, 24
visitorial powers. See preemption
Volcker rule, 3, 14

W
Walsh, John, i, 2–5, 8, 9, 11, 12, 14, 15, 25, 33, 34, 78–79
   biography, 33
Ward, Timothy T., 12
Wides, Barry R., 26
Williams, Julie L., 8, 11, 34
Wilson, David K., 34

Y
Year in Review—Housing in the Forefront, 7–21




90	    Office of the Comptroller of the Currency | Annual Report Fiscal Year 2011
